ia
APPENDIX
TABLE OF CONTENTS
Page
Opinion of the United States Court of Appeals for the Federal Circuit,
LaTurner v. United States, Nos. 2018-1509, 2018-1510 (Aug. 13, 2019) ................ 1a
Opinion and Order of the United States Court of Federal Claims, Lea v. United
States, No. 16-43C (Aug. 8, 2017) ........................................................................... 23a
Opinion and Order of the United States Court of Federal Claims, Lea v. United
States, No. 16-43C (Dec. 1, 2017) ........................................................................... 58a
Opinion and Order of the United States Court of Federal Claims, Estes v.
United States, No. 13-1011C (Aug. 20, 2015) ......................................................... 64a
Order of the United States Court of Appeals for the Federal Circuit, LaTurner
v. United States, Nos. 2018-1509, 2018-1510 (Dec. 11, 2019) ............................... 87a
Constitutional Provisions and Ordinances Involved
U.S. CONST. amend. V ............................................................................................. 89a
31 U.S.C. § 3105 ....................................................................................................... 89a
ARK. CODE § 18-28-231 ......................................................................................... 90a
31 C.F.R. § 315.15 ................................................................................................. 91a
31 C.F.R. § 315.20 (2015) ...................................................................................... 91a
31 C.F.R. § 315.21 ................................................................................................. 92a
31 C.F.R. § 315.22 ................................................................................................. 92a
31 C.F.R. § 315.23 ................................................................................................. 93a
31 C.F.R. § 315.25 ................................................................................................. 94a
31 C.F.R. § 315.26 ................................................................................................. 94a
31 C.F.R. § 315.27 ................................................................................................. 95a
31 C.F.R. § 315.29 ................................................................................................. 95a
31 C.F.R. § 315.90 ................................................................................................. 95a
31 C.F.R. § 323.2 ................................................................................................... 95a
Complaint, Lea v. United States, No. 16-43C (Jan. 11, 2016) .................................. 97a
Judgment, Lea v. Martin, No. 72 CV-15-1910-5 (Ark. Cir. Ct. Washington Cty.
Nov. 20, 2015) ........................................................................................................ 120a
Letter from Denise Nelson, Co-Disclosure Officer, U.S. Department of the
Treasury, to John W. Ahlen, Legal Counsel, Office of the Auditor of State
Andrea Lea, Arkansas (Sept. 28, 2015) ................................................................ 137a
Letter from Andrea Lea, Auditor of State, Arkansas, to Sheryl Morrow,
Commissioner, U.S. Department of the Treasury (Nov. 25, 2015) ..................... 140a

iia
Letter from Dara Seaman, Assistant Commissioner, U.S. Department of the
Treasury, Bureau of the Fiscal Service, to Andrea Lea, Auditor of State,
Arkansas (Jan. 28, 2016) ...................................................................................... 143a
PD Bulletin No. 111, Bureau of the Public Debt, U.S. Department of the
Treasury, (Feb. 27, 1952) ...................................................................................... 155a
Letter from H.J. Hintgen, Commissioner, Bureau of the Public Debt, U.S.
Department of the Treasury, to Robert A. Zaban, Deputy Attorney General,
State of Indiana (Nov. 19, 1971) ........................................................................... 159a
Letter from William E. Simon, U.S. Department of the Treasury, to Robert W.
Flanders, State Treasurer, State of New Hampshire (May 12, 1976) ................ 161a
Letter from C. Gardner, Director, Division of Transactions and Rulings, U.S.
Department of the Treasury, to Paul D. Connor, Assistant Director,
Abandoned Property, State Treasury of Massachusetts (Oct. 1, 1982) .............. 163a
Letter from Van Zeck, Commissioner, Bureau of the Public Debt, U.S.
Department of the Treasury, to Richard H. Moore, Treasurer, State of North
Carolina (Apr. 6, 2004).......................................................................................... 165a
Letter from Fred Pyatt, Assistant Commissioner, Office of Investor Services,
Bureau of the Public Debt, U.S. Department of the Treasury, to Richard I.
Donelan, Jr., Chief Counsel, Division of Legal Services, State of Florida (Oct.
6, 2006) .................................................................................................................. 167a
U.S. Department of the Treasury, EE/E Savings Bonds FAQs,
TreasuryDirect ...................................................................................................... 169a
Brief for Appellees, Treasurer of N.J. v. United States Dep’t of the Treasury,
No. 10-1963 (3d Cir. Dec. 23, 2011) ...................................................................... 171a
Brief for the Respondents in Opposition, Director of the Department of Revenue
of Montana v. Department of the Treasury, No. 12-926 (U.S. Apr. 2013) ........... 174a

1a

United States Court of Appeals
for the Federal Circuit
______________________

JAKE LATURNER, TREASURER OF THE STATE
OF KANSAS, ANDREA LEA, IN HER OFFICIAL
CAPACITY AS AUDITOR OF THE STATE OF
ARKANSAS,
Plaintiffs-Appellees
v.
UNITED STATES,
Defendant-Appellant
______________________
2018-1509, 2018-1510
______________________
Appeals from the United States Court of Federal
Claims in Nos. 1:13-cv-01011-EDK, 1:16-cv-00043-EDK,
Judge Elaine Kaplan.
______________________
Decided: August 13, 2019
______________________
DAVID CHARLES FREDERICK, Kellogg, Huber, Hansen,
Todd, Evans & Figel, PLLC, Washington, DC, argued for
all plaintiffs-appellees. Plaintiff-appellee Jake LaTurner
also represented by SCOTT H. ANGSTREICH, KATHERINE
COOPER, BENJAMIN SOFTNESS;
JONATHAN BRETT
MILBOURN, Horn Aylward & Bandy, LLC, Kansas City,
MO.
DAVID THOMPSON, Cooper & Kirk, PLLC, Washington,

2a
LATURNER v. UNITED STATES

2

DC, for plaintiff-appellee Andrea Lea. Also represented by
JOHN DAVID OHLENDORF, PETER A. PATTERSON; JOSEPH H.
MELTZER, MELISSA L. TROUTNER, Kessler Topaz Meltzer &
Check, LLP, Radnor, PA.
ALISA BETH KLEIN, Appellate Staff, Civil Division,
United States Department of Justice, Washington, DC, argued for defendant-appellant. Also represented by MARK
B. STERN, JOSEPH H. HUNT.
GEORGE W. NEVILLE, Office of the Mississippi Attorney
General, Jackson, MS, for amici curiae State of Florida,
State of Mississippi, State of Georgia, State of Indiana,
State of Iowa, Commonwealth of Kentucky, State of Louisiana, Commonwealth of Pennsylvania, State of Ohio,
State of South Carolina, State of Rhode Island, State of
South Dakota.
______________________
Before DYK, CHEN, and HUGHES, Circuit Judges.
DYK, Circuit Judge:
During the Great Depression, President Franklin D.
Roosevelt signed legislation allowing the U.S. Department
of Treasury (“Treasury”) to issue savings bonds, a type of
debt security designed to be affordable and attractive to
even the inexperienced investor. Under longstanding federal law, savings bonds never expire and may be redeemed
at any time after maturity.
See, e.g., 31 U.S.C.
§ 3105(b)(2)(A); 31 C.F.R. § 315.35(c). Federal law also limits the ability to transfer bonds. 31 C.F.R. § 315.15. Kansas and Arkansas (the “States”) passed so-called “escheat”
laws providing that if bond owners do not redeem their savings bonds within five years after maturity, the bonds will
be considered abandoned and title will transfer (i.e., “escheat”) to the state two or three years thereafter. Kan.
Stat. Ann. §§ 58-3935(a)(16), 58-3979(a) (2000); Ark. Code
Ann. § 18-28-231(a)–(b) (2015).

3a
LATURNER v. UNITED STATES

3

Pursuant to these escheat laws, the States sought to
redeem a large but unknown number of bonds, estimated
to be worth hundreds of millions of dollars. When Treasury
refused, the States filed suit in the Court of Federal Claims
(“Claims Court”). The Claims Court agreed with the
States, holding that Treasury must pay the proceeds of the
relevant bonds—once it has identified those bonds—to the
States. The cases were certified for interlocutory appeal to
this court.
We reverse for two independent reasons. First, we hold
that federal law preempts the States’ escheat laws. That
means that the bonds belong to the original bond owners,
not the States, and thus the States cannot redeem the
bonds. Second, even if the States owned the bonds, they
could not obtain any greater rights than the original bond
owners, and, under Federal law, 31 C.F.R. § 315.29(c), a
bond owner must provide the serial number to redeem
bonds six years or more past maturity, which includes all
bonds at issue here. Because the States do not have the
physical bonds or the bond serial numbers, Treasury
properly denied their request for redemption.
BACKGROUND
This case concerns the ability of states to acquire U.S.
savings bonds through escheat, the centuries-old right of
the states to “take custody of or assume title to abandoned
personal property.” Delaware v. New York, 507 U.S. 490,
497 (1993). A savings bond is a contract between the
United States and the bond owner, and Treasury regulations are incorporated into the bond contract. See Treasurer of New Jersey v. U.S. Dep’t of the Treasury, 684 F.3d
382, 387 (3d Cir. 2012), cert. denied, 569 U.S. 1004 (2013).
Treasury “regulations do not impose any time limits for
bond owners to redeem the[se] savings bonds.” Id. at 388;
see also 31 U.S.C. § 3105(b)(2)(A) (authorizing Treasury to
adopt regulations providing that “owners of savings bonds
may keep the bonds after maturity”). In addition, Treasury

4a
4

LATURNER v. UNITED STATES

regulations provide that savings bonds are generally “not
transferable and are payable only to the owners named on
the bonds.” 31 C.F.R. § 315.15. When the sole owner of a
bond dies, “the bond becomes the property of that decedent’s estate.” 31 C.F.R. § 315.70(a). Federal law imposes
no time limit on the redemption of savings bonds, and numerous savings bonds in the country have matured but
have not yet been redeemed by their owners. Generally, in
order to redeem bonds not in the physical possession of the
owner—for example, bonds that have been lost or destroyed—the owner must supply the serial numbers of the
bonds to Treasury.
31 C.F.R. §§ 315.25, 315.26(a),
315.29(c). The States do not have the serial numbers of the
bonds in question.
This case is related to an earlier litigation that resulted
in a decision by the Third Circuit. In the 2000s, several
states attempted to acquire the proceeds of unredeemed
savings bonds through so-called “custody escheat” laws.
See New Jersey, 684 F.3d at 389–90. These laws provided
that if bond owners with last known addresses in the state
did not redeem their bonds within a certain time after maturity (such as five years), the bonds would be deemed
abandoned property. The state could then obtain legal custody of (but not title to) the bonds. When several states
asked Treasury to redeem bonds obtained through these
custody escheat laws, Treasury refused. Treasury explained that for the bonds to be paid, a state “must have
possession of the bonds” and “obtain title to the individual
bonds”—neither of which the states had. J.A. 507 (2004
letter to North Carolina); accord J.A. 509 (letter to Illinois);
J.A. 511 (letter to D.C.); J.A. 513 (letter to Kentucky); J.A.
515 (letter to New Hampshire); J.A. 517 (letter to South
Dakota); J.A. 519 (letter to Connecticut); J.A. 521 (letter to
Florida).
A number of states filed suit in the District of New Jersey, seeking an order directing the government to pay the
bond proceeds. The district court upheld Treasury’s denial

5a
LATURNER v. UNITED STATES

5

of payment, holding that the states’ custody escheat laws
were preempted. See New Jersey, 684 F.3d at 394. The
Third Circuit affirmed, explaining that the states’ laws
“conflict[ed] with federal law regarding United States savings bonds in multiple ways.” Id. at 407. The court reasoned that unredeemed bonds are “not ‘abandoned’ or
‘unclaimed’ under federal law because the owners of the
bonds may redeem them at any time after they mature.”
Id. at 409. “The plaintiff States’ unclaimed property acts,
by contrast, specify that matured bonds are abandoned and
their proceeds are subject to the acts if not redeemed within
a [certain] time period” after maturity. Id. at 407–08.
“There simply is no escape from the fact that the Federal
Government does not regard matured but unredeemed
bonds as abandoned even in situations in which [state law]
would do exactly that.” Id. at 409. However, the Third Circuit declined to address whether the outcome would be different if states obtained title to savings bonds, as opposed
to mere custody. Id. at 413 n.28 (“We simply are not faced
with that possibility and thus we do not address it.”).
After the New Jersey litigation, Kansas and Arkansas
acted to obtain title to the bonds using “title escheat”
laws—precisely the circumstance the Third Circuit’s New
Jersey decision did not reach. Kansas’s title escheat law
provides that a savings bond will be considered “abandoned” if it is not redeemed within five years of maturity.
Kan. Stat. Ann. § 58-3935(a)(16). If the bond remains unredeemed for three more years—that is, for a total of eight
years after maturity—Kansas may obtain a state court
judgment that title to the bond has escheated to the state.
Id. § 58-3979(a). Arkansas’s law is similar, providing that
savings bonds will be considered abandoned five years after maturity and that the state can obtain title to the bonds
two years after that. Ark. Code Ann. § 18-28-231(a)–(b).
Kansas and Arkansas obtained state court judgments
purporting to give them title to the category of bonds
deemed abandoned under these title escheat laws—that is,

6a
6

LATURNER v. UNITED STATES

all unredeemed bonds that were sufficiently past maturity
and were registered to owners with last known addresses
in Kansas or Arkansas. 1 See J.A. 251 (Kansas); J.A. 1244
(Arkansas). These bonds were not in the States’ possession. 2 Kansas and Arkansas estimated that the allegedly
abandoned bonds were worth $151.8 million and $160 million, respectively.
The States then attempted to redeem these bonds, asking Treasury to redeem bonds whose registered owners had
last known addresses in the state, relying on its general
authority to escheat debts owed to individuals whose last
known addresses were in the state. See generally Texas v.
New Jersey, 379 U.S. 674, 680–81 (1965) (holding that as
to abandoned intangible property—there, various debts—
“the right and power to escheat the debt should be accorded
to the State of the creditor’s last known address”). 3

For Kansas, the relevant bonds are 40-year Series E
bonds issued between 1941 and December 31, 1961; 30year Series E bonds issued between 1965 and December 31,
1972; and Series A–D, F, G, H, J, and K bonds issued before
December 31, 1972. J.A. 245. For Arkansas, the relevant
bonds are “all unredeemed series A through D, F, G, J, and
K bonds, and all series E and H bonds that were issued on
or before October 16, 1978.” J.A. 1243.
2
The States also escheated and asked Treasury to redeem a much smaller number of bonds that they did possess. Treasury did so, relying on its authority under 31
C.F.R. § 315.90 to waive its other regulations. See Regulations Governing United States Savings Bonds, 80 Fed. Reg.
37,559, 37,3560 (U.S. Dep’t of Treasury July 1, 2015). The
bonds in the States’ possession are not at issue in this case.
3
Below, the government challenged the States’ authority to escheat based on the last known address of the registered bond owners, since some bond owners may have
moved out of state. The government does not make this
1

7a
LATURNER v. UNITED STATES

7

Treasury declined, stating that “[u]nless some exception or
waiver in [its] regulations applies, Treasury is only authorized to redeem a savings bond to the registered owner,” J.A.
368, who retains the right “to redeem their savings bonds
at any time, even after maturity,” J.A. 369.
The States sued for damages under the Tucker Act, 28
U.S.C. § 1491, alleging that the States were the owners of
the absent bonds and that the government had breached
the terms of the savings-bonds contracts by refusing to redeem the bonds. On cross-motions for summary judgment,
the Claims Court sided with the States, holding that Treasury was liable to the States and had an obligation to identify the absent bonds. The Claims Court reasoned that
there was no preemption because “federal law itself (i.e., 31
C.F.R. § 315.20(b)) requires Treasury to recognize claims of
ownership based on title-based escheatment statutes.” Laturner v. United States, 133 Fed. Cl. 47, 71 (2017).
The court also concluded that the States have the
“right[] as an owner of the bonds to make a claim for their
proceeds based on the theory that they are ‘lost.’” Id. at 70.
It determined that “Treasury breached the [bond] contract
when it refused to provide [the States] with information
about the bonds and demanded that [the States] produce
the bond certificates as a condition of redeeming their proceeds.” Id. at 65. Thus, the Claims Court held that the
States were “entitled to receive from the government the
information necessary to allow it to make a request to redeem the bonds,” including the serial numbers of the absent bonds. Id. at 77; see also id. at 70; Laturner v. United
States, 135 Fed. Cl. 501, 505 (2017).

argument on appeal, and we assume without deciding that
the States have the authority—absent preemption—to escheat savings bonds based on the last-known address of the
registered owner.

8a
LATURNER v. UNITED STATES

8

The Claims Court certified its summary judgment orders for interlocutory appeal under 28 U.S.C. § 1292(d)(2), 4
noting that identifying the absent bonds would be time-intensive and expensive and that there are eight other pending cases in which other states are asserting similar claims.
The court also stayed the proceedings pending appeal.
We granted the government’s petitions for leave to appeal and consolidated the appeals. We have jurisdiction
under 28 U.S.C. § 1292(d)(2).
DISCUSSION
I
We first address whether, as the government contends,
the Treasury regulations governing U.S. savings bonds
preempt the States’ escheat laws regarding unredeemed
savings bonds. The parties assume that the regulations in
effect before December 24, 2015, are the relevant regulations. 5 We proceed on that assumption.

The language of section 1292(d)(2) “is virtually identical to 28 U.S.C. § 1292(b) . . . which governs interlocutory
review by other courts of appeals.” United States v. Connolly, 716 F.2d 882, 883 n.1 (Fed. Cir. 1983) (en banc).
5
The government’s position is that the relevant regulations are those “that were in effect at the time the requests
were made”—that is, in May 2013 (for Kansas) and in November 2015 (for Arkansas), respectively. Gov’t Open. Br.
at 7 n.3. (There was no change in the regulations between
these dates.) The Claims Court indicated that it was applying the regulations in effect when the States filed their
complaints—that is, in December 2013 (for Kansas) and in
November 2015 (for Arkansas), respectively. The States’
position is somewhat unclear, though they agree that the
pre-amendment regulations apply to this case. Given the
parties’ agreement as to the relevant regulations, we
4

9a
LATURNER v. UNITED STATES

9

A
The Constitution limits state sovereignty “by granting
certain legislative powers to Congress while providing in
the Supremacy Clause that federal law is the ‘supreme
Law of the Land . . . any Thing in the Constitution or Laws
of any State to the Contrary notwithstanding.’” Murphy v.
NCAA, 138 S. Ct. 1461, 1476 (2018) (quoting U.S. Const.
art. VI, cl. 2) (internal citation omitted). “This means that
when federal and state law conflict, federal law prevails
and state law is preempted.” Id. The Supreme Court has
“identified three different types of preemption—‘conflict,’
‘express,’ and ‘field,’ but all of them work in the same way:
Congress enacts a law that imposes restrictions or confers
rights on private actors; a state law confers rights or imposes restrictions that conflict with the federal law; and
therefore the federal law takes precedence and the state
law is preempted.” Id. at 1480 (internal citation omitted).
For example, in Arizona v. United States, 567 U.S. 387
(2012), the Court held that federal statutes “provide a full
set of standards governing alien registration” and therefore
“foreclose any state regulation in the area.” Id. at 401. In
Murphy, the Court elaborated that “[w]hat this means is
that the federal registration provisions not only impose federal registration obligations on aliens but also confer a federal right to be free from any other registration
requirements.” 138 S. Ct. at 1481. Authorized Federal regulations can preempt just as federal statutes can. See
Hillsborough Cty. v. Automated Med. Labs., Inc., 471 U.S.
707, 713 (1985).
The Supreme Court’s decision in Free v. Bland, 369
U.S. 663 (1962) illustrates how preemption applies in the
context of the U.S. savings bond program. In that case,
Treasury regulations provided that when one bond owner
assume that the regulations in effect at the time the bonds
were issued were not materially different.

10a
10

LATURNER v. UNITED STATES

died, the surviving co-owner (there, the decedent’s husband) became the sole owner of the bond. Id. at 664–65.
Under Texas state community property laws, however, the
principal beneficiary under the decedent’s will (there, the
decedent’s son) was entitled to a one-half interest in the
bonds—despite not being a co-owner of the bond under
Treasury regulations. Id. The Court held that the state
law was preempted because it prevented bond owners
“from taking advantage of the survivorship provisions” of
the Treasury regulations. Id. at 669–70. The Court reasoned that “Federal law of course governs the interpretation of the nature of the rights and obligations created by
the Government bonds,” id. at 669–70 (quoting Bank of
Am. Tr. & Sav. Ass’n v. Parnell, 352 U.S. 29, 34 (1956)),
and a state may not “fail[] to give effect to a term or condition under which a federal bond is issued,” id. at 669. In
other words, Treasury regulations conferred a right on
bond holders which Texas state law impermissibly restricted.
Here there is a similar conflict between state and Federal law. Federal law confers on bond holders the right to
keep their bonds after maturity. Congress specifically authorized Treasury to prescribe regulations providing that
“owners of savings bonds may keep the bonds after maturity,” 31 U.S.C. § 3105(b)(2)(A), as well as regulations
setting forth “the conditions, including restrictions on
transfer, to which they will be subject,” id. § 3105(c)(3), and
the “conditions governing their redemption,” id.
§ 3105(c)(4). Treasury regulations impose no time limit on
the redemption of savings bonds. See, e.g., 31 C.F.R.
§ 315.35(c) (“A series E bond will be paid at any time after
two months from issue date at the appropriate redemption
value . . . .” (emphasis added)); New Jersey, 684 F.3d at 409
(“[U]nder federal law . . . the owners of the bonds may redeem them at any time after they mature . . . .”). And
31 C.F.R. § 315.15 provides that “[s]avings bonds are not
transferable and are payable only to the owners named on

11a
LATURNER v. UNITED STATES

11

the bonds, except as specifically provided in these regulations and then only in the manner and to the extent so provided.” See also id. § 315.5(a) (providing that savings
bonds “are issued only in registered form” and “must express the actual ownership of” the bond, and that “registration is conclusive of ownership” with limited exceptions).
Federal law thus confers on bond holders “a federal right
to engage in certain conduct”—the right to keep their bonds
after maturity without the bonds expiring—“subject only to
certain (federal) constraints.” See Murphy, 138 S. Ct. at
1480.
The States’ escheat laws on the other hand impermissibly restrict the bond holder’s right to retain ownership of
the bonds. Under the escheat laws, if bond holders do not
redeem their bonds promptly enough (as decided by the
States), they lose ownership and the bonds will transfer to
the state. Absent Federal law authorizing such a state law
restriction, the result is clear: “the federal law takes precedence and the state law is preempted.” Id.
B
The States do not contest that Federal law would
preempt their escheat laws absent Federal authorization
for the state legislation. But they contend that here there
is no conflict between Federal law and the States’ escheat
laws because Treasury regulations themselves permit the
transfer of ownership under escheat laws. They rely on
31 C.F.R. § 315.20(b), which provides that “Treasury will
recognize a claim [of bond ownership by a third party] . . .
if established by valid, judicial proceedings, but only as
specifically provided in this subpart” (emphasis added)—
i.e., subpart E (§§ 315.20–23). The States contend that
their escheat proceedings constitute “valid, judicial proceedings” under this regulation. Although the Third Circuit in the New Jersey litigation did not decide the question
before us, the States quote language from the Third Circuit’s opinion that “as provided in the federal regulations

12a
12

LATURNER v. UNITED STATES

and as recognized by the Treasury, third parties, including
the States, may obtain ownership of the bonds—and consequently the right to redemption—through ‘valid[] judicial
proceedings,’ 31 C.F.R. § 315.20(b).” 684 F.3d at 412–13
(alteration in original).
The States also argue that Treasury has made repeated statements interpreting § 315.20(b) to allow escheat-based claims so long as the state has title (which the
States allegedly have here). The States rely on two sets of
statements: first, statements Treasury made in denying
past escheat claims by various states; and second, portions
of Treasury’s briefing in the New Jersey litigation. Treasury responds that its prior statements are entirely consistent with its present position that it “considers escheatbased redemption claims as an exercise of its discretionary
waiver authority under provisions such as 31 C.F.R.
§ 315.90, rather than under § 315.20(b),” and that it grants
such a waiver only when a state has both title and possession. Gov’t Open. Br. at 16 & n.8.
Paradoxically, the States disclaim any reliance on Auer
deference, but offer no other basis for deferring to Treasury’s supposed interpretation of its regulations. In any
event, there is no basis for Auer deference here. As the Supreme Court recently clarified, “a court should not afford
Auer [v. Robbins, 519 U.S. 452 (1997)] deference unless the
regulation is genuinely ambiguous,” Kisor v. Wilkie, 139 S.
Ct. 2400, 2415 (2019), even after applying “all the ‘traditional tools’ of construction,” id. (quoting Chevron U.S.A.
Inc. v. Nat. Res. Def. Council, Inc., 467 U.S. 837, 843 n.9
(1984)). Even if the regulation is genuinely ambiguous,
Auer deference is not appropriate unless “an independent
inquiry into . . . the character and context of the agency interpretation” shows that the interpretation (1) constitutes
the agency’s “authoritative” or “official position,” (2) implicates the agency’s “substantive expertise,” and (3) reflects
the agency’s “fair and considered judgment” of the issue.
Id. at 2416–18.

13a
LATURNER v. UNITED STATES

13

Although we are dubious that the statements here
(particularly those made in the New Jersey briefs) reflect
Treasury’s “fair and considered judgment” on the question
of whether 31 C.F.R. § 315.20(b) requires Treasury to recognize escheat claims, id. at 2417 & n.6, we need not decide
that question. Nor need we decide whether Treasury’s earlier interpretations were overridden by its more recent interpretations of the regulations. That is so because using
“the ‘traditional tools’ of construction,” the Treasury regulations are not “genuinely ambiguous,” and thus Auer deference is inappropriate. Id. at 2415.
The regulation on which the States rely, § 315.20(b),
states that Treasury will recognize the “judicial proceedings” “only as specifically provided in this subpart” (emphasis added). The only judicial proceedings specifically
provided in the subpart are those for bankruptcy
(§ 315.21), divorce (§ 315.22), and proceedings finding a
person to be entitled to the bond “by reason of a gift causa
mortis” (a gift made in contemplation of impending death)
“from the sole owner” (§ 315.22). Escheat proceedings are
not mentioned. Accordingly, the general prohibition on
transfers of ownership contained in § 315.15 applies.
The States advance a contrary interpretation of the
regulation, arguing that § 315.20(b)’s “only as specifically
provided in this subpart” limitation refers to “the manner
in which judicial proceedings will be recognized, not the
sorts of proceedings that will be recognized.” Kansas Resp.
Br. at 31 (emphasis in original). This is not a tenable reading of the regulation. A different provision, § 315.23, already specifies how to prove the validity of a proceeding,
such as by providing certified copies of the judgment. The
“only as specifically provided in this subpart” language in
§ 315.20(b) plainly refers to the types of judicial proceedings that will be recognized.
The States also assert that § 315.20(a), not § 315.20(b),
exclusively defines the transfers of ownership that

14a
14

LATURNER v. UNITED STATES

Treasury will not recognize. Section 315.20(a) states that
Treasury “will not recognize a judicial determination that
gives effect to an attempted voluntary transfer inter vivos
of a bond” or that “impairs the rights of survivorship conferred by these regulations upon a coowner or beneficiary.”
Contrary to the States’ argument, § 315.20(a) simply lists
additional transfers that Treasury will not recognize. It
hardly suggests that all other transfers are valid.
In short, we reject the States’ contention that Treasury
regulations permit the transfer of ownership under escheat
laws. To the contrary, the plain language of the regulations confers on bond holders the right to retain their bonds
without losing ownership if they do not redeem the bonds
within a time limit set by the States.
While we do not rely on it, we note that Treasury in
December 2015 confirmed this interpretation of its regulation when it amended § 315.20 to specifically provide that
“[e]scheat proceedings will not be recognized under this
subpart.” Treasury also added a new regulation, section
315.88, providing that Treasury “will not recognize an escheat judgment that purports to vest a State with title to a
bond that the State does not possess”—as is the case here—
“or a judgment that purports to grant the State custody of
a bond, but not title”—as was the case in the New Jersey
litigation. 6

In Estes v. U.S. Dept’ of the Treasury, the states argued
that the amended regulations were arbitrary and capricious because they represented a change in policy without
an explanation for that change. See 219 F. Supp. 3d 17,
27–28; Encino Motorcars, LLC v. Navarro, 136 S. Ct. 2117,
2125 (2016) (“Agencies are free to change their existing policies so long as they provide a reasoned explanation for the
change.”) The district court rejected this argument, holding that the amended regulation was not a policy change
6

15a
LATURNER v. UNITED STATES

15

II
There is an additional reason that the States cannot
prevail. The States concede that even if Federal law recognized them as the rightful bond owners, they could have no
greater rights than the original bond owners. See Oral Arg.
at 35:45–36:00. In general, a bond owner must “present
the bond to an authorized paying agent for redemption.”
31 C.F.R. § 315.39(a). The States cannot do so here since
they do not have physical possession of the bonds. 7 However, the States advance several reasons for why they need
not present the physical bonds for redemption.
A
The States maintain that they need not present the
physical bonds because the bonds should be considered
“lost” and the States can meet the requirements for redeeming lost bonds. The Claims Court agreed. Under
31 C.F.R. § 315.25, “[r]elief, by the issue of a substitute
bond or by payment, is authorized for the loss . . . of a bond
after receipt by the owner.” When a bond is lost, “the savings bond must be identified by serial number and the

but rather “a clarification of prior guidance” and “simply
elaborated on the standards” followed by Treasury before.
Estes, 219 F. Supp. 3d at 27–31. The court also rejected the
states’ Constitutional challenges (based on the Appointments Clause and Tenth Amendment) to the amended regulations, id. at 37–41, and the States do not renew those
arguments here.
7
As discussed above, there is no issue here regarding
bonds that the States possess. Treasury allowed the States
to redeem such bonds, invoking its authority under 31
C.F.R. § 315.90 to waive the provisions that only the original bond owner may redeem the bond, e.g., 31 C.F.R.
§ 315.15. And when a state possesses the bonds, it is of
course able to present the physical bonds for payment.

16a
LATURNER v. UNITED STATES

16

applicant must submit satisfactory evidence of the loss.”
Id. There is an exception to the serial number requirement: “If the bond serial number is not known, the claimant must provide sufficient information to enable” the
government “to identify the bond by serial number.” 31
C.F.R. § 315.26(b). But if an owner seeks to redeem the
bond “six years or more after the final maturity of a savings
bond”—which applies to all bonds at issue here—“[n]o
claim . . . will be entertained, unless the claimant supplies
the serial number of the bond.” 31 C.F.R. § 315.29(c). In
other words, the regulations foreclose the option of redeeming a bond by providing other identifying information when
the bonds at issue are six years or more past maturity.
The government contends that the bonds here are not
“lost” within the meaning of the regulations, because here
there is no evidence that the bonds have been lost by the
original owners. We need not resolve this issue, because
even if the bonds here are considered lost, the States do not
have the bond serial numbers as required by 31 C.F.R.
§ 315.29(c).
B
Kansas argues that it is entitled to relief under the regulation governing “nonreceipt of a bond,” 31 C.F.R.
§ 315.27, which does not require the bond owner to provide
the serial number. That regulation provides that “[i]f a
bond issued on any transaction is not received, the issuing
agent must be notified as promptly as possible and given
all information available about the nonreceipt.” Id. “If the
application is approved, relief will be granted by the issuance of a bond bearing the same issue date as the bond that
was not received.” Id. This regulation does not apply here.
It is directed at the situation where an individual purchases a bond but does not receive it—in other words,
where Treasury fails to deliver the bond to the original
owner. Indeed, Arkansas (unlike Kansas) recognizes that
this provision governs “those cases where a bond ‘is not

17a
LATURNER v. UNITED STATES

17

received’ by the original owner in the first place”—which is
not the situation here. Arkansas Resp. Br. at 50.
C
Arkansas contends that if it can properly claim ownership of the bonds under 31 C.F.R. § 315.20—an argument
rejected earlier in part I—it need not present the physical
bonds or the bond serial numbers. There is no basis for this
contention in the regulations. The provisions in 31 C.F.R.
§§ 315.20–23 lay out requirements for establishing ownership when ownership transferred due to proceedings such
as bankruptcy or divorce. They also establish certain circumstances in which Treasury will not recognize the transfer of ownership, such as when judicial proceedings are still
pending. See 31 C.F.R. § 315.20(c) (stating that Treasury
“will not accept a notice of an adverse claim or notice of
pending judicial proceedings”). But the general requirements for redeeming a bond—such as presenting the physical bond, or, if the bond is lost, providing the serial
number—still apply, and the States cannot meet them. 8

Alternatively, Arkansas argues that since Treasury
has exercised its waiver authority under 31 C.F.R.
§ 315.90(a) to allow states to redeem bonds where the
states had both title and possession, its refusal to extend
such a waiver here “violates its duty of good faith and fair
dealing” implicit in the bond contract. Arkansas Resp. Br.
at 53–54. We disagree. When a state has possession and
title, Treasury has been willing to waive the prohibition on
transfers of ownership and the requirement that only the
registered owner may redeem a bond. See 31 C.F.R.
§ 315.15. But Treasury does not waive the requirement
that the owner must present the physical bond (or, if applicable, the bond serial number). See 31 C.F.R. §§ 315.39(a),
315.25, 315.29(c). Treasury’s refusal to waive those requirements here does not violate the provisions of the bond
8

18a
LATURNER v. UNITED STATES

18

D
Finally, both States argue that even if they must provide the bond serial numbers, the government has the obligation under the Freedom of Information Act (“FOIA”) to
disclose those serial numbers to the States, or, alternatively, that the government through discovery may be compelled to ascertain the serial numbers.
The States suggest that the government is obligated to
provide serial numbers in response to a FOIA request, citing 31 C.F.R. § 323.2(b). But that regulation merely restricts who may obtain information through a FOIA
request, providing that securities records “will ordinarily
be disclosed only to the owners of such securities.” Id. (emphasis added). It does not specify what information may
be obtained and under which circumstances. In any event,
whether the States have the right to obtain serial numbers
of bonds through a FOIA request is not before us. Kansas
filed such a FOIA request, which Treasury denied. 9 Kansas did not pursue further review in court, which it would
contract, and the “implied duty of good faith and fair dealing cannot expand a party’s contractual duties beyond
those in the express contract or create duties inconsistent
with the contract’s provisions.” Dobyns v. United States,
915 F.3d 733, 739 (Fed. Cir. 2019) (quoting Precision Pine
& Timber, Inc. v. United States, 596 F.3d 817, 831 (Fed.
Cir. 2010)).
9
Treasury’s denial of Kansas’s FOIA request rested on
two grounds. First, Treasury stated that it lacked responsive records because its records are not compiled or searchable by the state listed in the bond’s registration. Second,
it determined that disclosing bond records to someone
other than the registered owner would, under the circumstances, constitute an unwarranted invasion of personal
privacy pursuant to FOIA Exemption 6. See 5 U.S.C.
§ 552(b)(6).

19a
LATURNER v. UNITED STATES

19

have had to seek in district court.
See 5 U.S.C.
§ 552(a)(4)(B). The Claims Court therefore properly declined to rely on FOIA, noting that it has no jurisdiction
over denials of FOIA requests. See Laturner, 135 Fed. Cl.
at 505 n.3.
Alternatively, the States argue that they should be entitled to obtain the bond serial numbers through the ordinary discovery process. While the Claims Court opinion is
not entirely clear, it appears to have agreed. However, the
court recognized in certifying its orders for interlocutory
appeal that “the burdens of discovery going forward (both
in terms of effort and expense) will undoubtedly be formidable given the state of Treasury’s savings bond records.”
J.A. 5. Treasury’s bond records are not digitized and therefore not computer-searchable. Nor are they organized by
the state listed in the bond’s registration. For that reason,
locating the serial numbers of the bonds would require
manually searching approximately 3.8 billion savings
bonds records to identify those whose registered owners
had an address in Kansas or Arkansas. Treasury estimates that locating these bonds here would cost $100 million and take over 2,000 hours of employee time. J.A. 817.
We need not decide whether locating the bond serial
numbers would be unduly burdensome such that it would
be an abuse of discretion to grant the States’ discovery request. That is so because requiring the government to disclose the bond serial numbers as a matter of discovery
would impermissibly circumvent the requirement in
31 C.F.R. § 315.29(c) that the bond owner provide the serial number to redeem a bond six or more years past maturity. Adopting the States’ position would effectively
eliminate this requirement, as a bond holder could always
file suit and then obtain the serial number through discovery. This would contravene the principle that the Federal
Rules of Civil Procedure cannot “enlarge or modify any substantive right.” 28 U.S.C. § 2072(b); see Shady Grove Orthopedic Assocs., P.A. v. Allstate Ins. Co., 559 U.S. 393, 423

20a
20

LATURNER v. UNITED STATES

(2010) (Stevens, J., concurring) (“A federal rule . . . cannot
govern a particular case in which the rule would displace a
state law that . . . functions to define the scope of the statecreated right.”); Semtek Int’l Inc. v. Lockheed Martin Corp.,
531 U.S. 497, 503–04 (2001) (noting that if state law
granted a particular right, “the federal court’s extinguishment of that right” through application of a Rule of Civil
Procedure “would seem to violate this limitation” contained
in § 2072(b)).
The Second Circuit’s decision in Federal Treasury Enterprise Sojuzplodoimport v. SPI Spirits Ltd., 726 F.3d 62
(2d Cir. 2013), provides an illustration. There, the plaintiff
sought to sue for trademark infringement under the Lanham Act, but could not meet the Lanham Act’s statutory
standing requirement, which “permits only ‘registrants’ to
bring actions for infringement of registered marks.” Id. at
83. The plaintiff was not the registrant but argued that it
could nonetheless bring suit because the real party in interest had ratified the plaintiff’s suit as permitted by Federal Rule of Civil Procedure 17(a). The Second Circuit held
that the corporation could not use Rule 17(a) “to bypass the
standing requirement” in the Lanham Act. Id. at 83. The
court reasoned that “[t]o enlarge standing [by applying
Rule 17] would extend the entitlement to sue to a new party
that is otherwise unauthorized under the” Lanham Act,
and thus “amount to an improper expansion of the substantive rights provided by the Act.” Id.; see also Eden Toys,
Inc. v. Florelee Undergarment Co., 697 F.2d 27, 32 n.3 (2d
Cir. 1982) (“While [Federal Rule of Civil Procedure 17(a)]
ordinarily permits the real party in interest to ratify a suit
brought by another party, the Copyright Law is quite specific in stating that only the ‘owner of an exclusive right
under a copyright’ may bring suit.” (internal citation omitted) (quoting 17 U.S.C. § 501(b) (1980))), superseded on
other grounds by Fed. R. Civ. P. 52(a).
Similarly, here the States cannot use the discovery
rules to bypass the serial number requirement of the

21a
LATURNER v. UNITED STATES

21

Treasury regulations. Allowing the States to do so would
improperly expand the substantive right to payment under
the Treasury regulations, since it would extend the right to
receive payment to circumstances in which the claimant
would otherwise not be entitled to payment.
This is also a situation in which the bond holders have
agreed to the requirements of the Treasury regulations as
part of the bond contract. It is well-established that “before
suit has been filed, before any dispute has arisen,” parties
may waive various rights through contract—even those
based in the Constitution, such as due process rights to notice and a hearing. D. H. Overmyer Co. v. Frick Co., 405
U.S. 174, 184–85 (1972); see also Herman Miller, Inc. v.
Thom Rock Realty Co., 46 F.3d 183, 189 (2d Cir. 1995) (enforcing contract provision waiving right to a jury trial). It
follows that even if bond holders might otherwise be entitled to certain discovery, they may limit that right by
agreeing to the terms of the bond contract, which require
them to present the physical bonds or the bond serial numbers for payment.
III
Finally, the States assert that Treasury’s denial of
their redemption requests was a “taking” of their property.
The essence of a takings claim is that the government
“takes possession of an interest in property for some public
purpose” and must therefore “compensate the former
owner.” Tahoe-Sierra Pres. Council, Inc. v. Tahoe Reg’l
Planning Agency, 535 U.S. 302, 322 (2002). But here the
government has not taken possession of any interest in the
bonds. The bonds remain the property of the original owners, who under Treasury regulations retain the right to redeem the bonds at any time. The States simply do not have
a property interest in the bonds, and, even if they did, they
can have no greater property interest than the original
owners. See A & D Auto Sales, Inc. v. United States, 748
F.3d 1142, 1151 (Fed. Cir. 2014) (“[T]he existence of a valid

22a
LATURNER v. UNITED STATES

22

property interest is necessary in all takings claims.” (quoting Wyatt v. United States, 271 F.3d 1090, 1097 (Fed. Cir.
2001)). Because no property interest of the States has been
impaired, there can be no taking.
CONCLUSION
Because the States’ escheat laws attempt to transfer
ownership of the bonds to the States in contravention of
Treasury regulations, they are preempted by Federal law.
In addition, because the States lack the serial numbers or
possession of the bonds at issue, they could not redeem the
bonds even if they validly owned them.
We reverse the judgment below and remand with instructions to enter summary judgment for the government.
REVERSED
COSTS
No costs.

23a

In the United States Court of Federal Claims
No. 16-43C
(Filed: August 8, 2017)

ANDREA LEA, Auditor of the State of
Arkansas,
Plaintiff,
v.
THE UNITED STATES OF
AMERICA,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)
)

Keywords: Summary Judgment;
Breach of Contract; U.S. Savings
Bonds; Preemption; Intergovernmental
Immunity; Due Process Clause of the
Fourteenth Amendment; Breach of
Contract; 31 C.F.R. § 315.20(b).

David H. Thompson, Cooper & Kirk, PLLC, Washington, DC, for Plaintiff. Peter A.
Patterson and John D. Ohlendorf, Cooper & Kirk, PLLC, and Joseph H. Meltzer and
Melissa L. Troutner, Kessler Topaz Meltzer & Check LLP, Radnor, PA, Of Counsel.
Eric P. Bruskin, Senior Trial Counsel, Civil Division, U.S. Department of Justice,
Washington, DC, with whom were Steven J. Gillingham, Assistant Director, Robert E.
Kirschman, Jr., Director, and Chad A. Readler, Acting Assistant Attorney General, for
Defendant. Theodore C. Simms, II, Senior Counsel, U.S. Department of the Treasury, and
Albert S. Iarossi, Trial Attorney, Commercial Litigation Branch, Civil Division, U.S.
Department of Justice, Of Counsel.
OPINION AND ORDER
KAPLAN, Judge.
In this breach-of-contract case, Plaintiff Andrea Lea, Auditor of the State of
Arkansas (Arkansas), claims that Arkansas has obtained title under the state’s Unclaimed
Property Act to a large but unknown number of matured, unredeemed United States
savings bonds, and that the government has wrongfully failed to redeem those bonds. The
bonds, issued by the United States Department of the Treasury (Treasury), carry thirty- or
forty-year maturity periods. Although Arkansas claims that it owns the bonds, it does not
possess the bond certificates that Treasury issued when the bonds were purchased.
Nevertheless, pursuant to a state court judgment of escheat, Arkansas contends that it has
obtained title to all unredeemed bonds whose holders’ last known addresses, as shown on
Treasury’s records, are in the state. These bonds are known as the “absent bonds.”
Arkansas has moved for partial summary judgment as to the government’s
liability for failing to redeem the bonds or to provide Arkansas with identifying

24a
information about them. The government has also moved for summary judgment on all of
Arkansas’s claims. It contends that, for several reasons, Treasury did not breach the
savings bond contracts when it refused to redeem the absent bonds. Among other things,
it claims that Treasury’s savings bond regulations do not permit transfers of ownership
under the Unclaimed Property Act, and that Arkansas’s lack of possession of the bond
certificates is fatal to its claims; that the Unclaimed Property Act runs afoul of principles
of federal supremacy; and that the state court judgment of escheat was constitutionally
infirm.
For the reasons discussed below, the Court concludes that the government’s
arguments lack merit, and that the undisputed facts entitle Arkansas to summary
judgment with respect to its ownership of the absent bonds and the government’s liability
to it. Accordingly, the government’s motion for summary judgment is DENIED, and
Arkansas’s motion for partial summary judgment is GRANTED.
BACKGROUND
I.

The United States Savings Bond Program and Implementing Regulations
A.

Overview

In the exercise of its power to “borrow Money on the credit of the United States,”
U.S. Const. art. I, § 8, cl. 2, Congress has authorized Treasury to “issue savings bonds
and savings certificates,” the proceeds of which “shall be used for expenditures
authorized by law,” 31 U.S.C. § 3105(a); see also Free v. Bland, 369 U.S. 663, 666–67
(1962). Over the years, Treasury has issued such bonds in various Series, each designated
by a letter of the alphabet. See, e.g., 31 C.F.R. Part 315 (regulations governing Series A,
B, C, D, E, F, G, H, J, and K bonds). Treasury issued the bonds in paper form until 2012,
when it switched to an all-electronic system. See Treasury Looks Back at 76 Years of
Paper U.S. Savings Bonds As Move to Online Savings Bonds to Save Taxpayers $120
Million, TreasuryDirect.gov (Dec. 27, 2011), https://www.treasurydirect.gov/news/
pressroom/pressroom_comotcend1211.htm.
“It is well established that savings bonds are contracts between the United States
and the owners of the bonds . . . .” Estes v. United States, 123 Fed. Cl. 74, 81 (2015)
(citing Treasurer of N.J. v. U.S. Dep’t of the Treasury, 684 F.3d 382, 387 (3d Cir. 2012)
and Rotman v. United States, 31 Fed. Cl. 724, 725 (1994)). The contracts’ terms are set
forth in Treasury’s savings bond regulations, found in Part 315 of Title 31 of the Code of
Federal Regulations. See id. As discussed below, the regulations prescribe (among other
things) “the form and amount of an issue and series”; “the way in which [the savings
bonds] will be issued”; “the conditions, including restrictions on transfer, to which they
will be subject”; and “conditions governing their redemption.” 31 U.S.C. § 3105(c)(1)–
(4).
As noted, the bonds typically carry long maturity periods—often thirty or forty
years. See The History of U.S. Savings Bonds, TreasuryDirect.gov, https://www.treasury
direct.gov/timeline.htm?src=td&med=banner&loc=consumer (last visited August 4,

2

25a
2017). Treasury issued millions of savings bonds between the 1940s and the 1970s. See
id. Although most of the matured bonds have been redeemed, millions remain
unredeemed. See Savings Bonds and Notes (SBN) Tables and Downloadable Files,
TreasuryDirect.gov, https://www.treasurydirect.gov/govt/reports/pd/pd_sbntables_
downloadable_files.htm (last updated Apr. 27, 2012). As of March 2012, the value of
such matured, unredeemed savings bonds was approximately $16 billion. See id.
B.

Issuance and Registration

Under Treasury’s regulations, “[s]avings bonds are issued only in registered
form.” 31 C.F.R. § 315.5(a) (2014).1 This means that “the names of all persons named on
the bond and the taxpayer identification number (TIN) of the owner, first-named
coowner, or purchaser of a gift bond are maintained on [Treasury’s] records.” Id.
§ 315.2(n). According to the regulations, “[r]egistration is conclusive of ownership.” Id.
§ 315.5(a). Thus, registration “express[es] the actual ownership of, and interest in, the
bond.” Id.
C.

Restrictions on Transfer

The regulations contain numerous conditions restricting the transfer of savings
bonds and inhibiting third-party attempts to assert rights against them. First, § 315.15
establishes that bonds “are not transferable and are payable only to the owners named on
the bonds, except as specifically provided in these regulations and then only in the
manner and to the extent so provided.” Id.
Next, subsections 315.20–.23 set forth “limitations on judicial proceedings”
applicable to “adverse claims affecting savings bonds.”2 Id. § 315.20. In particular,
§ 315.20(b) provides that Treasury “will recognize a claim against an owner of a savings
bond . . . if established by valid, judicial proceedings, but only as specifically provided in
this subpart.” In that regard, § 315.20(a) specifies that Treasury “will not recognize a
judicial determination that gives effect to an attempted voluntary transfer inter vivos of a
bond, or a judicial determination that impairs the rights of survivorship conferred by
these regulations upon a coowner or beneficiary.” Id. Further, § 315.23(a) instructs that
“[t]o establish the validity of judicial proceedings,” a claimant must submit “certified
copies of the final judgment, decree, or court order, and of any necessary supplementary
proceedings.”
Before 2015, the regulations did not expressly mention state court judgments of
escheat of the type at issue in this case. See Estes, 123 Fed. Cl. at 83–86 (analyzing the
regulations); see also id. at 90 n.13 (noting that Treasury had proposed revised
1

Unless otherwise noted, all references to Treasury’s savings bond regulations are to the
regulations in effect on November 20, 2015, the date Arkansas obtained the judgment of
escheatment from the state court.
2

These four subsections form Subpart E of the regulations.

3

26a
regulations expressly tailored to state court escheat judgments); Regulations Governing
United States Savings Bonds, 80 Fed. Reg. 80,258-01 (Dec. 24, 2015) (codified at 31
C.F.R. pts. 315, 353, 360) (final rule promulgating the revised regulations).
D.

Redemption and Relief for Lost, Stolen, Destroyed, or Mutilated
Bonds

The regulations specify that, as a general matter, “[p]ayment of a savings bond
will be made to the person or persons entitled under the provisions of these regulations.”
31 C.F.R. § 315.35(a). Series E bonds will be paid “at any time after two months from
issue date at the appropriate redemption value,” while Series H bonds “will be
redeemed at face value at any time after six (6) months from issue date.” Id. § 315.35(c),
(e). Series A, B, C, D, F, and J bonds “will be paid at face value,” while Series G and K
bonds “will be paid at face value plus the final semiannual interest due.” Id. § 315.35(b),
(d).
Subsection 315.39, entitled “[s]urrender for payment,” provides that individual
owners or co-owners of Series A–E bonds “may present the bond to an authorized
payment agent for redemption.” Id. § 315.39(a). “[F]or all other cases,” the “owner or
coowner, or other person entitled to payment” must “appear before an officer authorized
to certify requests for payment, establish his or her identity, sign the request for payment,
and provide information as to the address to which the check in payment is to be mailed.”
Id. § 315.39(b).
Subsection 315.25 authorizes relief in the event of “the loss, theft, destruction,
mutilation, or defacement of a bond after receipt by the owner.” Id. Such relief may
include “the issue of a substitute bond or . . . payment.” Id. “As a condition for granting
relief,” Treasury “may require a bond of indemnity, in the form, and with the surety, or
security [Treasury] considers necessary to protect the interests of the United States.” Id.
Further, “[i]n all cases[,] the savings bond must be identified by serial number and the
applicant must submit satisfactory evidence of the loss, theft, or destruction.” Id. If the
serial number of the bond is not known, “the claimant must provide sufficient
information to enable [Treasury] to identify the bond by serial number.” Id. § 315.26(b)
(citing id. § 315.29(c)).
E.

Additional Relevant Regulations

The savings bond regulations also contain a waiver provision. Id. § 315.90. Under
§ 315.90, Treasury “may waive or modify any provision or provisions of [the]
regulations . . . . [i]f such action would not be inconsistent with law or equity”; “if it does
not impair any existing rights”; and “if [Treasury] is satisfied that such action would not
subject the United States to any substantial expense or liability.” Further, the regulations
empower Treasury to “require . . . [s]uch additional evidence as [it] may consider
necessary or advisable, or [to require] [a] bond of indemnity, with or without surety, in
any case in which [it] may consider such a bond necessary for the protection of the
interests of the United States.” Id. § 315.91.

4

27a
Finally, Treasury has issued regulations to govern the disclosure of records and
information related to outstanding securities, including savings bonds. See id. § 323.2.
Specifically, § 323.2(b) states that “[r]ecords relating to the purchase, ownership of, and
transactions in Treasury securities . . . will ordinarily be disclosed only to the owners of
such securities, their executors, administrators or other legal representatives or to their
survivors.” Id. The regulation notes that “[t]hese records are confidential because they
relate to private financial affairs of the owners.” Id. Further, according to Treasury, these
records “fall[] within the category of ‘personnel and medical files and similar files the
disclosure of which would constitute a clearly unwarranted invasion of personal privacy’
under the Freedom of Information Act (FOIA).” Id. (citing 5 U.S.C. § 552(b)(6)). Thus,
according to Treasury, such records are exempt from FOIA requests. See id.
II.

Background on State Unclaimed Property Laws

All fifty states have statutes governing the disposition of unclaimed or abandoned
real and personal property. See David J. Epstein, 1-1 Unclaimed Property Law § 1.06(1)
(2017). These laws are “rooted in the common-law doctrine of escheat, under which
‘[s]tates as sovereigns may take custody of or assume title to abandoned . . . property.’”
Estes, 123 Fed. Cl. at 77 (citation omitted) (quoting Delaware v. New York, 507 U.S.
490, 497 (1993)) (alterations in original).
For the most part, state unclaimed property laws are custodial in nature. See
Epstein, supra, § 1.06(2). When a state with a custody-based unclaimed property law
acquires unclaimed property, it “does not take title to [the] unclaimed property, but takes
custody only, and holds the property in perpetuity for the owner.” Estes, 123 Fed. Cl. at
77 (quoting Unif. Unclaimed Prop. Act, prefatory note (1995), http://www.uniform
laws.org/shared/docs/unclaimed%20property/uupa95.pdf). Indeed, Arkansas’s
Unclaimed Property Act is custodial in nearly every respect. See Ark. Code Ann. § 1828-204 (“Except as otherwise provided in this subchapter or by other statute of this state,
property that is presumed abandoned, whether located in this or another state, is subject
to the custody of this state . . . .”).
With respect to U.S. savings bonds, however, Arkansas’s Unclaimed Property Act
allows the state to take title to (rather than assert custody over) bonds deemed abandoned
under the Act. See id. § 18-28-231. Specifically, the relevant provisions provide that “a
United States savings bond held or owing in this state is presumed abandoned if the
savings bond remains unclaimed for five (5) years after the date of maturity of the United
States savings bond”; that such bonds “shall escheat to the state two (2) years after
becoming abandoned property” via an action for escheatment filed by the administrator
of the unclaimed property regime; and that “[i]f no person files a claim or appears at the
hearing to substantiate a claim or if the court determines that a claimant is not entitled to
the property claimed by the claimant, then the court shall enter judgment that . . . [a]ll
property rights and legal title to and ownership of the United States savings bond or
proceeds from the United States savings bond . . . are vested solely in the state.” Id. § 1828-231(a)–(e).” Id.

5

28a
III.

Treasury’s Historical Treatment of States’ Attempts to Redeem Bonds
Obtained Via Their Unclaimed Property Laws

As discussed below, the government argues that the Court owes deference to the
interpretation of Treasury’s regulations that it has proffered in this case. Because
Treasury’s historical application of its regulations is relevant to whether the Court owes
deference to Treasury’s proffered interpretation, the Court sets forth below Treasury’s
historical treatment of states’ attempts to redeem U.S. savings bonds in some detail.
A.

The 1952 Escheat Decision Regarding Bonds in Possession and New
York’s Custodial Unclaimed Property Law

Treasury first confronted a state’s attempt to redeem bonds obtained under an
unclaimed property law in 1952, when it refused the State of New York’s request to
redeem four bonds in its possession. See Def.’s Mot. for Summ. J. (Def.’s Mot.) App. at
A1, ECF No. 14-2 (Bureau of the Public Debt, Public Debt Bulletin No. 111 (Feb. 27,
1952)) (hereinafter “the 1952 Escheat Decision”). New York obtained the bonds pursuant
to its unclaimed property law after their owner died intestate in a state institution. Id.
Treasury noted that under New York’s law, the state took custody of, but not title to,
abandoned property. Id. at A3–4. According to Treasury, under those circumstances,
payment of the bond’s proceeds into New York’s custody would violate the bond’s terms
(as set forth in Treasury’s regulations). Id. at A2–3. Treasury explained that such a
payment would alter the rights of the parties to the bond contract by “substitut[ing]” the
bondholder’s right to claim redemption from the United States for a right to “prosecute a
claim against the State Comptroller of New York”; or, alternatively, by exposing the
United States to “the necessity of making double payment” and then pursuing “a right to
claim relief from the Comptroller” itself. See id. at A2.
In Treasury’s view, “[n]either of th[ose] possible alterations of contract is
contemplated in the agreement by which the United States pledges its faith on its
securities.” Id. And, citing Clearfield Trust Company v. United States, 318 U.S. 363, 366
(1943), Treasury asserted the supremacy of the rights created by federal law over the
operation of New York’s unclaimed property law. See id. at A2–3.
Treasury then contrasted New York’s request with a hypothetical request for
payment made by “one who succeeds to the title of the bondholder” pursuant to the
regulations, such as “the duly qualified representative of the estate of a decedent
bondholder.” Id. at A3 (internal quotation and emphasis omitted). In that case, Treasury
stated, payment “is not regarded as a violation of the agreement, but, on the contrary, as
payment to the bondholder in the person of his successor or representative.” Id.
(emphasis omitted). “Thus,” Treasury continued, “although the regulations do not
mention such a case, [Treasury] recognizes the title of the state when it makes a claim
based upon a judgment of escheat.” Id.

6

29a
B.

Subsequent Decisions Where States Were In Possession of U.S.
Savings Bonds

Treasury reiterated its position on custodial unclaimed property laws in 1970,
when the State of Oklahoma tried to redeem bonds it had obtained from unclaimed safe
deposit boxes. See id. at A5–7. According to Treasury, one of “the problems involved in
recognizing a State’s right to receive payment of unclaimed or abandoned Government
securities . . . . relate[d] to the issue as to whether the State has actually succeeded to title
and ownership of the securities, or whether it is acting as a repository.” Id. at A6. “This is
a critical distinction,” Treasury stated, because “the discharging of the obligation
represented by the securities must have validity for all jurisdictions.” Id. “Ordinarily,”
Treasury continued, “such a discharge results only where a valid escheat has occurred.”
Id. Oklahoma’s unclaimed property law, however, “d[id] not purport to vest title to the
abandoned property in the State,” but “[was] quite clear that the State’s role [wa]s
essentially custodial.” Id. at A7.
Over the next thirty years, Treasury repeatedly denied claims from states with
custodial unclaimed property laws and bonds in their possession. See id. at A8 (Indiana,
Nov. 19, 1971); id. at A10 (New Hampshire, May 12, 1976); id. at A12 (South Carolina,
May 26, 1976); id. at A15 (Hawaii, July 14, 1976); id. at A17 (Indiana, Jan. 18, 1977); id.
at A19 (North Dakota, June 24, 1977); id. at A22 (Illinois, Oct. 27, 1980); id. at A39
(Kentucky, Sept. 6, 1983); id. at A40 (Alaska, Oct. 25, 1983); id. at A109 (Alaska, Feb.
6, 1992); id. at A112 (Oklahoma, Aug. 5, 1999). As early as 1976, Treasury described as
“long-standing” its position that it would “recognize claims by States for payment of
United States securities where the States have actually succeeded to the title and
ownership of the securities pursuant to valid escheat proceedings.” Id. at A10.
Treasury apparently first considered a state’s claim based on a title-based
unclaimed property law in 1982, in response to a request for information from the
Commonwealth of Massachusetts. See id. at A24–38. The request concerned
approximately $250,000 in savings bonds that Massachusetts obtained via its unclaimed
property law. Id. at A24. At the time, Massachusetts’s unclaimed property law provided
that “[p]roperty which has been surrendered to the state treasurer under [the unclaimed
property law] shall vest in the commonwealth.” Id. at A31. In its request, Massachusetts
asked Treasury whether it “would . . . be able to either escheat to [the Commonwealth]
the approximately $250,000 [in] bonds now accumulated . . . or some how [sic] through
your regulation or ruling be able to return them to their rightful heirs.” Id. at A24.
In its response, Treasury informed Massachusetts that it would recognize a state’s
claim pursuant to a title-based unclaimed property law if the law included sufficient due
process protections for the named bondholders. Id. at A37. Specifically, Treasury stated
that:
In accordance with the bond contract, we will recognize a request
for payment on behalf of the state pursuant to a statute which
provides for the administrative escheat, i.e., vesting of title, of
abandoned property, where the application of the statute is
7

30a
conditioned upon the furnishing of adequate notice and reasonable
opportunities for interested parties to be heard.
Id. Further, Treasury elaborated, “[u]nder the terms of the bond contract, we could make
payment to the Treasurer of the Commonwealth where the Commonwealth, through
appropriate court proceedings, takes the owner’s title to itself.” Id. at A38. “In that event,
[Treasury] would pay the owner in the person of its successor, the Commonwealth.” Id.
C.

Treasury’s Treatment of States’ Requests to Obtain the Proceeds of
Bonds They Did Not Possess

1.

Decisions and Guidance

By the early 2000s, the number of matured, unredeemed savings bonds ballooned
as bonds purchased in the 1960s and 1970s finally reached maturity. In 2004, several
states requested that Treasury redeem these bonds in bulk (the “2004 requests”). The
states did not possess the vast majority of these bonds, but, according to the states, the
bonds were statistically likely to be in the hands of their citizens. See, e.g., id. at A127
(March 30, 2004 letter from the treasurer of Kentucky “estimat[ing] that over $150
million” in unredeemed savings bonds “rightfully belong[] to Kentuckians” and
“requesting . . . that [Treasury] return these funds to . . . Kentucky so that [the]
Unclaimed Property Division . . . can begin the work of returning this money to its
rightful owner[s]”); id. at A129 (April 2, 2004 letter from the treasurer of the District of
Columbia estimating that “between $50 and $75 million” in unredeemed savings bonds
belonged to District of Columbia citizens and “seeking to have th[o]se assets and records
transferred to the District of Columbia so that we can begin to find the rightful owners”);
id. at A130 (April 21, 2004 letter from the treasurer of New Hampshire positing that
“somewhere between $35 million and $45 million” in unredeemed savings bonds “would
likely belong to New Hampshire residents” and requesting that Treasury “provide owner
information and deliver funds due” for those bonds).
Treasury denied the 2004 requests. E.g., id. at A140–41 (Kentucky); id. at A138–
39 (District of Columbia); id. at A142–43 (New Hampshire). In its denials, Treasury
explained that it “d[id] not have the legal authority” to grant the states’ requests because
“[a] U.S. Savings Bond is a federal contract between the United States and the registered
owner on the bonds, and under federal regulations payment may only be made to the
registered owner.” E.g., id. at A140. “In order for the bonds to be paid,” Treasury
continued, the state “must have possession of the bonds, statutory authority to obtain title
to the individual bonds, obtain an order of escheat from a court of competent jurisdiction
vesting title in the [state] to the individual bonds, and apply to [Treasury] for payment.”
E.g., id.
In 2006, Florida submitted a similar request to redeem or obtain custody over the
proceeds of bonds that it did not possess. See id. at A148. As with the 2004 requests,
Treasury denied Florida’s request. Id. Unlike with the denials of the 2004 requests,
however, Treasury did not mention any possession requirement. See id. Rather, Treasury
stated that:

8

31a
The applicable regulations would permit the state of Florida
to be paid for the bonds, pursuant to an appropriate state
statute and after due process, by obtaining an order of
escheat from a court of competent jurisdiction vesting title
in the state, and then applying for payment to the Department
of the Treasury pursuant to the procedures established by the
regulations that all bond owners must utilize.
Id.
2.

Subsequent Litigation

In September 2004, the State of New Jersey filed an action in federal district court
challenging Treasury’s denial of its 2004 request to pay over the proceeds of matured but
unredeemed bonds whose owners’ last known addresses were in the state. See Treasurer
of N.J., 684 F.3d at 392. Several more states eventually joined that litigation. See id. at
392–93. The district court dismissed the case for failure to state a claim, reasoning that
the states’ custodial unclaimed property laws conflicted with Treasury’s regulations. Id.
at 394–95. Further, the district court found that applying those laws to unredeemed bonds
that the states did not possess would violate the principle of intergovernmental immunity.
Id.
The states appealed the decision to the United States Court of Appeals for the
Third Circuit. See id. at 395. In its brief before the Third Circuit, the government
acknowledged that although Treasury’s regulations “generally provide that payment on a
U.S. savings bond will be made only to the registered owner,” they also set forth
“exceptions to this rule, including cases in which a third party obtains ownership of the
bond through valid judicial proceedings.” Br. for Appellees at 6, Treasurer of N.J., 684
F.3d 382 (No. 10-1963) (citing 31 C.F.R. §§ 315.20(b) and 315.23). Further, Treasury
advised that “[a] State may satisfy this ownership requirement ‘through escheat, a
procedure with ancient origins whereby a sovereign may acquire title to abandoned
property if after a number of years no rightful owner appears.’” Id. (quoting Texas v.
New Jersey, 379 U.S. 674, 675 (1965)). “Accordingly,” the government continued, it had
“long advised state governments that, to receive payment on a U.S. savings bond, [the]
State must go through an escheat process that satisfies due process and awards title to the
bond to the State, making the State the rightful owner of the bond.” Id.
According to the government’s brief, however, the states involved in the litigation
“d[id] not claim to have obtained title to any of the U.S. savings bonds at issue,” and thus
“d[id] not assert a right to receive payment under the federal regulation that authorizes
payment to a third party that obtains ownership of a bond through valid judicial
proceedings.” Id. at 8. Nowhere in its brief did the government assert the states’ lack of
possession as a factor affecting their claims. See id.
The Third Circuit affirmed. Treasurer of N.J., 684 F.3d at 413. With respect to
preemption, it concluded that Treasury’s regulations “preempt[ed] the States’ unclaimed
property acts insofar as the States s[ought] to apply their acts to take custody of the

9

32a
proceeds of the matured but unredeemed savings bonds” because the acts “conflict[ed]
with federal law regarding [the] bonds in multiple ways.” Id. at 407. First, paying over
the proceeds of the bonds would inhibit Treasury’s “goal of making the bonds ‘attractive
to savers and investors.’” Id. at 407–08 (quoting Free, 369 U.S. at 669). Congress, the
court noted, had authorized Treasury to “implement regulations specifying that ‘owners
of savings bonds may keep the bonds after maturity’”; the states’ unclaimed property
laws, “by contrast, specify that matured bonds are abandoned and their proceeds are
subject to the acts if not redeemed within a time period as short as one year after
maturity.” Id. (quoting 31 U.S.C. § 3105(b)(2)(A)).
Second, by “effectively . . . substitut[ing] the respective States for the United
States as the obligor on the affected savings bonds,” the operation of the unclaimed
property laws “would interfere with the terms of the contracts.” Id. at 408. Instead of the
“federal redemption process . . . set forth . . . in the relevant statutes and regulations,”
bondholders “would have to comply with [the] procedures set forth in the various States’
unclaimed property acts.” Id. The “application of the States’ acts in the redemption
process” would thus impermissibly “alter [the redemption] process as contemplated in the
relevant federal regulations.” Id. at 409.
On the principle of intergovernmental immunity, the Third Circuit determined
that the operation of the states’ unclaimed property laws would “interfere with
Congress’s ‘[p]ower to dispose of and make all needful Rules Acts and Regulations
respecting the . . . Property belonging to the United States.’” Id. at 410 (quoting U.S.
Const. art. IV, § 3, cl. 2) (alterations in original). “Although the United States must pay
holders of matured bonds the sums due on the bonds when the owners present them for
payment,” the court reasoned, “until it does so the funds remain federal property.” Id. at
411. Further, the Third Circuit determined that the states’ unclaimed property laws would
unlawfully regulate the federal government by requiring it to comply with state
accounting, record-keeping, and reporting requirements. Id. In the court’s view, “forcing
the Federal Government to account to the plaintiff States for unredeemed savings bonds
or their proceeds . . . would result in a direct regulation of the Federal Government in
contravention of the Supremacy Clause.” Id. at 412.
In the wake of the Third Circuit’s ruling, Montana and four other states filed a
petition for a writ of certiorari to the United States Supreme Court. See Dir. of the Dep’t
of Revenue of Mont. v. Dep’t of Treasury, 133 S. Ct. 2735 (2013) (mem.). The Solicitor
General opposed certiorari. See Pl.’s Combined Br. in Opp’n to Def.’s Mot. for Summ. J.
& In Supp. of Her Cross-Mot. for Summ. J. (Pl.’s Mot.) App. at 176–209, ECF No. 15-2
[hereinafter “SG’s Brief”]. As in the briefing before the Third Circuit, the Solicitor
General acknowledged that under 31 C.F.R. § 315.20(b), third parties may “obtain[]
ownership of . . . bond[s] through valid judicial proceedings.” Id. at 183. “Accordingly,”
the Solicitor General continued, Treasury had “long advised the States that to receive
payment on a U.S. savings bond a State must complete an escheat proceeding that
satisfies due process and that awards title to the bond to the State, substituting the State
for the original bondholder as the lawful owner.” Id. at 184. Further, as with the
government’s brief before the Third Circuit, the states’ lack of possession of the bonds
was not presented as pertinent to the issue before the Court. See id. at 176–209. The
10

33a
Supreme Court ultimately denied the petition. Dir. of the Dep’t of Revenue of Mont., 133
S. Ct. at 2735.
IV.

Other Guidance Provided by Treasury

From time to time, Treasury has also provided public guidance on its savings
bond redemption policies. As most relevant to this case, Treasury has posted information
about purchasing and redeeming U.S. savings bonds on its website, TreasuryDirect.gov.
From 2000 through the initiation of this litigation, an FAQ page on that website included
the following question regarding states with permanent escheat laws:
In a state that has a permanent escheat law, can the state claim the
money represented by securities that the state has in its
possession[?] For example, can a state cash savings bonds that it’s
gotten from abandoned safe deposit boxes?
See Def.’s Mot. App. at A115; see also Estes, 123 Fed. Cl. at 87 n.11. In its answer,
Treasury confirmed that it “recognize[s] claims by States for payment of United States
securities where the States have succeeded to the title and ownership of the securities
pursuant to valid escheat proceedings.” Def.’s Mot. App. at A115. “[I]n such [a] case,”
Treasury continued, “payment of the securities results in full discharge of . . . Treasury’s
obligation and the discharge is valid in all jurisdictions.” Id.
V.

The Estes/LaTurner Litigation3

On December 20, 2013, the State of Kansas filed a complaint in this Court
alleging that, as a result of a state court judgment of escheat made pursuant to its
unclaimed property law, it had obtained title to two sets of U.S. savings bonds. First, it
alleged that it had obtained title to approximately 1,400 bonds in its possession. Second,
it claimed that it had obtained title to approximately $151 million worth of U.S. savings
bonds that it admittedly did not possess. See Compl. ¶¶ 1, 84, LaTurner v. United States,
No. 13-1011 (Fed. Cl. Dec. 20, 2013), ECF No. 1. It also alleged that it “made proper
presentment under applicable federal regulations of the U.S. savings bond contracts” for
both sets of bonds. Id. ¶ 90. But while Treasury redeemed the bonds in Kansas’s
possession, it refused to redeem the absent bonds. Id. ¶¶ 91–92. As a result, Kansas
claimed that Treasury was liable to it for breach of contract with respect to the absent

3

On May 12, 2017, Kansas notified the Court that it was substituting the new State
Treasurer, Jake LaTurner as the named public official plaintiff in Estes v. United States.
See Notice, LaTurner v. United States, No. 13-1011 (Fed. Cl. May 12, 2017), ECF No.
94. Documents filed in that case (other than this Court’s decision denying the
government’s motion to dismiss) will be cited by referencing the updated case caption,
which is LaTurner v. United States.

11

34a
bonds or for taking its property for public use without just compensation in contravention
of the Takings Clause of the Fifth Amendment.4 See id. ¶¶ 93, 142.
As discussed in Estes, the government moved to dismiss Kansas’s breach-ofcontract claims for lack of subject matter jurisdiction, and to dismiss its takings claim for
failure to state a claim. 123 Fed. Cl. at 80. The Court determined, however, that it had
subject matter jurisdiction over Kansas’s breach-of-contract claims because “the
government’s argument—that Kansas was not a party to the contract[s] because under
Treasury’s [r]egulations it was not the owner of the Absent Bonds—[went] to the merits
of Kansas’s . . . claims, not th[e] Court’s jurisdiction over them.” Id. at 82–83. Therefore,
the Court treated the government’s entire motion as a motion to dismiss for failure to
state a claim, and concluded that Kansas had stated a plausible claim to relief with respect
to its breach-of-contract claims and its takings claims.5 Id. at 85, 90–91.
The Court’s ruling on Kansas’s breach-of-contract claims turned on a narrow
issue of regulatory interpretation around which the parties framed their briefs. See id. at
81–85; see also Def.’s Mot. to Dismiss at 10–16, LaTurner, No. 13-1011 (Apr. 11, 2014),
ECF No. 9; Pl.’s Resp. to Def.’s Mot. to Dismiss at 22–29, LaTurner, No. 13-1011 (July
2, 2014), ECF No. 15. In particular, the government centered its arguments on Subpart E
of Treasury’s regulations, 31 C.F.R. §§ 315.20–.23, which (as discussed above) sets forth
“[l]imitations on [j]udicial [p]roceedings” with respect to U.S. savings bonds. See Def.’s
Mot. to Dismiss at 11–12, LaTurner, No. 13-1011.
Advancing a restrictive interpretation of 31 C.F.R. § 315.20(b)—which states that
Treasury “will recognize a claim against an owner of a savings bond . . . if established by
valid, judicial proceedings, but only as specifically provided in this subpart”—the
government contended that escheat judgments could never form the basis of claims of
ownership under the regulations because such judgments were not specifically provided
for elsewhere in Subpart E. Id. at 11–13. Rather, according to the government, Subpart E
only specifically provided for two types of claims: “claims under a divorce decree
(§ 315.22(a)) and gift causa mortis claims (§ 315.22(b)).”6 Id. at 12. Thus, the
4

Kansas also asserted several alternative theories of liability, which are spelled out in
more detail in the Court’s Opinion and Order on the parties’ cross-motions for summary
judgment in that case. See Opinion and Order at 15–16, LaTurner, No. 13-1011 (Aug. 8,
2017), ECF No. 102. For ease of reference, the Court refers to these claims collectively
as Kansas’s “breach-of contract” claims.
5

The Court did dismiss one of Kansas’s alternative claims, which was based on a thirdparty beneficiary theory. Estes, 123 Fed. Cl. at 90.
6

In supplemental briefing ordered by the Court, the government expanded its argument
to include the additional types of judicial proceedings listed in 31 C.F.R. § 315.21, which
concern payments to judgment creditors and the treatment of U.S. savings bonds in
bankruptcy proceedings. See Def.’s Suppl. Br. in Supp. of Its Mot. to Dismiss at 5,
LaTurner, No. 13-1011 (Jan. 15, 2015), ECF No. 28.

12

35a
government contended, “[e]scheatment actions are not one of the ‘valid judicial
proceedings’ recognized in the regulations.” Id. And because “the only ‘valid judicial
proceedings’ are the ones set forth in the regulations,” the government reasoned, “[i]t
makes no difference whether the states’ escheatment statute purports to take title to or
custody of the bonds.” Id. at 13; see also Def.’s Suppl. Br. in Supp. of Its Mot. to Dismiss
at 4, LaTurner, No. 13-1011 (“Only certain judicial proceedings are covered by 31
CFR 315.20, and escheat proceedings are not among them.”).
The government then sought to explain away Treasury’s past statements regarding
state claims to bonds obtained by escheatment proceedings by contending that those
statements “were made in the context of states claiming title for bonds in their
possession.” Def.’s Mot. to Dismiss at 13, LaTurner, No. 13-1011 (emphasis in original).
The government maintained that position even after Kansas pointed out that the Treasurer
of New Jersey litigation involved state claims for redemption of absent bonds. See Def.’s
Reply Br. in Supp. of Its Mot. to Dismiss at 5–7, LaTurner, No. 13-1011 (Aug. 8, 2014),
ECF No. 20. Further, in supplemental briefing, the government argued that its prior
statements did not reflect its “considered judgment” on the meaning of its regulations;
that its current litigating position did, in fact, reflect its considered judgment; and that the
Court was thus required to defer to its litigating position under Auer v. Robbins, 519 U.S.
452 (1997). See Def.’s Suppl. Brief at 10–11, 15, LaTurner, No. 13-1011.
The Court was not persuaded by the government’s arguments. See Estes, 123 Fed.
Cl. at 85–90. First, it rejected the government’s reading of § 315.20(b) as incompatible
with the text of Subpart E as a whole. Id. at 85–86. The Court noted that in § 315.20(a),
Treasury expressly disavowed recognition of two types of judicial determinations. See 31
C.F.R. § 315.20(a) (stating that Treasury “will not recognize a judicial determination that
gives effect to an attempted voluntary transfer inter vivos of a bond, or a judicial
determination that impairs the rights of survivorship conferred by these regulations upon
a coowner or beneficiary”); see also Estes, 123 Fed. Cl. at 85. Accepting the
government’s reading of § 315.20(b), however, would render superfluous this express
disavowal. Estes, 123 Fed. Cl. at 85. Further, the Court found that the government’s
reading “ignore[d] what appear[ed] to be [the] actual purpose” of the restrictions found in
§§ 315.21 and 315.22: “to address specific considerations and concerns attendant to the
types of judgments referenced” in those subsections. Id. at 86.
In an extended discussion, the Court also rejected the government’s position
regarding the import of its prior statements and the deference owed to its litigating
position. See id. at 86–90. First, it found that the government’s litigating position actively
conflicted with Treasury’s prior statements regarding escheat, especially statements made
in connection with the Treasurer of New Jersey litigation. See id. at 87–88. That
litigation, the Court noted, involved claims for custody over the proceeds of absent
bonds, undercutting the government’s contention that all of its prior statements were
made in the context of bonds-in-possession. Id. at 88. Further, in the Court’s view,
possession had never served as an essential characteristic in Treasury’s prior statements
regarding title-based escheat, without which an escheat judgment would not have been
“valid” under the regulations. See id. at 88–89. And the government’s litigating position
was internally inconsistent: it claimed (without any apparent factual basis) that it had
13

36a
exercised its waiver authority under 31 C.F.R. § 315.90 when it redeemed the bonds in
Kansas’s possession; and it argued in supplemental briefing that escheat judgments were
invalid under the regulations because they were proceedings in rem. See id. at 88–90. The
Court thus concluded that the government’s ever-evolving litigating position did not
reflect its considered judgment, and thus was not entitled to Auer deference. See id. at 90
(“If anything, deference is due to the interpretation that Treasury expressed for over sixty
years until the instant controversy arose.”).
Accordingly, the Court rejected the government’s contention that all escheat
judgments—whether under a title-based or custody-based state law scheme—fell outside
the category of “valid, judicial proceedings” under § 315.20(b). See id.
With respect to Kansas’s takings claim, the Court, following the Federal Circuit’s
lead, observed that a party may properly “alleg[e] in the same complaint two alternative
theories for recovery against the Government . . . one for breach of contract and one for a
taking under the Fifth Amendment to the Constitution.” Id. at 91 (quoting Stockton E.
Water Dist. v. United States, 583 F.3d 1344, 1368 (Fed. Cir. 2009)). It therefore denied
the government’s motion to dismiss Kansas’s claims under the Takings Clause. See id.
VI.

Treasury’s Revision of the Regulations and Kansas’s APA Challenge

In the meantime, on July 1, 2015, Treasury issued a Notice of Proposed
Rulemaking in which it proposed revising its savings bond regulations to expressly
address state court judgments of escheat pursuant to title-based unclaimed property laws.
See Regulations Governing United States Savings Bonds, 80 Fed. Reg. 37,559-01 (July
1, 2015). After a period of notice and comment, Treasury issued the final revised
regulations on December 24, 2015. Regulations Governing United States Savings Bonds,
80 Fed. Reg. at 80,258-01. In the preamble to the revised regulations, Treasury stated that
it intended for the revisions to “clarify its prior statements on escheat and to describe
more formally the criteria Treasury will use to evaluate escheat claims.” Id. at 80,259.
Further, by promulgating a “uniform federal rule governing title escheat claims,”
Treasury would “provide formal notice to all states about the escheat claims it will
recognize and how it will protect the rights of bond owners still in possession of their
savings bonds.” Id.
As relevant to the issue presented in this case, the revised rule amended 31 C.F.R.
§ 315.20(b) to add a sentence stating that “[e]scheat proceedings will not be recognized
under this subpart.”7 Id. at 80,264. Treasury also added a new provision, § 315.88, to
govern “[p]ayment to a State claiming title to abandoned bonds.” Id. Under the new
provision, Treasury “may, in its discretion, recognize an escheat judgment that purports
to vest a State with title to a definitive savings bond that has reached the final extended
maturity date and is in the State’s possession.” Id. But Treasury “will not recognize an

7

Thus, the revised § 315.20(b) expressly conformed to the arguments the government
made in its motion to dismiss in LaTurner.

14

37a
escheat judgment that purports to vest a State with title to a bond that the State does not
possess.” Id.
Kansas and four other states challenged the rule under the Administrative
Procedure Act (APA), 5 U.S.C. § 706. Estes v. U.S. Dep’t of Treasury, 219 F. Supp. 3d
17, 22, 27 (D.D.C. 2016). They argued (among many other things) that the rulemaking
was arbitrary and capricious because the new provisions “marked a change of agency
policy, without any acknowledgment of that change.” Id. at 27.
The District Court for the District of Columbia disagreed. Id. at 28–33. After
noting that the questions it faced and the issues before this Court were “distinct in
numerous respects,” it concluded that the possession requirement expressed in the revised
rule was not inconsistent with any clearly established prior policy.8 Id. at 28 n.4, 31.
Alternatively, the District Court concluded that even if the new rule did work a policy
change, Treasury had not violated the APA in promulgating it because Treasury did not
“depart from [its] prior policy sub silentio or simply disregard rules that are still on the
books.” Id. at 33 (quoting FCC v. Fox Television Stations, Inc., 556 U.S. 502, 514
(2009)). Rather, it “extensively explained its Rule and its view as to why that Rule did
not contradict prior statements.” Id. There was thus “no basis for concluding that
[Treasury] casually ignored prior policies and interpretations or otherwise failed to
provide a reasoned explanation for its [Rule].” Id. (quoting Cablevision Sys. Corp. v.
FCC, 649 F.3d 695, 710 (D.C. Cir. 2011)) (second alteration in original).9
VII.

Arkansas’s Claim to Ownership Over the Bonds Involved in This Case and
its Redemption Request

On March 20, 2015, Arkansas amended its unclaimed property law to make U.S.
savings bonds subject to title-based escheat. See Ark. Code Ann § 18-28-231. Pursuant to
that law, as noted, U.S. savings bonds “held or owing” in Arkansas are presumed
abandoned if they remain unredeemed for five years after the date of maturity, and may
be subject to escheat via a state-court proceeding two years later. See id.
On August 5, 2015, Arkansas filed a complaint in the Circuit Court of Pulaski
County in Arkansas for a declaratory judgment awarding it title over certain U.S. savings
bonds. See Def.’s Mot. App. at A151. These bonds included an unknown number of
absent bonds, which Arkansas estimated had a total value of $151 million. Id. Pursuant to
its Unclaimed Property Act, Arkansas also filed a motion for leave to effect service on
8

Thus, the District Court found that although Treasury’s prior statements reflected a
“longstanding policy that payment requests for escheated bonds will not be honored
unless a state has title ownership over those bonds,” they “d[id] not express a policy that
a state may redeem bonds without possessing them.” Estes v. U.S. Dep’t of Treasury, 219
F. Supp. 3d at 29 (emphasis in original).
9

Kansas has appealed the District Court’s ruling. See Docketing Statement, LaTurner v.
U.S. Dep’t of Treasury, No. 17-5015 (D.C. Cir. Mar. 2, 2017).

15

38a
the owners of the absent bonds by warning order—a method of notice by publication. See
id. at A157; see also Ark. R. of Civ. P. 4(f) (setting forth the procedures for effecting
service by warning order). Arkansas also requested an ex parte temporary restraining
order that would “mak[e] clear that title to the savings bonds . . . ha[d] already vested in
the State of Arkansas by operation of” its Unclaimed Property Act. Id. at A161.
On August 17, 2015, the Pulaski County Court denied Arkansas’s motion for
leave to effect service by warning order and declined to issue a temporary restraining
order. See id. at A160, A165. It found that, because Arkansas had presented no evidence
that it had attempted to find the owners of the savings bonds, it had not made the
“diligent inquiry” required by Arkansas’s Rules of Civil Procedure before effecting
service by warning order. Id. at A159–60. The court also “decline[d] to address the merits
of [Arkansas’s] Motion for a Temporary Restraining Order on an ex parte basis.” Id. at
A165.
Two months later, on October 16, 2015, Arkansas filed a new action in the Circuit
Court for Washington County. See Compl. ¶ 42; Pl.’s Mot. App. at 2. The action
apparently involved three bonds in Arkansas’s possession, as well as all those absent
bonds that had matured on or before October 16, 2008, and whose holders’ last known
addresses (as shown on Treasury’s records) were in Arkansas. See Pl.’s Mot. App. at 4–6.
The Washington County Court granted Arkansas leave to effect service by warning order.
Compl. ¶ 43. According to Arkansas, such an order was then “published on October 18
and 25 in the Northwest edition of the Arkansas Democrat-Gazette, which has circulation
covering the county in which the suit was pending, and on October 23 and 30 in the
statewide edition of the Gazette, which has circulation covering all 75 counties of
Arkansas.” Id.
After holding a hearing, the Washington County Circuit Court issued a judgment
of escheatment on November 20, 2015. Pl.’s Mot. App. at 2–18. The Court found that
“those unredeemed bonds last held by Arkansas residents” were “intangible property that
was abandoned in the state and is thus subject to Arkansas’s Unclaimed Property Act.”
Id. at 9. Further, the court determined that “by operation of” the Unclaimed Property Act,
“the titles to all unclaimed United States savings bonds that were last held by a resident
of the State and that matured on October 16, 2008 . . . or earlier have escheated to the
State and are now the property of Arkansas.” Id. at 15. These bonds included the bonds
“that Arkansas does not physically possess but that have gone unclaimed in the State.” Id.
at 16 (emphasis omitted). The court also found that “no actual owners of these savings
bonds have come forward to substantiate their claims to the bonds.” Id. at 17.
Accordingly, the court declared that:
[A]ll property rights and legal title to and ownership
of . . . all savings bonds that matured on or before October
16, 2008, that were not redeemed prior to the date of entry
of this Judgment, that are shown in the books and records of
the United States Department of the Treasury as having a
last-known purchaser or owner with an address in the State

16

39a
of Arkansas, and that are not in the physical possession of
the State, are vested solely in the State of Arkansas.
Id. at 18.
A few days later, on November 25, 2015, Arkansas sent Treasury a redemption
request for the absent bonds at issue in the escheat proceeding.10 Id. at 20–22. It attached
a certified copy of the judgment to its request. Id. at 21.
On January 28, 2016, after it had issued its new regulations, Treasury denied the
request. See id. at 24–31. In denying the request, Treasury “address[ed] Arkansas’[s]
claim under both the prior regulations and the amended regulations.” Id. at 25. Under the
prior regulations, Treasury asserted that the state court judgment was not a “valid,
judicial proceeding” for purposes of 31 C.F.R. § 315.20(b) because it “rest[ed] on a state
statute that is preempted by federal law.” Id. at 26. According to Treasury (and as
discussed in more detail below), Arkansas’s Unclaimed Property Law was preempted
because Treasury’s regulations “do not impose any time limits for bond owners to
redeem the[ir] savings bonds.” Id. (quoting Treasurer of N.J., 684 F.3d at 388).
Treasury also contrasted Arkansas’s request with its historical guidance and
treatment of requests to redeem escheated bonds. Id. at 27–29. In particular, it noted that
it had previously “informed other states that it w[ould] redeem certain bonds that had
come into [their] possession and for which the states had obtained title through a
judgment of escheat,” but that “Arkansas d[id] not possess these bonds and did not
present evidence showing that the bonds were actually abandoned, rather than in the
possession of the registered owners or their heirs.” Id. at 28–29.
As an independent basis for denying Arkansas’s request, Treasury stated that the
state court escheat proceeding “did not comport with the Due Process Clause of the
Fourteenth Amendment” because Arkansas “did not identify a constitutional basis for
exercising in rem jurisdiction over the Absent Bonds” and because “the state court failed
to give the owners of the Absent Bonds constitutionally adequate notice of the escheat
proceeding.”11 Id. at 29.

10

Although the state court proceedings involved three bonds in Arkansas’s possession,
the redemption request in the record concerns only the absent bonds. See Pl.’s Mot. App.
at 21 & n.1.
11

Because Arkansas obtained the state-court judgment before Treasury’s new rule took
effect, Treasury’s application of the new rule to Arkansas’s request is not relevant to this
case.

17

40a
VIII. This Litigation
After receiving the denial from Treasury, Arkansas filed its complaint in this
Court on January 11, 2016. It alleges that Treasury’s regulations “allow all title to and
interest in a bond to be transferred from the original purchaser to a third party if the
transfer is established by a valid judicial proceeding” and that the escheat judgment met
that criteria with respect to the absent bonds. Compl. ¶¶ 57–59. In Count I of its
complaint, Arkansas asserts that Treasury has thus “breached the contract underlying
each of the United States savings bonds in question by failing to redeem those bonds
upon Arkansas’s request.”12 Id. ¶ 61. In Counts III and IV of its complaint, Arkansas also
alleges that Treasury’s “refusal to redeem the bonds . . . constitutes an unconstitutional
taking of [Arkansas’s] private property for public use within the meaning of the Fifth
Amendment” and/or an illegal exaction. Id. ¶¶ 84, 86–91.
The government moved to dismiss the complaint. ECF No. 5. Following a status
conference, the Court determined that because “[t]he government’s motion raise[d]
certain issues that [we]re identical to” the issues raised in the LaTurner litigation, “the
interests of judicial economy w[ould] be served” by litigating the case in parallel with
LaTurner. Order (Feb. 19, 2016), ECF No. 7.
The parties in LaTurner then engaged in targeted discovery regarding “the history
of the Department of Treasury’s recordkeeping, registration, and redemption practices
regarding the types of U.S. savings bonds involved in this case, as well as information
regarding the nature of how the Department’s relevant savings bond records are
catalogued and may best be searched.” See Order, LaTurner, No. 13-1011 (Dec. 18,
2015), ECF No. 51. Once discovery concluded, the government provided Arkansas with
copies of its written responses to the LaTurner plaintiff’s discovery requests. See
Scheduling Order (Oct. 7, 2016), ECF No. 12.
The government has now moved for summary judgment as to all of Arkansas’s
claims. See Def.’s Mot. at 2–5. Arkansas has filed a cross-motion for summary judgment
as to the government’s liability on the absent bonds. See Pl.’s Mot. at 1–3. The Court
heard oral argument on June 22, 2017.13

12

In the alternative, Arkansas alleges in Count II of its complaint that “each United States
savings bond is an implied-in-fact contract between the United States and the purchaser
of the bond,” and that the government has breached the implied-in-fact contracts by
refusing Arkansas’ redemption request. Compl. ¶¶ 64, 70–75.
13

Besides Kansas and Arkansas, seven other states with title-based escheat regimes have
filed similar lawsuits seeking redemption of bonds they do not possess. See Sattgast v.
United States, No. 15-1364 (South Dakota); Kennedy v. United States, No. 15-1365
(Louisiana); Ball v. United States, No. 16-221 (Kentucky); Fitch v. United States, No.
16-231 (Mississippi); Loftis v. United States, No. 16-451 (South Carolina); Zoeller v.

18

41a
DISCUSSION
I.

Standard For Summary Judgment

In accordance with RCFC 56(a), summary judgment may be granted “if the
movant shows that there is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” See Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986). A fact is material if it “might affect the outcome of the suit under the governing
law.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). A dispute is genuine if
it “may reasonably be resolved in favor of either party.” Id. at 250.
The material facts in this case are not in dispute. Further, Arkansas’s breach of
contract claim depends upon the resolution of questions of law—namely, the
interpretation of Treasury’s regulations, the interplay between those regulations and
Arkansas’s Unclaimed Property Act, and the constitutional principles raised by the
government in opposition to Arkansas’s claims. Therefore, Arkansas’s breach of contract
and other claims are appropriate for resolution by summary judgment.
II.

Merits

In its motion for partial summary judgment, Arkansas seeks a ruling that the
government is liable for breach of contract. To succeed on this claim, Arkansas must first
demonstrate that it is in privity of contract with the government with respect to the absent
bonds—i.e., it must establish that it owns the absent bonds. See Cienega Gardens v.
United States, 194 F.3d 1231, 1239 (Fed. Cir. 1998); Rotman, 31 Fed. Cl. at 725. Further,
it must also show that in refusing to recognize its ownership of the bonds and in declining
to redeem the proceeds of the bonds, the government materially breached the terms of the
bond contracts. See Bell/Heery v. United States, 739 F.3d 1324, 1330 (Fed. Cir. 2014);
San Carlos Irrigation & Drainage Dist. v. United States, 877 F.2d 957, 959 (Fed. Cir.
1989).
Arkansas’s contention that it is the owner of the absent bonds is predicated on 31
C.F.R. § 315.20(b), which it argues obligates the United States to recognize the state-law
judgment of escheat that purported to vest it with title to the bonds. Arkansas asks the
Court to direct the Department of Treasury to provide it with the information it is entitled
to receive pursuant to 31 C.F.R. §§ 1.5 and 323.2 as the owner of the bonds. It further
requests a ruling that—notwithstanding that it currently lacks information about the
whereabouts of the bond certificates—Treasury was required to redeem the bonds upon
presentation of a certified copy of the state court judgment under 31 C.F.R. §§ 315.20
and 315.23, or pursuant to 31 C.F.R. § 315.25, which provides a method for owners to
redeem bonds where the certificates have been lost. Arkansas contends that Treasury’s

United States, No. 16-699 (Indiana); Atwater v. United States, No. 16-1482 (Florida).
The Court has stayed these cases pending its decisions in this case and in LaTurner.

19

42a
refusal to redeem the bonds constitutes both a breach of contract and a compensable
taking of its property under the Fifth Amendment.
The government asserts, on the other hand, that Arkansas has not obtained
ownership of the absent bonds and that, as a result, the United States is entitled to an
entry of summary judgment. It briefly reprises its contention that 31 C.F.R. § 315.20(b)
does not require Treasury to recognize ownership claims arising out of state court
judgments under title-based escheat statutes. Further, it argues that even if Arkansas
Treasury’s regulations permit transfers of ownership pursuant to title-based escheat
statutes, the government was not required to redeem the absent bonds because Arkansas
has not and cannot submit the paper bond certificates, which the government argues is a
pre-requisite to its obligation to pay Arkansas their proceeds. Finally, it contends that, in
any event, ownership of the bonds cannot be transferred to Arkansas under the
circumstances of this case because: (1) the state law on which the judgment rests is
preempted by federal law; (2) the underlying state law violates the principle of
intergovernmental immunity; and (3) the state court proceedings did not comport with the
due process clause of the Fourteenth Amendment.
For the reasons set forth below, the Court agrees that Arkansas is the owner of the
absent bonds pursuant to Treasury’s regulations and that Treasury’s refusal to recognize
Arkansas’s ownership of the bonds is a breach of contract. It further finds that Treasury
breached the contract when it refused to provide Arkansas with information about the
bonds and demanded that Arkansas produce the bond certificates as a condition of
redeeming their proceeds. Accordingly, the Court grants Arkansas’s motion for partial
summary judgment as to liability for breach of contract.
A.

Whether Treasury is Required to Redeem the Absent Bonds Under
Treasury’s Regulations

As discussed, 31 C.F.R. § 315.20(b) provides that Treasury “will recognize a
claim against an owner of a savings bond . . . if established by valid, judicial proceedings,
but only as specifically provided in this subpart.” And 31 C.F.R. § 315.23(a) states that
“[t]o establish the validity of judicial proceedings,” a claimant must submit to Treasury
“certified copies of the final judgment, decree, or court order, and of any necessary
supplementary proceedings.”
The facts material to the application of these regulations with respect to the absent
bonds are not disputed. Thus, the parties do not dispute that Arkansas obtained the state
court escheat judgment, Pl.’s Mot. App. at 2–18; that the judgment concerned ownership
of the absent bonds, id. at 3–4, 16; and that, when it attempted to redeem the absent
bonds, Arkansas supplied certified copies of the judgment to Treasury in accordance with
§ 315.23(a), id. at 21.
In its motion for summary judgment, the government revives (albeit briefly) the
arguments which this Court rejected in Estes regarding the proper interpretation of
§ 315.20(b). Thus, it contends that the ownership recognition requirements of § 315.20(b)
do not under any circumstances apply to judgments entered pursuant to state escheatment

20

43a
laws. See Def.’s Mot. at 19–20 & n.4. It also appears to argue that—even if title to the
absent bonds has passed to Arkansas—the state may not redeem the proceeds of the
bonds because it has not presented the bond certificates to Treasury. Both of these
arguments lack merit.
1.

Whether Treasury is Required to Recognize Arkansas’s Ownership
Claims Based on the State Escheat Judgment

As discussed briefly above, and in greater detail in Estes, the government’s
argument in support of its initial motion to dismiss was that under § 315.20(b), Treasury
would recognize only those claims of ownership that arise out of the specific types of
judgments referenced elsewhere in Subpart E of Part 315. Because state court escheat
judgments were not referenced in the regulations, Treasury argued, they were not subject
to § 315.20(b) at all. Treasury reprises this argument in its motion for summary
judgment, observing once again that “Treasury’s regulations do not recognize the transfer
of savings bonds via escheat judgment.” Def.’s Mot. at 19.
In Estes, this Court found Treasury’s interpretation inconsistent with the language
and structure of the regulation. See 123 Fed. Cl. at 85–86 (concluding that the
government’s “construction of the regulations . . . collides with the well-established
canon of interpretation that holds that regulatory text should not be read in such a way as
to render any portion of the language superfluous” and “ignores [the] actual purpose” of
the provisions of Subpart E). The government’s summary judgment briefs do not address
the Court’s textual analysis or provide any basis for it to depart from its conclusion in
Estes that a textual analysis of the language of § 315.20(b) establishes that Treasury is
required to recognize claims of bond ownership that are based on state court judgments of
escheat pursuant to valid judicial proceedings.
Nor is there anything in the government’s summary judgment briefs that would
alter this Court’s conclusion in Estes that Treasury’s position in this litigation conflicts
directly with Treasury’s prior explicit statements interpreting § 315.20(b). These
statements, which go back more than sixty years, clearly reflect that before this litigation,
Treasury took the position that states could secure ownership of savings bonds on the
basis of title-based escheatment statutes like Arkansas’s.
Thus, as the Court explained in Estes, in its brief filed with the Third Circuit in
the Treasurer of New Jersey litigation, the federal government represented that “Treasury
regulations generally provide that payment on a U.S. savings bond will be made only to
the registered owner,” but that “[t]he regulations specify limited exceptions to this rule,
including cases in which a third party obtains ownership of the bond through valid
judicial proceedings.” See Br. for Appellees at 6, Treasurer of N.J., 684 F.3d 382 (No.
10-1963). In particular, the government explained, “[a] State may satisfy this ownership
requirement ‘through escheat, a procedure with ancient origins whereby a sovereign may
acquire title to abandoned property if after a number of years no rightful owner appears.’”
Id. (emphasis added) (quoting Texas, 379 U.S. at 675). In its decision, the Third Circuit
went on to endorse Treasury’s reading of its own regulations. See Treasurer of N.J., 684
F.3d at 412–13 (observing that “the States[] may obtain ownership of . . . bonds—and
21

44a
consequently the right to redemption—through ‘valid[] judicial proceedings’” as
provided in 31 C.F.R. § 315.20(b) (second alteration in original)).
The Solicitor General made a similar representation regarding Treasury’s
interpretation of its regulations to the Supreme Court in 2013, in opposing a petition for
certiorari filed by some of the states that were parties to the Third Circuit case. See Pl.’s
Mot. App. at 182–86. In that brief, the Solicitor General, citing 31 C.F.R. §§ 315.20(b),
315.23, and 353.23, observed that Treasury “has long advised the States that to receive
payment on a U.S. savings bond a State must complete an escheat proceeding that
satisfies due process and that awards title to the bond to the State,” and that this
“represents the Department’s considered interpretation of federal law.” Id. at 184.
As the Court also explained in Estes, Treasury has long assured inquiring states
that it would recognize state claims of ownership based on title-based escheat statutes.
Thus, Treasury explained in the 1952 Escheat Decision that it would “recognize[] the title
of the state when it makes claim based upon a judgment of escheat,” because, in that
case, the state has “succeed[ed] to the title of the bondholder.” Def.’s Mot. App. at A3
(emphasis omitted). And Treasury continued to emphasize this position throughout the
1970s, 1980s, and 1990s in its responses to states’ requests to redeem or obtain custody
over the proceeds of bonds in their possession under custody-based escheat regimes. See
id. at A6 (Oklahoma, June 26, 1970); id. at A8 (Indiana, Nov. 19, 1971); id. at A10 (New
Hampshire, May 12, 1976); id. at A12 (South Carolina, May 26, 1976); id. at A15
(Hawaii, July 14, 1976); id. at A17 (Indiana, Jan. 18, 1977); id. at A19 (North Dakota,
June 24, 1977); id. at A22 (Illinois, Oct. 27, 1980); id. at A39 (Kentucky, Sept. 6, 1983);
id. at A40 (Alaska, Oct. 25, 1983); id. at A109 (Alaska, Feb. 6, 1992); id. at A112
(Oklahoma, Aug. 5, 1999).
In addition, in 1982, Treasury informed Massachusetts that under the state’s titlebased escheat regime, Treasury would “make payment to the Treasurer of the
Commonwealth where the Commonwealth, through appropriate court proceedings, takes
the owner’s title to itself.” Id. at A38 (observing that “[i]n that event, [Treasury] would
pay the owner in the person of its successor, the Commonwealth”). Further, Treasury
referred Massachusetts to 31 C.F.R. §§ 315.23(a) and 353.23(a) as the sources of “the
proper evidence to be submitted if this approach is followed.” Id.
Notwithstanding the foregoing, the government contends now, as it did in the
context of its motion to dismiss, that the Court should discount Treasury’s pre-2000
statements because they “did not address the applicability of section 315.20(b) to titlebased escheat judgments for bonds a state did not possess.” Def.’s Mot. at 20 (emphasis
added). But there is nothing in § 315.20(b) that purports to make possession of bond
certificates a condition for Treasury’s recognition of ownership claims based on valid
judicial proceedings. More to the point, under Treasury’s interpretation, state judgments
of escheat can never confer ownership, regardless of whether the state has possession of
the bond certificates. That is, under Treasury’s interpretation, even a state that: (1) has
obtained title to the bonds through state escheatment proceedings; (2) possesses the bond
certificates; and (3) presents those certificates to Treasury for redemption cannot claim an
entitlement to the proceeds of the bonds. The factual distinction Treasury asks the Court
22

45a
to draw thus is not relevant to the legal position it advances—i.e., that the Court ought to
accept its assertion that it does not recognize claims against bond holders based on statecourt escheat judgments under § 315.20(b).
Indeed, Treasury’s litigating position in this case and in the related LaTurner
litigation is that to redeem even the bonds in possession to which it holds title pursuant to
valid judicial proceedings, the state must persuade Treasury to waive its regulations. See
Def.’s Mot. to Dismiss at 15, LaTurner, No. 13-1011 (contending that “[p]ursuant to [its]
discretionary authority, Treasury elected to waive its regulations for the bonds in Kansas’
possession” but “found no basis to waive its regulations for the Absent Bonds”). But until
Kansas initiated the related litigation, Treasury never mentioned its waiver authority in
any of its many pronouncements concerning states’ rights to redeem bond proceeds under
title-based escheat regimes; instead, it cited § 315.20. Thus, Treasury’s ever-shifting
explanations for denying states’ requests to redeem absent bonds resemble nothing so
much as a game of “whack-a-mole” in which the federal government’s rationale for
denying such requests changes each time the states satisfy the most recently articulated
condition for doing so.
In that regard, the government also draws the Court’s attention to certain 2004
correspondence between Treasury and several states that were then seeking information
about the redemption of absent bonds under their custody-based escheat statutes. See
Def.’s Mot. at 20. That correspondence, which was not before the Court when it ruled in
Estes, contained a passage advising the inquiring states that “[i]n order for the bonds to
be paid to [the state], [it] must have possession of the bonds, . . . obtain an order of
escheat from a court of competent jurisdiction vesting title in the state to the individual
bonds, and apply to the Department of the Treasury for payment.” E.g., Def.’s Mot. App.
at A134.
The passing mention of a possession requirement in the 2004 correspondence
does not persuade the Court to depart from its prior interpretation of the plain text of the
applicable Treasury regulations. For one thing, that correspondence did not purport to
interpret § 315.20(b). Nor did it address Treasury’s treatment of claims brought under
title-based escheat judgments for bonds that a state did not possess, as the correspondence
arose in the context of state claims for bond proceeds under custody-based escheat
regimes. The correspondence thus did not identify possession of the bonds as a condition
of recognizing the state’s claim of ownership under a title-based escheat regime, as
Treasury appears to argue.
Further, the Court notes that in Treasury’s subsequent 2006 correspondence with
the state of Florida, there is no mention of a possession requirement. Instead, Treasury
advised the State that “[t]he applicable regulations would permit the State of Florida to be
paid for the bonds, pursuant to an appropriate state statute and after due process, by
obtaining an order of escheat from a court of competent jurisdiction vesting title in the
state, and then applying for payment to the Department of the Treasury pursuant to the
procedures established by the regulations that all bond holders must utilize.” Id. at A148.
Accordingly, Treasury’s mention of a possession requirement in the 2004 correspondence
does not cast doubt upon its assurances over the more than sixty preceding years, or the
23

46a
representations that it made to the Supreme Court almost ten years later, all of which
clearly confirmed that Treasury would recognize claims of ownership based on valid state
court escheatment proceedings.14
For the reasons set forth above and in its opinion in Estes, the Court is of the view
that, under § 315.20(b), title and ownership of the absent bonds was transferred to
Arkansas pursuant to the state court escheat judgment. It turns now to the government’s
alternative argument that, even if Arkansas has succeeded to ownership of the absent
bonds, presentation of the escheated bonds is a prerequisite to their redemption. Def.’s
Mot. at 21–26; Def.’s Reply at 24–25.
2.

Whether Arkansas Must Present the Certificates for the Bonds it
Owns as a Condition to Securing their Redemption

As noted, the government contends that even assuming that Arkansas secured
ownership of the absent bonds through the state escheatment proceedings, it cannot
redeem the bonds because it does not possess them. This argument—whose premise is
that the Treasury’s regulations allow it to keep the proceeds of bonds indefinitely even if
Arkansas’s ownership of the bonds has been established by valid judicial proceedings—
does not withstand scrutiny.
Treasury’s regulations make its payment obligation clear: under 31 C.F.R.
§ 315.35(a), “[p]ayment . . . will be made to the person or persons entitled under the
provisions of these regulations.” Id. Generally, in order to redeem the proceeds of a bond,
14

In support of its argument that § 315.20(b) is inapplicable to escheat judgments, the
government cites the recent decision of the U.S. District Court for the District of
Columbia in the litigation brought by Kansas and several other states to challenge
Treasury’s new rule. See Def.’s Mot. at 4–5, 20 & n.4 (citing Estes v. U.S. Dep’t of
Treasury, 219 F. Supp. 3d at 32). As noted, the new rule, among other things, explicitly
requires a state to possess the escheated bond in order to redeem it. See Estes v. U.S.
Dep’t of Treasury, 219 F. Supp. 3d at 27–28. As the district court itself acknowledged,
however, the issues in that case are “distinct in numerous respects” from the issues in this
one. See id. at 28 n.4. Thus, in that case, the plaintiffs argued (among other things) that
the new rule violated the APA “because it capriciously abandon[ed] prior Treasury
policy.” Id. at 22. The issue before the district court was therefore whether the new rule
“altered a clearly established policy without sufficient explanation.” Id. at 28 n.4
(emphasis omitted). As noted above, the district court concluded only that there was no
clearly established prior policy recognizing state claims of ownership pursuant to
escheatment proceedings where the bonds were not in the state’s possession, and that, in
any event, if there was such a policy, Treasury had adequately explained its reasons for
changing it. See id. at 28–30, 33. To the extent that the district court’s decision, while
addressing a different issue, can be read to endorse an interpretation of the former
§ 315.20(b) that is at odds with this Court’s interpretation, the Court respectfully
disagrees.

24

47a
the bond owner must surrender the bond certificate to Treasury. See id. § 315.35. But (as
noted) Treasury has the authority to waive any portion of its regulations. See id. § 315.90.
And in any event, as the Court already explained in Estes, presentation of the bond
certificate is not the exclusive means for an individual to establish his or her ownership of
the bond and consequent entitlement to redeem its proceeds. See 123 Fed. Cl. at 88–89.
Thus, the regulations provide procedures by which a bond owner can secure redemption
of bonds whose certificates have been “lost,” or subject to “theft, destruction, mutilation,
or defacement.” 31 C.F.R. § 315.25 (authorizing “[r]elief, by the issue of a substitute
bond or by payment” for lost, stolen, destroyed, or mutilated bonds). In such
circumstances, the owner is required to provide either the serial number of the bond or
other information that will allow Treasury to identify it by serial number. Id. § 315.26.
Presumably, the purpose of these requirements is to enable Treasury to confirm through
its records that the claimant is the bond owner, notwithstanding that he or she cannot
produce the physical bond certificate.15
Counsel for the government in this case has taken the position that the certificates
for the absent bonds cannot be deemed “lost” within the meaning of the regulations
because Arkansas never physically possessed them. But it is not apparent to the Court
why an item is not “lost” where its owner is unaware of its location, whether or not the
owner ever had the item in his possession. Moreover, the government has not supplied
the Court with any basis for determining whether Treasury’s official interpretation of the
scope of 31 C.F.R. § 315.25 is as narrow as the one counsel proposes, or how Treasury
has applied the regulation in the past.
In fact, counsel’s narrow interpretation of § 315.25 appears to conflict with the
requirement in § 315.20(b) that Treasury “recognize” claims against registered owners of
savings bonds if established by valid, judicial proceedings, as well as 31 C.F.R.
§ 315.23(a), which provides that the validity of the judicial proceedings is established by
presentation of certified copies of the final judgment. For if prior possession of the paper
certificate is invariably required in order for an owner to claim them “lost,” then Treasury
in fact would be unable to “recognize” claims of ownership based on valid judicial
proceedings, as § 315.20(b) requires, where, for example, the prior owner of a bond had
lost the physical certificates. It could also not recognize ownership claims where the prior
owner refused to turn over the physical certificates, such as, for example, in the wake of a
contentious divorce.16

15

It bears noting that under the regulations, where Treasury redeems bonds that are lost,
it may protect itself against duplicate claims by “requir[ing] a bond of indemnity” as
“necessary to protect the interests of the United States.” 31 C.F.R. § 315.25.
16

In that vein, the Court notes that the regulation specific to divorce proceedings does not
mention surrendering the physical bond; rather, it states (1) that Treasury will “recognize
a divorce decree that ratifies or confirms a property settlement agreement disposing of
bonds or that otherwise settles the interests of the parties in a bond”; (2) that “[t]he

25

48a
It is certainly clear that 31 C.F.R. § 315.25 was intended to afford relief to bond
owners in circumstances in which, for reasons beyond their control, they are unable to
prove their ownership by presenting the bond certificate. And where ownership is
conferred by a judicial determination, it would seem that submission of the certified
judgment would suffice to prove such ownership. See id. § 315.23. But even leaving that
aside, in light of the remedial purposes of § 315.25, and the anomalous results that would
ensue if counsel’s position were adopted, the Court finds unpersuasive Treasury’s
argument that bond certificates can never be considered “lost” unless they were once in
the current bond owner’s possession.
Finally, in any case, it is neither necessary nor appropriate for the Court to
determine at this stage in the proceedings whether Arkansas is entitled to redeem the
bonds under the provisions of 31 C.F.R. § 315.25. For one thing, Arkansas has not yet
been afforded its rights as an owner of the bonds to make a claim for their proceeds based
on the theory that they are “lost.” It also has not been given access to the information that
it needs to make such a claim, including the serial numbers of the absent bonds, or the
names of their original owners. Presumably, with additional identifying information in
hand, Arkansas may be able to determine whether or not the certificates can be located or
whether instead they have been “lost” or destroyed.
*

*

*

*

*

*

On the basis of the foregoing, and for the reasons set forth more fully in Estes, the
Court stands by its ruling that state court proceedings leading to judgments of escheat are
among the valid judicial proceedings referenced in Treasury’s regulations at 31 C.F.R.
§ 315.20(b). It also continues to find unpersuasive Treasury’s argument that possession of
the bond certificates is a pre-requisite to the recognition of a state’s ownership rights
under Treasury’s regulations, where such ownership is conferred through valid judicial
proceedings. Finally, it rejects as unpersuasive and premature Treasury’s argument that
its regulations preclude Arkansas from redeeming the bonds that it owns unless it
supplies Treasury with the bond certificates. The Court turns now to the government’s
additional bases for refusing to recognize Arkansas’s ownership of the absent bonds.
B.

Whether Arkansas’s Escheatment Law is Preempted

In addition to its argument that § 315.20(b) does not by its terms apply to claims
of ownership based on state court escheat judgments, the government contends that
Arkansas cannot be the “rightful owner of the Absent Bonds because its ownership claim
is based on a state court escheat judgment that rests on a state statute that is preempted by
Federal law.” Def.’s Mot. at 10. Treasury’s preemption argument is without merit.

evidence required under § 315.23 must be submitted in every case”; and (3) that
“[p]ayment, rather than reissue, will be made if requested.” See 31 C.F.R. § 315.22(a).

26

49a
1.

Preemption Standards

It is well established that where a state law comes into conflict with a federal law,
the state law must give way. E.g., Hillsborough Cty. v. Automated Med. Labs., Inc., 471
U.S. 707, 712 (1985); see also Free, 369 U.S. at 669. This principle applies not only
when the state law “actually conflicts” with federal law, but also if the state law “stands
as an obstacle to the accomplishment and execution of the full purposes and objectives”
of the federal government. Fidelity Fed. Sav. & Loan Ass’n v. de la Cuesta, 458 U.S.
141, 153 (1982) (quoting Hines v. Davidowitz, 312 U.S. 52, 67 (1941)); see also Wyeth
v. Levine, 555 U.S. 555, 565 (2009); Allergan Inc. v. Athena Cosmetics, Inc., 738 F.3d
1350, 1355 (Fed. Cir. 2013).
“In all pre-emption cases,” the court “start[s] with the assumption that the historic
police powers of the States were not to be superseded by the Federal Act unless that was
the clear and manifest purpose of Congress.’” Wyeth, 555 U.S. at 565 (quoting
Medtronic, Inc. v. Lohr, 518 U.S. 470, 485 (1996)). “[T]he purpose of Congress,”
therefore, “is the ultimate touchstone in every pre-emption case.” Id. (quoting Medtronic,
Inc., 518 U.S. at 485); see also Retail Clerks Int’l Ass’n v. Schermerhorn, 375 U.S. 96,
103 (1963). Where Congress leaves the implementation of a statute to an agency, a
“regulation with the force of law [may] pre-empt conflicting state requirements.” Wyeth,
555 U.S. at 576; see also Hillsborough Cty., 471 U.S. at 713 (“[S]tate laws can be preempted by federal regulations as well as by federal statutes.”); Free, 369 U.S. at 666–69
(operation of state community property law displaced by right of survivorship embedded
in Treasury’s savings bond regulations).
Unless Congress has specified otherwise, agencies have no special authority to
pronounce on preemption. See Wyeth, 555 U.S. at 576–77. Nevertheless, agencies are
“likely to have a thorough understanding of [their] own regulation[s] and [their]
objectives,” Geier v. Am. Honda Motor Co., 529 U.S. 861, 883 (2000), and thus may
have “an attendant ability to make informed determinations about how state requirements
may pose an obstacle” to federal law, Wyeth, 555 U.S. at 577 (quotation omitted); see
also Geier, 529 U.S. at 883. The weight accorded to the agency’s explanation “depends
on its thoroughness, consistency, and persuasiveness.” Wyeth, 555 U.S. at 577 (citing
United States v. Mead Corp., 533 U.S. 218, 234–35 (2001) and Skidmore v. Swift & Co.,
323 U.S. 134, 140 (1944)).
2.

Application of Standards

Treasury urges the Court to find that the Arkansas law, which presumes bonds
abandoned five years after their maturity date if the owner has not communicated with
Treasury, conflicts with federal law, which it contends “allows savings bond owners to
hold their bonds after maturity and has no deadline for owners to redeem their bonds.”17
17

As noted above, under its Unclaimed Property Act, bonds that have been presumed
abandoned do not escheat to Arkansas until two years after the end of this five-year
period. See Ark. Code Ann § 18-28-231.

27

50a
Def.’s Mot. at 10–12; Def.’s Reply at 6–13. Further, the federal government argues, the
Arkansas law creates an obstacle to the accomplishment of the objectives of the federal
savings bond program. It reasons that “[f]ederal savings bonds are attractive to
purchasers in part because they have no expiration date,” and that “confidence in the U.S.
savings bond program would be undermined” if a state were permitted “to impair [the
bond owner’s] contract rights.” Def.’s Mot. at 12–13.
Treasury’s arguments that the Arkansas law and federal law are in conflict lack
merit. First and foremost, for the reasons set forth above, and in Estes, this Court has
concluded that federal law itself (i.e., 31 C.F.R. § 315.20(b)) requires Treasury to
recognize claims of ownership based on title-based escheatment statutes. In fact,
Treasury has not only represented to both the Third Circuit and the Supreme Court that it
so interprets its regulations, but, in the related litigation, it redeemed the bonds in the
State of Kansas’s possession that Kansas obtained via a nearly identical unclaimed
property law. See Pl.’s Cross-Mot. for Partial Summ. J. & Br. in Opp’n to Def.’s Mot. for
Summ. J. App. at A358–59, 362, LaTurner, No. 13-1011 (Jan. 13, 2017), ECF No. 87-1.
Further, Arkansas’s law determines the identity of the bond owner, and not the
time period within which the bond owner may redeem it. If Arkansas lawfully becomes
the owner of bonds pursuant to Treasury’s regulations via a judgment of escheat (as the
Court has already concluded), then the former bond holders no longer have a right under
federal law to redeem the bonds because they no longer own them. As Treasury expressly
observed in its 1952 Escheat Decision, in such circumstances payment of the proceeds to
the State is “not regarded as a violation of the agreement, but, on the contrary, as
payment to the bondholder in the person of his successor or representative.”18 Def.’s Mot.
App. at A3 (emphasis omitted).
For similar reasons, the Court is not persuaded by the government’s argument that
the Arkansas law makes ownership of federal bonds less attractive, thereby impairing the
objectives of the federal savings bond program. The Court does not agree with Arkansas
that there is no value at all to a right to hold onto a bond over an extended period of time
after it has stopped earning interest. But even under Treasury’s own interpretation of its
regulations, that right is subject to another party’s claim of ownership based on “valid,

18

Treasury’s argument based on 31 U.S.C. § 3105(b)(2)(A) fails for similar reasons. That
provision authorizes Treasury to “prescribe regulations providing that . . . owners of
savings bonds may keep the bonds after maturity or after a period beyond maturity during
which the bonds have earned interest and continue to earn interest.” Id. Section
3105(b)(2)(A) thus concerns the rights that Treasury may choose to confer upon
“owners”; it is agnostic as to who the owner is. Further, Treasury’s argument is purely
academic, as Treasury has not, in fact, prescribed regulations allowing the absent bonds
at issue in this case to continue to earn interest. The Court therefore is not confronted
with a situation where a state seeks recognition of its ownership of bonds that are still
earning interest.

28

51a
judicial proceedings” for at least some categories of judgments. See 31 C.F.R.
§ 315.20(b).
Put another way, Treasury’s regulations themselves expressly contemplate that
the original bond owner may be deprived of his ownership interest in the bond, and
thereby lose the right he once held as the owner to redeem the bond at any time after
maturity. Thus, anyone who chooses to purchase a savings bond is already aware (at least
constructively) that his right to hold onto the bond after it matures (and even while it is
still earning interest) is not unlimited and may be affected by rulings issued in the course
of valid judicial proceedings.
Finally, Treasury’s reliance upon the Third Circuit’s decision in Treasurer of New
Jersey, which found certain custody-based state escheatment laws preempted by federal
law, is unavailing. In that case, the Third Circuit held that “the federal statutes and
regulations pertaining to United States savings bonds preempt the States’ unclaimed
property acts insofar as the States seek to apply their acts to take custody of the proceeds
of the matured but unredeemed savings bonds.” 684 F.3d at 407. “Most critically,” it
stated, “application of the States’ unclaimed property acts would interfere with the terms
of the contracts between the United States and the owners of the bonds because,
according to the States’ complaint, they effectively would substitute the respective States
for the United States as the obligor on affected savings bonds.” Id. at 408. Therefore,
once the states took custody of the bonds’ proceeds, the bonds’ owners would have to
follow the “procedures set forth in the various States’ unclaimed property acts” rather
than the federal redemption process, in order to secure their proceeds. See id. Further, the
Third Circuit observed, the original bondholders (who remained the bond’s owners) “still
would have a contractual right to payment from the United States based on the terms of
the bonds,” exposing the federal government to the risk of double liability on the bonds.
Id. at 409.
Title-based escheatment statutes do not raise the concerns identified by the Third
Circuit in Treasurer of New Jersey because once ownership transfers to a state, the state
is not the obligor on the bonds; it is their owner. And when the state takes title, the former
owners’ rights to payment from the federal government are extinguished. The
government therefore cannot be liable for double payment. Further, the state must follow
existing federal regulations to redeem the bonds. Thus, as the Third Circuit recognized,
its holding “does not nullify state escheat laws for, as provided in the federal regulations
and as recognized by the Treasury, third parties, including the States, may obtain
ownership of the bonds—and consequently the right to redemption—through ‘valid[]
judicial proceedings.’”19 Id. at 412–13 (quoting 31 C.F.R. § 315.20(b) (alteration in
original)).
19

In Treasurer of New Jersey, the Third Circuit explicitly observed that “in concluding
that the State custody-based unclaimed property acts are preempted we are
distinguishing, as does the Government itself, those acts from title-based acts.” 684 F.3d
at 413 n.28. It stated, however, that it did not wish to “imply that our result would be

29

52a
In short, the federal government’s argument that the Arkansas law is preempted
because it conflicts with or presents an obstacle to federal law is without merit. The Court
now turns to its related argument that the Arkansas law is inconsistent with principles of
intergovernmental immunity.
C.

Whether the State Statute Violates Principles of Intergovernmental
Immunity

Under the principle of intergovernmental immunity, states may not “directly
regulate the federal government’s operations or property.” Id. at 410 (citing Arizona v.
Bowsher, 935 F.2d 332, 334 (D.C. Cir. 1991)); see also Hancock v. Train, 426 U.S. 167,
178–80 (1976); McCulloch v. Maryland, 17 U.S. (4 Wheat.) 316, 426–27 (1819). In other
words, states may not “regulate the [federal] [g]overnment directly.” North Dakota v.
United States, 495 U.S. 423, 434 (1990) (plurality opinion); see also United States v. City
of Arcata, 629 F.3d 986, 991 (9th Cir. 2010) (invalidating local ordinances prohibiting
military recruiters from contacting teenagers because the ordinances “s[ought] to directly
regulate the conduct of agents of the federal government”).
Treasury argues that Arkansas’s unclaimed property law directly regulates the
federal government because that law seeks to “compel payment of unredeemed bond
proceeds from the Federal Treasury based on [a] state imposed deadline[] for registered
owners to redeem their bonds.” Def.’s Mot. at 15. According to the government, “Kansas
would then be able to use money now in the Federal Treasury to fund its own state
programs and operations.” Id.
This argument lacks merit for many of the reasons articulated above. First, it is
incompatible with Treasury’s decision in the related LaTurner litigation to redeem the
bonds the State of Kansas had in its possession, which Kansas had obtained via an
essentially identical title-based escheat regime. Second, nothing in Arkansas’s law
requires the government to pay funds to Arkansas on terms set by Arkansas. Rather,
Arkansas seeks payment pursuant to Treasury’s own regulations—i.e., by obtaining title
to the bonds via judicial proceedings under 31 C.F.R. § 315.20(b) and then seeking
redemption as the owner of the bonds.
Treasury’s reliance on Treasurer of New Jersey and Bowsher is thus unavailing.
In the Treasurer of New Jersey litigation, the states acknowledged that they did not own
the bonds they wanted to redeem and framed their claim as an APA claim seeking relief
other than monetary damages. See McCormac v. U.S. Dep’t of Treasury, 185 F. App’x
different” in the event that (1) the government was “confronted with a judgment of
escheat under a title-based escheat act,” and (2) Treasury “abandoned its long held
position as reflected in the Escheat Decision and refused to recognize the enforceability
of the judgment with respect to savings bonds or their proceeds.” Id. Thus, the Third
Circuit recognized that so long as Treasury’s regulations require Treasury to recognize
state claims of ownership based on title-based escheatment statutes (which the Court has
concluded the former regulations did), such statutes are not pre-empted by federal law.

30

53a
954, 956 (Fed. Cir. 2006) (concluding that it would be improper to transfer the Treasurer
of New Jersey litigation to the Court of Federal Claims and observing that “the States
neither assert[ed] that they currently ha[d] title to the bonds, nor s[ought] transfer of title
to the bonds”). Bowsher similarly involved states seeking only custody over funds in the
government’s hands. See 935 F.2d at 334 (observing that states seeking custody over
funds in a federal unclaimed property fund “claim[ed] no escheat,” but rather “s[ought]
only temporary custody over the money until the rightful owners appear with valid
claims”).
Indeed, the court in Bowsher seemingly anticipated a situation like this one,
noting that “escheat of the claimant’s right might well substitute the state for the claimant
and entitle it to payment.” See id. at 335. In such a case, the court cautioned, the
substitution would need to occur in a manner “consistent” with the relevant statutes. See
id. As described above, Treasury has long acknowledged that transfers pursuant to titlebased escheat proceedings are consistent with its regulations, leaving open the possibility
that Arkansas might be substituted for the original owners of the absent bonds pursuant to
such proceedings. Bowsher thus does not support Treasury’s intergovernmental immunity
argument.
In sum, because under Treasury’s regulations, the operation of Arkansas’s
Unclaimed Property Act grants Arkansas title over the savings bonds at issue, the Act
does not directly regulate the federal government’s operations or property. The principle
of intergovernmental immunity therefore does not invalidate Arkansas’s unclaimed
property law.
D.

Whether the State Proceedings Were Invalid Because They Did Not
Comport with the Due Process Clause

The government’s final contention is that the state court proceedings did not
effect a valid transfer of ownership because those proceedings did not comport with the
due process requirements of the Fourteenth Amendment. Def.’s Mot. at 17–19; Def.’s
Reply at 16–18. First, it argues that the judgment was defective because the “state court
did not identify a constitutional basis for exercising in rem jurisdiction over the Absent
Bonds.” Def.’s Mot. at 17; see also Def.’s Reply at 17–18. Second, it claims that “the
state court failed to give the owners of the Absent Bonds constitutionally adequate notice
of the escheat proceeding.” Def.’s Mot. at 18; see also Def.’s Reply at 16–17. Both
arguments lack merit.
Regarding the first issue, as Arkansas correctly observes, savings bonds are a
form of intangible property. See Pl.’s Mot. at 6, 13. As the Supreme Court has observed,
“intangible property, such as a debt which a person is entitled to collect, is not physical
matter which can be located on a map.” Texas, 379 U.S. at 677; see also Hanson v.
Denckla, 357 U.S. 235, 246–47 (1958) (noting, with respect to in rem jurisdiction, that
“the situs of intangibles is often a matter of controversy” and that “[i]n considering
restrictions on the power to tax, th[e] Court has concluded that jurisdiction over
intangible property is not limited to a single State” (quotation, citations, and footnote
omitted)); Mullane v. Cent. Hanover Bank & Trust Co., 339 U.S. 306, 312 (1950)
31

54a
(observing that “[t]he legal recognition and rise in economic importance of incorporeal or
intangible forms of property have upset the ancient simplicity of property law and the
clarity of its distinctions” between in rem and in personam proceedings).
Further, in Texas, the Supreme Court held in a similar context that when in rem
escheat proceedings involve intangible property that may be subject to several states’
unclaimed property regimes, “the right and power to escheat the debt should be accorded
to the State of the creditor’s last known address as shown by the debtor’s books and
records.” 379 U.S. at 680–81. According to the Court, this “clear rule” would “govern all
types of intangible obligations.” Id. at 678. The Court stated that the virtues of this rule
include that it involves only “a factual issue [that is] simple and easy to resolve”; that it
“recognizes that the debt was an asset of the creditor”; and that it “tend[s] to distribute
escheats among the States in the proportion of the commercial activities of their
residents.” Id. at 681. “It may well be that some addresses left by vanished creditors will
be in States other than those in which they lived at the time the obligation arose or at the
time of the escheat,” the Court continued, “[b]ut such situations probably will be the
exception, and any errors thus created, if indeed they could be called errors, probably will
tend to a large extent to cancel each other out.” Id.
Treasury offers no persuasive reason why the Texas rule ought not apply here. Its
observation that “the state court did not find that the Absent Bonds are in Arkansas” is of
no moment: because the bonds are intangible property, the inquiry turns on what the facts
reveal about the bondholders’ last known addresses. See Def.’s Mot. at 18. Treasury’s
concern that addresses in its records may “reveal[] nothing about the present location of
the bonds or their current owners” was addressed in Texas, as just described. See id. And
its protest that bonds may “pass by inheritance to persons other than the purchaser” who
live elsewhere is unavailing: under 31 C.F.R. § 315.70, surviving heirs may request
reissue or payment upon the bondholder’s death, obviating Treasury’s concern. See id.
There is also no merit to Treasury’s argument that Texas is distinguishable
because, unlike the property at issue in that case, U.S. savings bonds are “a form of
property created under Federal laws that establish the registered owners’ right to redeem
them at any time and the United States’ expectation that the physical bond be presented
for payment in all but exceptional cases.” Def.’s Reply at 17. This contention, like
Treasury’s preemption argument, cannot be reconciled with the governing regulations,
which provide for transfers of ownership that displace the original registered owners’
expectations regarding redemption.
Treasury’s argument as to the constitutional adequacy of the notice Arkansas
provided to the absent bondholders is also inconsistent with Supreme Court precedent. In
Mullane, the Court held that to comport with the Due Process clause, notice must be
“reasonably calculated, under all the circumstances, to apprise interested parties of the
pendency of the action and afford them an opportunity to present their objections.” 339
U.S. at 314. Whether this standard has been met depends on “the practicalities and
peculiarities” of the individual case. Id. And, as Mullane shows, the Due Process Clause
allows for the disposition of property interests where, as here, notice by publication is the
only practical option.
32

55a
Thus, in Mullane, a state law allowing for common administration of small trusts
permitted the administrator from time to time to seek judicial settlement of claims arising
against the trustee. Id. at 307–09. Regarding notice, the law required only that the
administrator publish notice of the settlement proceedings in a local newspaper for four
consecutive weeks. Id. at 309–10.
In assessing the adequacy of this procedure under the Due Process Clause, the
Court divided the trust’s beneficiaries into two categories: beneficiaries “whose interests
or whereabouts could not with due diligence be ascertained,” and “known present
beneficiaries of known place of residence.” Id. at 317–18. The Court held that notice by
publication satisfied the Due Process Clause with respect to the first category of
beneficiaries. Id. Acknowledging that “publication alone” was hardly a “reliable means
of acquainting interested parties of the fact that their rights are before the courts,” id. at
315, the Court nevertheless concluded that it was “not in the typical case much more
likely to fail than any of the choices open to legislators endeavoring to prescribe the best
notice practicable,” id. at 317.
In contrast, “[a]s to [the] known present beneficiaries of known place of
residence,” notice by publication did not suffice. Id. at 318 (observing that “[e]xceptions
in the name of necessity do not sweep away the rule that within the limits of practicability
notice must be such as is reasonably calculated to reach interested parties” and that
“[w]here the names and . . . addresses of those affected by a proceeding are at hand, the
reasons disappear for resort to means less likely than the mails to apprise them of its
pendency.”).
According to the Court, “[i]t [was] not an accident that the greater number of
cases reaching th[e] Court on the question of adequacy of notice have been concerned
with actions founded on process constructively served through local newspapers.” Id. at
315. Among these were several cases involving state unclaimed property regimes and
their treatment of languishing bank deposits. See Anderson Nat’l Bank v. Luckett, 321
U.S. 233 (1944); Sec. Sav. Bank v. California, 263 U.S. 282 (1923). As most relevant
here, the Court in Luckett held that, in addition to the notice afforded by publication,
“[t]he [unclaimed property] statute itself is notice to all depositors of banks within the
state[] of the conditions on which the balances of inactive accounts will be deemed
presumptively abandoned, and their surrender to the state compelled.” 321 U.S. at 243.
Further, the Court cautioned, “[a]ll persons having property located within a state and
subject to its dominion must take note of its statutes affecting the control or disposition of
such property and of the procedure which they set up for those purposes.” Id.
Here, as in Mullane, Arkansas would have been unable to discover individualized
information about the absent bondholders through the exercise of reasonable diligence
because Treasury’s regulations prohibited the disclosure of any identifying information
about the original owners.20 Further, as in Luckett, the 2015 amendment to Arkansas’s
20

Indeed, in the related litigation, Treasury rejected the State of Kansas’s attempts to
obtain information about the original bondowners. See Pl.’s Cross-Mot. for Partial

33

56a
unclaimed property law (as well as Treasury’s regulations and its decades-long position
regarding states’ rights to secure title to federal savings bonds pursuant to valid judicial
proceedings) provided some notice of the possibility that bonds might escheat in the
future. Accordingly, considering the “practicalities and peculiarities” of this case, the
Court concludes that Arkansas supplied constitutionally adequate notice of the state court
proceedings to the absent bondholders.
In summary, the Court concludes that the state court did not violate the Due
Process Clause when it asserted in rem jurisdiction over the absent bonds, and that
Arkansas’s efforts to notify the absent bondholders of the proceeding via publication
passed constitutional muster. Accordingly, for the reasons discussed above, the Court
rejects the government’s argument that the state court escheatment proceedings were not
valid judicial proceedings within the meaning of 31 C.F.R. § 315.20(b).
E.

Arkansas’s Fifth Amendment Takings Claim

As noted above, in Count III of its complaint, Arkansas alleged that Treasury’s
failure to redeem the absent bonds amounted to a taking of its property without just
compensation. See Compl. ¶¶ 77–84. In its ruling on the government’s motion to dismiss,
the Court denied the government’s motion with respect to the takings claim because,
under Federal Circuit precedent, a plaintiff may “alleg[e] in the same complaint two
alternative theories for recovery against the Government . . . one for breach of contract
and one for a taking under the Fifth Amendment to the Constitution.” See Estes, 123 Fed.
Cl. at 91 (quoting Stockton E. Water Dist. v. United States, 583 F.3d 1344, 1368 (Fed.
Cir. 2009)). In Stockton East, the Federal Circuit also observed that “[i]t has long been
the policy of the courts to decide cases on non-constitutional grounds when that is
available, rather than reach out for the constitutional issue.” 583 F.3d at 1368. For that
reason, “when a case arises in which both a contract and a taking cause of action are pled,
the trial court may properly defer the taking issue . . . in favor of first addressing the
contract issue.” Id. “[O]f course,” the Federal Circuit continued, “when a plaintiff is
awarded recovery for the alleged wrong under one theory, there is no reason to address
the other theories.” Id.
Here, the Court has determined that Arkansas has succeeded to title over the
bonds but it has not yet “awarded recovery” to Arkansas on its breach-of-contract claims.

Summ. J. & Br. in Opp’n to Def.’s Mot. for Summ. J. at A208–09, LaTurner, No. 131011 (denying FOIA request); id. at A345–47 (same); id. at A355 (denying FOIA
appeal). Notably, Treasury did not deny that such bondholders existed; instead, it stated
that it withheld the requested records because, in Treasury’s view, they were FOIAexempt. See id. at A347.

34

57a
Accordingly, the Court will defer ruling on the parties’ cross-motions for summary
judgment as to Arkansas’s takings claim pending further proceedings in the case.21
CONCLUSION
For the reasons discussed above, the Court concludes that Arkansas is the lawful
owner of the absent bonds pursuant to 31 C.F.R. § 315.20(b). As such, it is entitled to
receive from the government the information necessary to allow it to make a request to
redeem the bonds. Accordingly, Plaintiff’s motion for partial summary judgment as to
liability is GRANTED as to Counts I and II of its complaint. The government’s motion
for summary judgment is DENIED.
The parties shall file a joint status report by August 21, 2017 suggesting further
proceedings in this case.
IT IS SO ORDERED.

s/ Elaine D. Kaplan
ELAINE D. KAPLAN
Judge

21

For the same reason, the Court also defers ruling on the Arkansas’s illegal exaction
claim.

35

58a

In the United States Court of Federal Claims
No. 16-43C
(Filed: December 1, 2017)

ANDREA LEA, Auditor of the State of
Arkansas,
Plaintiff,
v.
THE UNITED STATES OF AMERICA,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)

Keywords: 28 U.S.C. § 1292(d)(2);
Interlocutory Appeal; Stay Pending
Appeal.

David H. Thompson, Cooper & Kirk, PLLC, Washington, DC, for Plaintiff. Peter A.
Patterson and John D. Ohlendorf, Cooper & Kirk, PLLC, and Joseph H. Meltzer and
Melissa L. Troutner, Kessler Topaz Meltzer & Check LLP, Radnor, PA, Of Counsel.
Eric P. Bruskin, Senior Trial Counsel, Civil Division, U.S. Department of Justice,
Washington, DC, with whom were Steven J. Gillingham, Assistant Director, Robert E.
Kirschman, Jr., Director, and Chad A. Readler, Principal Deputy Assistant Attorney
General, for Defendant. Theodore C. Simms, II, Attorney-Advisor, U.S. Department of
the Treasury, and Albert S. Iarossi, Trial Attorney, Commercial Litigation Branch, Civil
Division, U.S. Department of Justice, Of Counsel.
OPINION AND ORDER
KAPLAN, Judge.
On August 8, 2017, this Court issued an Opinion and Order (Order) granting the
motion for partial summary judgment filed by Plaintiff Andrea Lea, Auditor of the State
of Arkansas (Arkansas). See Lea v. United States, 132 Fed. Cl. 705 (2017). The Court
ruled that under the Department of Treasury’s regulations, Arkansas is the rightful owner
of certain U.S. savings bonds that it does not possess but to which it asserted title
pursuant to a state court judgment of escheat issued under the authority of the state’s
unclaimed property law. See Lea, 132 Fed. Cl. at 724. The federal government has now
filed a motion under 28 U.S.C. § 1292(d)(2) to certify this Court’s Order for interlocutory
appeal and to stay proceedings pending appeal. See Def.’s Mot. to Certify the Court’s
Order of Aug. 8, 2017 for Interlocutory Appeal and to Stay Proceedings Pending Appeal
(Def.’s Mot.), ECF No. 32.
For the reasons set forth below, the Court agrees that its August 8, 2017 opinion
involves “a controlling question of law . . . with respect to which there is a substantial

59a
ground for difference of opinion and that an immediate appeal . . . may materially
advance the ultimate termination of the litigation.” See 28 U.S.C. § 1292(d)(2).
Accordingly, the motion to certify is GRANTED. In addition, the government’s motion
to stay proceedings pending appeal is also GRANTED.
DISCUSSION
I.

The Motion to Certify
Section 1292(d)(2) of Title 28 provides, in pertinent part, as follows:
[W]hen any judge of the United States Court of Federal
Claims, in issuing an interlocutory order, includes in the
order a statement that a controlling question of law is
involved with respect to which there is a substantial ground
for difference of opinion and that an immediate appeal from
that order may materially advance the ultimate termination
of the litigation, the United States Court of Appeals for the
Federal Circuit may, in its discretion, permit an appeal to be
taken from such order, if application is made to that Court
within ten days after the entry of such order.1

Thus, to certify an interlocutory appeal of its order, the Court must find that the order
(1) “involves a controlling question of law,” (2) “as to which there is substantial ground
for difference of opinion,” and (3) “that an immediate appeal may materially advance the
ultimate termination of the litigation.” As the Wright and Miller treatise observes, “[t]he
three factors should be viewed together as the statutory language equivalent of a direction
to consider the probable gains and losses of immediate appeal.” 16 Charles Alan Wright
et al., Fed. Prac. & Proc. Juris. § 3930 (3d ed. Apr. 2017 Update) (footnote omitted).
The Court finds that its Order involves a “controlling question of law.” Thus, the
federal government’s liability in this case turns largely on the proper interpretation of a
Treasury Department regulation that was in effect at the time Arkansas requested
redemption of the bonds at issue. That regulation—31 C.F.R. § 315.20(b) (2012)—then
provided that Treasury “will recognize a claim against an owner of a savings bond . . . if

1

The language of section 1292(d)(2) “is virtually identical to 28 U.S.C. § 1292(b) . . .
which governs interlocutory review by other courts of appeals.” United States v.
Connolly, 716 F.2d 882, 883 n.1 (Fed. Cir. 1983) (en banc). “Because the operative
language is identical, the legislative history and case law governing the interpretation of
section 1292(b) is persuasive in reviewing motions for interlocutory appeal under section
1292(d)(2).” Abbey v. United States, 89 Fed. Cl. 425, 429 (2009) (citation omitted).

2

60a
established by valid, judicial proceedings, but only as specifically provided in this
subpart.”2
As described in Lea (and in its ruling on the government’s motion to dismiss in
LaTurner), the Court held that the state-law proceedings that purported to vest Arkansas
with title to the savings bonds at issue, which had been deemed abandoned under state
law, were “valid judicial proceedings” within the meaning of the regulation, and that
Arkansas was therefore the owner of those bonds. In so holding, the Court rejected the
federal government’s interpretation of the Treasury regulations (which it found
inconsistent with both the language of the regulations and the position that Treasury had
previously taken regarding the effect of a state court judgment of escheat on bond
ownership). It also rejected the federal government’s contentions: 1) that Arkansas’s
unclaimed property law was preempted by federal law; 2) that the state court judgment
was invalid under the doctrine of intergovernmental immunity; and 3) that the state court
judicial proceedings violated the due process rights of the former owners of the absent
bonds. Further, the Court rejected as premature the federal government’s argument that
even assuming that Arkansas owned the bonds pursuant to the state court escheat
proceedings, Treasury regulations precluded it from recovering the proceeds of bonds
that were not in the state’s possession.
The issues the Court decided in granting-in-part Arkansas’s motion for partial
summary judgment were purely legal ones. The legal issues were “controlling”
because—if the Court had agreed with the federal government’s position—then the result
would have been judgment as a matter of law in favor of the government. Instead, the
Court has concluded that title to the absent bonds lies with Arkansas, which may entitle it
to an award of damages given Treasury’s refusal to grant Arkansas’s request to redeem
the bonds.
The Court reached its decision after careful consideration of the legal issues
presented and the parties’ arguments, and is convinced that its decision is correct.
Nonetheless, the questions of regulatory interpretation presented in this case involve
2

On July 1, 2015 (while the government’s motion to dismiss in the related case of
LaTurner v. United States was pending, see 133 Fed. Cl. 47, 63–64 (2017)), Treasury
issued a Notice of Proposed Rulemaking in which it proposed revising its savings bond
regulations to expressly address state court judgments of escheat pursuant to title-based
unclaimed property laws. See Regulations Governing U.S. Savings Bonds, 80 Fed. Reg.
37,559-01 (July 1, 2015). After a period of notice and comment, Treasury issued the final
revised regulations on December 24, 2015. Regulations Governing U.S. Savings Bonds,
80 Fed. Reg. 80,258-01 (Dec. 24, 2015). As relevant to the issue presented in this case,
the revised rule amended 31 C.F.R. § 315.20(b) to add a sentence stating that “[e]scheat
proceedings will not be recognized under this subpart.” Id. at 80,264. It also added a new
provision, § 315.88, which stated that Treasury “may, in its discretion, recognize an
escheat judgment that purports to vest a State with title to a definitive savings bond that
has reached the final extended maturity date” but only if the bond “is in the State’s
possession.” Id.

3

61a
issues of first impression. Moreover, the Department of Treasury recently engaged in a
formal rulemaking process in which it promoted an interpretation of its former
regulations that is at odds with the Court’s views. See 80 Fed. Reg. at 80,258–60.
In addition, in Estes v. United States Department of the Treasury, 219 F. Supp. 3d
17 (D.D.C. 2016), Judge Cooper—albeit in another context—took a somewhat different
view of the Department of Treasury’s previous pronouncements regarding whether
Treasury would recognize state claims of bond ownership based on state court escheat
judgments. This Court concluded that for more than sixty years, the Department of
Treasury had advised inquiring states, the public, and the federal courts (including the
Supreme Court) that it would recognize claims of ownership that were based on
judgments pursuant to title-based escheatment statutes like Arkansas’s. Judge Cooper
found it less clear than did this Court that Treasury’s prior statements governing the
recognition of state ownership claims applied when the state did not have the bonds in its
possession. See Estes v. U.S. Dep’t of the Treasury, 219 F. Supp. 3d at 28–30. Given that
this Court relied at least in part on the Department of Treasury’s historical interpretation
of its regulations, Judge Cooper’s perspective provides another basis for the Court to
conclude that there exist grounds for a difference of opinion regarding this Court’s
opinion on this controlling legal issue.3
Finally, the Court is of the view that an immediate appeal of its disposition of
these legal issues “may materially advance the ultimate termination of the litigation.” The
parties differ in their view of the time and expense of the discovery that will be required
to resolve the remaining issues in this case. The government claims that in order to
comply with its discovery obligations, Treasury will be required to search “approximately
3.8 billion savings bond records, at an estimated cost exceeding $100 million and a level
of effort exceeding 2000 years of employee time.” See Def.’s Mot. App. at 2, ECF No.
32-1 (Declaration of Michael J. McDougle) (emphasis in original). Arkansas, on the other
hand, argues that “it is difficult to believe that the technology does not exist to make
Treasury’s records electronically text-searchable.” Pl.’s Resp. in Opp’n to Def.’s Mot. to
Certify an Interlocutory Appeal and to Stay Proceedings Pending Appeal (Pl.’s Opp’n) at
13, ECF No. 35.
As Wright and Miller observe, “[t]he advantages of immediate appeal increase”
with, among other conditions “the length of the district court proceedings saved by
reversal of an erroneous ruling, and the substantiality of the burdens imposed on the
3

The federal government contends that this Court decided a controlling question of law
by supposedly “suggest[ing] that Arkansas was entitled to receive the bond serial
numbers . . . pursuant to 31 C.F.R. §§ 1.5 and 323.2,” Treasury’s regulations
implementing the Freedom of Information Act (FOIA). Def.’s Mot. at 10–12. The Court
referenced those regulations only in summarizing Arkansas’s argument. See Lea, 132
Fed. Cl. at 720–21. It did not make any determination regarding Arkansas’s right to
secure such information under FOIA, which the federal government correctly points out
would be beyond this Court’s jurisdiction. See Def.’s Mot. at 11.

4

62a
parties by a wrong ruling.” Wright et al., supra, § 3930. Even if there exists technology
that the government could employ to reduce the burden, the Court does not doubt that
considerable effort and expense will be required to identify the absent bondholders whose
last known addresses were in Arkansas. Thus, at the present time, the savings bond
records are either contained on microfilm or have been digitized from microfilm but are
not readily searchable by address. Further, there are currently eight other cases in this
Court in which other states assert claims similar to those asserted by Arkansas.4 If the
Court’s decision is found erroneous by the court of appeals on interlocutory review, it
will save both the parties and the Court from bearing the burden of an enormous and
unnecessary expenditure of effort.
In fact, under the circumstances, it is clear to the Court that an immediate appeal
“may materially advance the ultimate termination of the litigation” even if the court of
appeals agrees with this Court’s reasoning and affirms its decision. Thus, the government
likely will remain reluctant to make the investments that will be needed to identify the
relevant former bond owners and to redeem the absent bonds to Arkansas (or the other
states) before the ownership issue has been finally adjudicated. The Court thus anticipates
that contentious and protracted discovery and damages phases lie ahead in this case if
they must proceed before an authoritative determination on the question. On the other
hand, the Court expects that if its ruling is upheld through subsequent appeals, the parties
may be able to work on a cooperative basis to resolve the practical and logistical
challenges of the remainder of the litigation.
II.

The Government’s Request for a Stay

Section 1292(d)(3) of Title 28 provides that “[n]either the application for nor the
granting of an appeal under this subsection shall stay proceedings in the . . . Court of
Federal Claims . . . unless a stay is ordered by a judge of the . . . Court of Federal Claims
or by the United States Court of Appeals for the Federal Circuit or a judge of that court.”
The government asks the Court to exercise its discretion to stay the proceedings in this
case pending appeal on the grounds that “further proceedings in this case would impose
massive burdens on Treasury and the taxpayer, jeopardize fragile bond records, and
invade the privacy rights of U.S. savings bond owners.” Def.’s Mot. at 12.
“[T]he power to stay proceedings is incidental to the power inherent in every
court to control the disposition of the causes on its docket with economy of time and
effort for itself, for counsel, and for litigants. How this can best be done calls for the
exercise of judgment, which must weigh competing interests and maintain an even
4

See LaTurner v. United States, No. 13-1011; Sattgast v. United States, No. 15-1364
(South Dakota); Kennedy v. United States, No. 15-1365 (Louisiana); (Arkansas); Ball v.
United States, No. 16-221 (Kentucky); Fitch v. United States, No. 16-231 (Mississippi);
Loftis v. United States, No. 16-451 (South Carolina); Zoeller v. United States, No. 16699 (Indiana); Atwater v. United States, No. 16-1482 (Florida). With the exception of
LaTurner, on which the Court ruled the same day that it ruled in the present case, the
Court has stayed the other cases pending disposition of the instant case.

5

63a
balance.” Air Line Pilots Ass’n v. Miller, 523 U.S. 866, 879 n.6 (1998) (quoting Landis
v. N. Am. Co., 299 U.S. 248, 254–55 (1936)) (alteration in original).
In this case, the Court concludes that a stay of proceedings is warranted for the
same reasons that it has decided to certify its decision for interlocutory appeal in the first
instance. As noted above, the burdens of discovery going forward (both in terms of effort
and expense) will undoubtedly be formidable given the state of Treasury’s savings bond
records for the years in question. On the other hand, the Court is not persuaded that
Arkansas would be materially prejudiced by a stay of proceedings during the pendency of
any appeal, despite its conclusory assertion that “[e]ach day that passes with the
Government refusing to cooperate in identifying Arkansas’s bonds causes [it] substantial
injury.” Pl.’s Resp. at 14. Accordingly, the government’s motion to stay the case is
GRANTED.
CONCLUSION
On the basis of the foregoing, the federal government’s Motion to Certify the
Court’s Order of August 8, 2017 for Interlocutory Appeal and to Stay Proceedings
Pending Appeal is GRANTED. The Court’s Opinion and Order of August 8, 2017 is
therefore AMENDED to include the following express finding:
The Court finds that this order involves a controlling
question of law with respect to which there is a substantial
ground for difference of opinion and that an immediate
appeal from the order may materially advance the ultimate
termination of the litigation.
Further, this case is STAYED pending the court of appeals’ disposition of any appeal.

IT IS SO ORDERED.

s/ Elaine D. Kaplan
ELAINE D. KAPLAN
Judge

6

64a

In the United States Court of Federal Claims
No. 13-1011C
Filed: August 20, 2015
RON ESTES, Treasurer of the State of
Kansas,
Plaintiff,
v.
THE UNITED STATES OF AMERICA,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)
)

RCFC 12(b)(1); RCFC 12(b)(6);
U.S. Savings Bonds; 31 C.F.R. § 315.20;
“Valid, Judicial Proceedings”; Title-Based
Escheat; Breach of Contract; Third-Party
Beneficiary; Fifth Amendment Taking

J. Brett Milbourn, Walters, Bender, Strohbehn & Vaughan, P.C., Kansas City,
KS, with whom was David Charles Frederick, Kellogg, Huber, et al.,
Washington, DC, for Plaintiff.
Kenneth David Woodrow, with whom were Stuart F. Delery, Assistant Attorney
General, Robert E. Kirschman, Jr., Director, and Steven Gillingham, Assistant
Director, Commercial Litigation Branch, Civil Division, United States
Department of Justice, Washington, DC, for Defendant. Theodore C. Simms, II,
Bureau of Fiscal Service, U.S. Department of Treasury, Washington, DC, Of
Counsel for Defendant.
OPINION AND ORDER
KAPLAN, Judge.
In this action, Plaintiff Ron Estes, Treasurer of the State of Kansas (“Kansas” or “the
State”), requests an award of damages equal to the matured value (plus interest) of all lost,
stolen, destroyed or otherwise abandoned U.S. savings bonds that are registered to individuals
with last known addresses in Kansas. According to Kansas, it has succeeded to ownership of
these bonds by virtue of a state court judgment in which title to the bonds escheated to the State
under the Kansas Disposition of Unclaimed Property Act, Kan. Stat. Ann. § 58-3979 (West
2000).
In its complaint, Kansas states its belief that the value of the abandoned bonds is in
excess of $151 million. It asserts a number of causes of action, including, among others, breach
of contract, equitable estoppel, and Fifth Amendment takings. Kansas also seeks an accounting

65a
of the benefits to which it claims entitlement, including serial numbers, addresses, and other
information that would identify those bonds registered with last known addresses in the State of
Kansas.
Before the Court is the government’s motion to dismiss for lack of jurisdiction under
Rule 12(b)(1) of the Rules of the Court of Federal Claims (“RCFC”) and for failure to state a
claim under RCFC 12(b)(6). For the reasons that follow, the government’s motion under Rule
12(b)(1) is DENIED. Its motion to dismiss pursuant to Rule 12(b)(6) is GRANTED IN PART
AND DENIED IN PART.
BACKGROUND
I.

The United States Savings Bond Program

Pursuant to its power “[t]o borrow money on the credit of the United States” under
Article I, section 8, clause 2 of the Constitution, Congress has delegated authority to the
Secretary of the Treasury (“the Secretary”), with the approval of the President, to issue savings
bonds, the proceeds of which may be used “for expenditures authorized by law.” 31 U.S.C. §
3105(a); Free v. Bland, 369 U.S. 663, 666-67 (1962). The statute gives the Secretary the
authority to prescribe regulations governing, among other things, the bonds’ investment yield,
maturity period, redemption, ownership and transfer. See § 3105(b)-(c). These regulations
appear in Title 31 of the Code of Federal Regulations, Parts 315, 353, and 360.1
Section 315.5 provides that the person to whom a bond is registered is the owner of the
bond. 31 C.F.R. § 315.5(a) (“Registration is conclusive of ownership.”). The regulations do not
impose any time limits for bond owners to redeem the savings bonds that are the subject matter
of this case. Therefore, owners can present them for payment at any time. See 31 U.S.C. §
3105(b)(2)(A) (authorizing the Secretary to promulgate regulations providing that “owners of
savings bonds may keep the bonds after maturity”). As of 1989, and at least up through 2012,
the Department of the Treasury (“Treasury”) was receiving claims of $7,000 to $10,000 a day for
payment on savings bonds that had matured many years earlier. Treasurer of N.J. v. U.S. Dep’t
of Treasury, 684 F.3d 382, 388 (3d Cir. 2012).2

1

Savings bonds are issued in various Series, designated by letters of the alphabet. Part 315 of
Title 31 of the Code of Federal Regulations governs Series A, B, C, D, E, F, G, H, J, and K. Part
353 governs Series EE and HH. Part 360 governs Series I. In general, the corresponding
sections of each part—e.g., §§ 315.5, 353.5, and 360.5—are identical. The bonds at issue in this
case are Series E, A-D, F, G, H, J, and K, and therefore are subject to Part 315. Compl. ¶ 44.
2

The relevant statutes and regulations do not contain provisions for locating owners of matured
but unredeemed bonds. In 2000, the Treasury Department created a “Treasury Hunt” website,
which provides information on matured but unredeemed Series E bonds issued after 1974 in a
database searchable by Social Security Number. Treasurer of N.J., 684 F.3d at 388-389.

2

66a
Section 315.15 provides that savings bonds are “not transferable and are payable only to
the owners named on the bonds, except as specifically provided in these regulations and then
only in the manner and to the extent so provided.” 31 C.F.R. § 315.15. This case concerns the
interpretation of the Secretary’s regulations governing the redemption of bonds by parties other
than their registered owner. In particular, 31 C.F.R. § 315.20(b) provides that:
The Department of the Treasury will recognize a claim against an owner of a
savings bond and conflicting claims of ownership of, or interest in, a bond between
coowners or between the registered owner and the beneficiary, if established by
valid, judicial proceedings, but only as specifically provided in this subpart.
Section 315.23 specifies the evidence required to establish the validity of the
judicial proceedings.
II.

States’ Unclaimed Property Statutes and Their Claims for Payment on Savings
Bonds

Historically, at least as early as the 1950s, states have sought to recover the proceeds
from matured but unredeemed savings bonds pursuant to their unclaimed property statutes.
Treasurer of N.J., 684 F.3d at 390. Most of these state statutes have been based on the Uniform
Unclaimed Property Act (“Uniform Act”). Id. at 389. Under the Uniform Act, a state may
acquire rights to abandoned property if the last known address of the apparent owner is in the
state.3 Uniform Unclaimed Property Act § 4 (1995), available at
http://www.uniformlaws.org/shared/docs/unclaimed%20property/uupa95.pdf.
The Uniform Act is rooted in the common-law doctrine of escheat, Treasurer of N.J., 684
F.3d at 389, under which “[s]tates as sovereigns may take custody of or assume title to
abandoned . . . property.” Delaware v. New York, 507 U.S. 490, 497 (1993).4 Under the
Uniform Act—and consequently, under many states’ unclaimed property acts—“the State does
not take title to unclaimed property, but takes custody only, and holds the property in perpetuity
for the owner.” Uniform Unclaimed Property Act prefatory note. As explained in greater detail
below, however, the Kansas statute at issue in this case, as amended in 2000, allows the State to
take title as well as custody to unclaimed U.S. savings bonds, based upon a state court judgment.
In 1952, Treasury issued Bulletin No. 111, setting forth its position with respect to “state
statutes purporting to vest abandoned property, including United States securities, in certain State
3

To register a savings bond, the owner completes a registration form, on which the owner
identifies his or her address at the time of registration. Treasury initially kept registration records
for Series E savings bonds on paper but later converted the paper records to microfiche.
Treasury is currently in the process of digitizing those records. Compl. ¶ 46.
4

“At common law, abandoned personal property was not the subject of escheat, but was subject
only to the right of appropriation by the sovereign as bona vacantia. [Supreme Court] opinions,
however, have understood ‘escheat’ as encompassing the appropriation of both real and personal
property. . . .” Delaware v. New York, 507 U.S. at 497 n. 9 (internal citations omitted).

3

67a
officers.” Pl.’s Resp. to Def.’s Mot. to Dismiss [hereinafter “Pl.’s Resp.”] App. 281. The
Bulletin reproduced a letter dated January 28, 1952 [hereinafter the “Escheat Decision”] from the
Secretary to the Comptroller of the State of New York. Pl.’s Resp. App. 281-84; Treasurer of
N.J., 684 F.3d at 390. In that letter, the Secretary explained that Treasury would pay the
proceeds of savings bonds to New York if it actually obtained title to the bonds based upon a
judgment of escheat, but it would not do so if the state merely acquired a right to take custody of
the proceeds. Pl.’s Resp. App. 283-84; Treasurer of N.J., 684 F.3d at 390. The Secretary
reasoned as follows:
“[p]ayment according to [the] explicit terms of [the] regulations is plainly an
obligation of the Government . . . . But even where no explicit reference is made
in the regulations to a particular case, the Department will pay one who succeeds
to the title of the bondholder. This is not regarded as a violation of the agreement,
but, on the contrary, as payment to the bondholder in the person of his successor or
representative. Thus, although the regulations do not mention such a case, the
Department recognizes the title of the state when it makes claim based upon a
judgment of escheat.
Id. App. 283.
More recently, Treasury articulated the same position in a page on its website entitled
“EE/E Savings Bonds FAQs.” Pl.’s Resp. App. 289-90 (providing a screenshot of the FAQs
page). Among a list of frequently asked questions, the page poses the following: “In a state that
has a permanent escheatment law, can the state claim the money represented by securities that
the state has in its possession[?] For example, can a state cash savings bonds that it’s gotten
from abandoned safe deposit boxes?” Pl.’s Resp. App. 290. Treasury’s answer mirrors the
position it stated in the Escheat Decision:
The Department of the Treasury will recognize claims by States for payment of
United States securities where the States have succeeded to the title and ownership
of the securities pursuant to valid escheat proceedings. The Department, however,
does not recognize claims for payment by a State acting merely as custodian of
unclaimed or abandoned securities and not as successor in title and ownership of
the securities.
Id.
Since promulgating its view distinguishing between custody- and title-based escheat
statutes, Treasury has cited it consistently to defeat claims for payment on unredeemed savings
bonds by states with custody-based unclaimed property statutes. See, e.g., Treasurer of N.J., 684
F.3d at 391 (noting the parties’ stipulation that Escheat Decision “‘is defendants’ interpretation
of federal savings bond regulations . . . and reflects defendants’ understanding of existing laws”
and that “the Department has no intention of deviating from the statement”). As recently as
April of 2013, the Solicitor General, opposing the State of Montana’s petition for certiorari
seeking review of the Third Circuit’s decision in Treasurer of New Jersey, observed that: (1) “the
Department [of Treasury] has long advised the States that to receive payment on a U.S. savings

4

68a
bond a State must complete an escheat proceeding that satisfies due process and that awards title
to the bond to the State, substituting the State for the original bondholder as the lawful owner”;
and (2) “given the regulatory prohibition on payment to anyone other than the lawful owner, the
Department has also made clear that it will not make payment to a State on a bond if a State does
not obtain title to the bond but instead merely seeks ‘custody’ of bond proceeds until the
bondholder redeems the bond.” Pl.’s Resp. App. 9.
III.

Kansas’s Unclaimed Property Act and Escheatment Proceedings

Prior to 2000, Kansas’s unclaimed property statute allowed the state to take custody of,
but not title to, such property. Pl.’s Resp. 14. In 2000, however, the Kansas legislature amended
the statute specifically to allow Kansas to take title to unclaimed U.S. savings bonds. Id. Thus,
the Kansas Disposition of Unclaimed Property Act now provides:
(a) . . . United States savings bonds which are unclaimed property5 . . . shall escheat
to the state of Kansas three years after becoming unclaimed property . . . and all
property rights to such United States savings bonds or proceeds from such
bonds shall vest solely in the state of Kansas.
(b) Within 180 days after the three years in subsection (a), if no claim has been
filed [with the administrator] . . . for such United States savings bonds, the
administrator shall commence a civil action in the district court of Shawnee
county for a determination that such United States savings bonds shall escheat
to the state. The administrator may postpone the bringing of such action until
sufficient United States savings bonds have accumulated in the administrators
[sic] custody to justify the expense of such proceedings.
(c) If no person shall file a claim or appear at the hearing to substantiate a claim or
where the court shall determine that a claimant is not entitled to the property
claimed by such claimant, then the court, if satisfied by evidence that the
administrator has substantially complied with the laws of this state, shall enter
a judgment that the subject United States savings bonds have escheated to the
state.
5

Under § 58-3935(c) of the Kansas Disposition of Unclaimed Property Act, “[p]roperty is
unclaimed if,”
for the applicable period set forth in subsection (a) [for the specific type of
property], the apparent owner has not communicated in writing or by other means
reflected in a contemporaneous record prepared by or on behalf of the holder, with
the holder concerning the property or the account in which the property is held, and
has not otherwise indicated an interest in the property. A communication by an
owner with a person other than the holder or the holder’s representative who has
not in writing identified the property to the owner is not an indication of interest in
the property by the owner.

5

69a

(d) The administrator shall redeem such United States savings bonds escheated to
the state and the proceeds from such redemption of United States savings bonds
shall be deposited in the state general fund . . . .
Kan. Stat. Ann. § 58-3979.
Pursuant to this statutory scheme, on January 3, 2013, Kansas filed a Petition for
Declaratory Judgment in the district court of Shawnee County, Kansas, requesting “a
determination that all right and legal title in, and ownership of, certain matured, unredeemed
United States savings bonds, which are unclaimed property under the Kansas Disposition of
Unclaimed Property Act, . . . shall escheat to the State of Kansas.” Pl.’s Resp. App. 87 (Petition
¶ 49). Of the bonds referenced in the petition, some were in the physical possession of the
Kansas Treasurer (“Bonds in Possession”), whereas others had been “lost, stolen, destroyed, or
otherwise made unavailable” and thus were not in the possession of the Kansas Treasurer
(“Absent Bonds”). Id. App. 88-89 (Petition ¶¶ 52-53). In Kansas’s estimation, the total matured
value of the Bonds in Possession is $876,836.18, and the total matured value of the Absent
Bonds is approximately $151.8 million. Id.
According to the petition, “extensive efforts were made to identify and verify accurate
addresses of bond owners and to the extent possible reunite [the Bonds in Possession] with their
owners,” but such efforts failed. Id. App. 88. To give notice of the proceedings to the owners
whose interests were implicated by them, the court authorized service by publication. Id. App.
157. On March 29, 2013, the court held a hearing on the petition, at which no bond owner
appeared. Id. App. 166 (Judgment of Escheatment 8). After reviewing the evidence, the court
entered a judgment of escheatment, in which it declared that all rights and legal title to, and
ownership of both the Bonds in Possession and the Absent Bonds, “shall escheat to the State of
Kansas.” Id. App. 167 (Judgment of Escheatment 9).
IV.

Requests by Kansas to Redeem the Bonds

On May 13, 2013, Kansas filed a claim with Treasury for redemption of the bonds now
owned, according to the Kansas court’s escheatment judgment, by the State. Id. App. 251-54.
On October 9, 2013, Treasury responded to Kansas’s request with respect to the Bonds in
Possession, informed Kansas of the redemption procedures, and noted that Treasury anticipated
“redeeming [the Bonds in Possession] in the normal course.” Id. App. 276-77. Kansas has since
delivered the Bonds in Possession to Treasury and received the proceeds. Compl. ¶ 82.
On October 16, 2013, however, Treasury denied Kansas’s claim with respect to the
Absent Bonds. Pl.’s Resp. App. 279-80. It explained that “under Treasury’s regulations,
Treasury is bound to its contract with the registered owners of these savings bonds, and would
violate that contract if it redeemed them to a third party.” Id. App. 279. Further, Treasury
observed, “[i]f the registered owner of one of the Absent Bonds were to present that bond,
Treasury would be obligated to redeem that bond.” Id. According to the letter, Treasury
regulations provided that in the absence of an exception or waiver, Treasury could only redeem a
savings bond to its registered owner. Id. It asserted that “[e]scheatment claims by states are not

6

70a
an explicit exception to the conclusive ownership requirements of 31 C.F.R. § 315.5(a).” Id.
Moreover, the Treasury letter explained, the exceptions to the ownership requirements of 31
C.F.R. § 315.5(a) set forth in § 315.5(b) for “rights established by valid, judicial proceedings”
include only ownership claims pursuant to a divorce decree (§ 315.22(a)) and claims based on
gifts causa mortis (§ 315.22(b)). Id. App. 279 n.5.
The letter stated that “[i]n the past, Treasury has interpreted its regulations to allow some
state escheatment claims, but only when the state possesses the savings bonds in its claim.” Id.
App. 279-80. Kansas could not redeem the Absent Bonds, the letter concluded, “because it is not
the registered owner of the bonds, nor does it possess them.” Id. App. 280.
V.

Kansas’s Claims in This Court

On December 20, 2013, Kansas filed this lawsuit. Its complaint consists of eight counts:
(1) breach of express contract; (2) breach of implied-in-fact contract; (3) breach of fiduciary
duties with respect to express contracts; (4) equitable estoppel; (5) third-party beneficiary
contract; (6) declaratory judgment; (7) Fifth Amendment taking of property for public use; and
(8) action for accounting. Compl. 22-38. For counts I, II, III, IV, V, and VII, Kansas seeks
“damages in an amount equal to the matured value, plus applicable interest, of [the Absent
Bonds]—believed to be in excess of $151,800,000,” as well as “the expense of this action” and
any “further relief that this Court deems just and equitable.” Compl. 24-25, 27-29, 31, 33, 36. In
addition, for Count VI, Kansas requests “that this Court enter an order declaring:”
that Defendants have no right, title, or interest to the Absent Bonds; that Defendant
has wrongfully asserted custody and/or ownership over Plaintiff’s Absent Bonds,
and failed to turn over to Plaintiff required and necessary information regarding the
Absent Bonds, namely serial numbers, addresses, and other information which
would identify those bonds with last known addresses in the State of Kansas; that
Plaintiff, having been awarded all right, title and interest in the Absent Bonds and
their proceeds by valid judicial escheat proceedings, should not be deprived of its
property and Defendant must therefore provide Plaintiff the information necessary
to identify those Absent Bonds registered with last known addresses in the State of
Kansas; that Defendant accept Plaintiff’s presentment and redemption of the
subject Absent Bonds; [and] that Plaintiff be awarded [the damages and costs
specified in Counts I, II, III, IV, V, and VII].
Compl. 35. Finally, for Count VIII, Kansas requests that this Court order the government to
“provide an accounting of the Absent Bonds, namely serial numbers, addresses, and other
information which would identify those bonds registered with last known addresses in the State
of Kansas, and [the] value of the Absent Bonds and their proceeds,” as well as “the expense of
this action” and any other relief. Compl. at 38.
VI.

The Government’s Motion to Dismiss

The government has moved to dismiss Kansas’s complaint. It contends that Kansas’s
contract claims, its equitable estoppel claim, and its declaratory judgment claim must be

7

71a
dismissed for lack of subject matter jurisdiction pursuant to RCFC 12(b)(1). Moreover, although
it does not dispute that Kansas’s takings claim falls within this Court’s Tucker Act jurisdiction,
the government contends that this claim must be dismissed for failure to state a claim upon
which relief can be granted pursuant to RCFC 12(b)(6).
The Court held oral argument on the government’s motion to dismiss on October 21,
2014. Subsequent to the argument, the Court requested and the parties filed two rounds of
supplemental briefs. Most recently, on June 30, 2015, the government submitted a Notice of
Proposed Rulemaking, to which Kansas has since responded.
For the reasons that follow, the Court concludes that it has jurisdiction over the claims
in the complaint. Therefore, the government’s motion to dismiss under Rule 12(b)(1) is
DENIED. The Court further finds that Kansas has stated claims on which relief can be granted
with respect to its allegations of breach of contract and a Fifth Amendment taking of property.
On the other hand, it finds that Kansas’s allegations do not support a claim for relief as a third
party beneficiary. Therefore, the government’s motion to dismiss pursuant to Rule 12(b)(6) is
GRANTED IN PART AND DENIED IN PART.
DISCUSSION
I.

Standards for Motions to Dismiss

In deciding a motion to dismiss for lack of subject matter jurisdiction, the court accepts as
true all undisputed facts in the pleadings and draws all reasonable inferences in favor of the
plaintiff. Trusted Integration, Inc. v. United States, 659 F.3d 1159, 1163 (Fed. Cir. 2011). The
court may “inquire into jurisdictional facts” to determine whether it has jurisdiction. Rocovich v.
United States, 933 F.2d 991, 993 (Fed. Cir. 1991). The burden of establishing jurisdiction is on
the plaintiff. Trusted Integration, 659 F.3d at 1163.
When considering a motion to dismiss for failure to state a claim under RCFC 12(b)(6),
the court “must accept all well-pleaded factual allegations as true and draw all reasonable
inferences in [the plaintiff’s] favor.” Boyle v. United States, 200 F.3d 1369, 1372 (Fed. Cir.
2000). The motion will be granted when the facts asserted by the plaintiff fail “to raise a right to
relief above the speculative level.” Am. Contractors Indem. Co. v. United States, 570 F.3d 1373,
1376 (Fed. Cir. 2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)). In other
words, plaintiff’s claim must be plausible on its face. Twombly, 550 U.S. at 570; Acceptance
Ins. Cos., Inc. v. United States, 583 F.3d 849, 853 (Fed. Cir. 2009). “A claim has facial
plausibility when the plaintiff pleads factual content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009) (citing Twombly, 550 U.S. at 556). “Conclusory allegations of law and
unwarranted inferences of fact do not,” however, “suffice to support a claim.” Bradley v. Chiron
Corp., 136 F.3d 1317, 1322 (Fed. Cir. 1998) (citations omitted).

8

72a
II.

Subject Matter Jurisdiction

The United States Court of Federal Claims is a court of limited jurisdiction that, pursuant
to the Tucker Act, may hear “any claim against the United States founded either upon the
Constitution, or any Act of Congress or any regulation of an executive department, or upon any
express or implied contract with the United States, or for liquidated or unliquidated damages in
cases not sounding in tort.” 28 U.S.C. § 1491(a)(1) (2012). In addition, the Tucker Act gives
this court limited jurisdiction to grant equitable and declaratory relief, but only when such relief
is “an incident of and collateral to” a money judgment. 28 U.S.C. § 1491(a)(2); Bobula v. U.S.
Dep’t of Justice, 970 F.2d 854, 859 (Fed. Cir. 1992).
A.

Contract-Based Claims6

It is well established that savings bonds are contracts between the United States and the
owners of the bonds and that the regulations prescribed by the Secretary constitute the contract
terms. Treasurer of N.J., 684 F.3d at 387 (citing Rotman v. United States, 31 Fed. Cl. 724, 725
(1994)). The government has nonetheless moved to dismiss Kansas’s complaint for lack of
subject matter jurisdiction, arguing that the escheatment proceedings in Kansas state court did
not effect a valid transfer of ownership under Treasury regulations with respect to the Absent
Bonds. See Def.’s Mot. to Dismiss 7-15. Because Kansas is not the owner of the Absent Bonds,
the government reasons, it is not party to the contracts that those bonds represent. Id. Therefore,
the government concludes, Kansas’s claims cannot be “founded . . . upon any express or implied
contract with the United States,” as required for this Court to exercise jurisdiction under the
Tucker Act, § 1491(a)(1). Def.’s Mot. to Dismiss 7-8.
In the Court’s view, the government’s argument—that Kansas was not a party to the
contract because under Treasury’s Regulations it was not the owner of the Absent Bonds—goes
to the merits of Kansas’s contract claims, not this Court’s jurisdiction over them. The Federal
Circuit has long held that a well-pleaded allegation that an express or an implied-in-fact contract
underlies the plaintiff’s claim suffices to confer subject matter jurisdiction in the Court of
Federal Claims. Trauma Serv. Grp. v. United States, 104 F.3d 1321, 1325 (Fed. Cir. 1997)
(citing Gould, Inc. v. United States, 67 F.3d 925, 929 (Fed. Cir. 1995)). See also Do-Well Mach.
Shop, Inc. v. United States, 870 F.2d 637, 639-40 (Fed. Cir. 1989) (“Jurisdiction, therefore, is
not defeated . . . by the possibility that the averments might fail to state a cause of action on
which petitioners could actually recover.” (quoting Bell v. Hood, 327 U.S. 678, 682 (1946)));
Moden v. United States, 404 F.3d 1335, 1340 (Fed. Cir. 2005) (“The forum has jurisdiction to
hear the matter in the first instance—that is, subject-matter jurisdiction existed—as long as the
petitioner asserted nonfrivolous claims” (quoting Spruill v. Merit Sys. Prot. Bd., 978 F.2d 679,
687-88 (Fed. Cir. 1992))). See also Oswalt v. United States, 41 F. App’x 471, 473 (Fed. Cir.
July 12, 2002) (observing that, “[b]ecause plaintiffs alleged contracts with the United States, and
resolution of the jurisdictional issue of privity of contract under the Tucker Act is intertwined
6

As the government did in its motion, the Court refers to the following four of Kansas’s claims
as its contract-based claims: breach of express contract; breach of implied-in-fact contract;
breach of fiduciary duties with respect to express contracts; and action for accounting.

9

73a
with the merits of [plaintiffs’] express and implied breach of contract claims,” the Court of
Federal Claims should not have dismissed for lack of jurisdiction and should have analyzed the
issue as one on the merits).
Here, Kansas’s complaint contains a well-pleaded allegation that there is a contract
between Kansas and the United States. This allegation, moreover, is not frivolous; indeed, as
explained below, Kansas’s allegations give rise to a plausible claim for relief. See Twombly,
550 U.S. at 556. Therefore, this Court has subject matter jurisdiction under the Tucker Act to
resolve Kansas’s contract claims.
B.

Third-Party Beneficiary Claim

In moving to dismiss Kansas’s third-party beneficiary claim for lack of jurisdiction, the
government argues that, as a matter of law, Kansas does not constitute a third-party beneficiary
of the savings bond contracts. Def.’s Mot. to Dismiss 16-17. The Court also views this question
as going to the merits of Kansas’s claim, and not the Court’s jurisdiction. Thus, the Court shall
address the government’s arguments with respect to Kansas’s third-party beneficiary claim, like
the government’s arguments with respect to Kansas’s contract claims, in connection with its
determination on the merits.
C.

Equitable Estoppel and Declaratory Judgment Claims

The government’s argument that the Court should dismiss Kansas’s equitable estoppel
and declaratory judgment claims proceeds as follows: per the Tucker Act, 28 U.S.C.
§ 1491(a)(2), this Court has jurisdiction over claims for equitable and declaratory relief only
when such claims are “an incident of and collateral to” a claim for money damages; the Court
must dismiss all of Kansas’s claims for money damages either for lack of jurisdiction or for
failure to state a claim upon which relief can be granted; thus, the Court also must dismiss
Kansas’s equitable estoppel and declaratory judgment claims for lack of jurisdiction. Def.’s
Mot. to Dismiss 19-20. The government’s argument for dismissal of Kansas’s equitable estoppel
and declaratory judgment claims, therefore, depends upon a dismissal of all of Kansas’s other
claims. As set forth below, the Court denies the government’s motion to dismiss as to Kansas’s
contract claims and its takings claim. Accordingly, Kansas’s claims for equitable estoppel and
declaratory judgment remain “an incident of and collateral to” claims for money damages, and
the government’s motion to dismiss them pursuant to Rule 12(b)(1) must be denied.
III.

Sufficiency of Kansas’s Claims Under RCFC 12(b)(6)
A.

Kansas’s Contract Claims
1.

The Parties’ Contentions

As the basis for its motion to dismiss Kansas’s contract claims, the government argues
that, under Treasury regulations—and therefore under the savings bond contracts—Treasury was
not required to recognize Kansas’s claims of ownership of the bonds based on the state

10

74a
escheatment proceedings. See Mot. to Dismiss 8, 11. Thus, the merits of the government’s
motion to dismiss for failure to state a claim hinge upon the meaning of the regulations.
The pertinent regulatory provisions are contained at Subpart E of 31 C.F.R. Part 315
(captioned “Limitations on Judicial Proceedings”). Entitled “General,” 31 C.F.R. § 315.20
states as follows:
The following general rules apply to the recognition of a judicial
determination on adverse claims affecting savings bonds:
(a) The Department of the Treasury will not recognize a judicial determination that
gives effect to an attempted voluntary transfer inter vivos of a bond, or a judicial
determination that impairs the rights of survivorship conferred by these regulations
upon a coowner or beneficiary. All provisions of this Subpart are subject to these
restrictions.
(b) The Department of the Treasury will recognize a claim against an owner of a
savings bond and conflicting claims of ownership of, or interest in, a bond between
coowners or between the registered owner and the beneficiary, if established by
valid, judicial proceedings, but only as specifically provided in this subpart. Section
315.23 specifies the evidence required to establish the validity of the judicial
proceedings.
(c) The Department of the Treasury and the agencies that issue, reissue, or redeem
savings bonds will not accept a notice of an adverse claim or notice of pending
judicial proceedings, nor undertake to protect the interests of a litigant not in
possession of a savings bond.
Kansas contends that its claim of ownership of the Absent Bonds pursuant to the state
court escheat judgment is one that 31 C.F.R. § 315.20(b) requires Treasury to recognize because
it is a “claim against an owner of a savings bond” that is “established by valid, judicial
proceedings.” Further, Kansas argues, its claim is one “established by valid, judicial proceedings
. . . as specifically provided” in Subpart E because the state court judgment satisfies the
requirements that 31 C.F.R. § 315.23 (entitled “Evidence”) sets forth for establishing the validity
of judicial proceedings. See Pl.’s Resp. 27-28; see also 31 C.F.R. § 315.23(a) (“To establish the
validity of judicial proceedings, certified copies of the final judgment, decree, or court order, and
of any necessary supplementary proceedings, must be submitted. If the judgment, decree, or
court order was rendered more than six months prior to the presentation of the bond, there must
also be submitted a certificate from the clerk of the court, under court seal, dated within six
months of the presentation of the bond, showing that the judgment, decree, or court order is in
full force.”).7
7

Subsections 315.23(b) and (c), which are not directly at issue in this case, set forth specific
requirements for the recognition of the validity of judicial proceedings in cases involving the
payment of the proceeds of a bond to a trustee in bankruptcy or receiver in equity, as follows:

11

75a
The government, on the other hand, argues that state court escheatment proceedings are
not among the “valid, judicial proceedings” to which section 315.20(b) refers. Def.’s Mot. 1213. It focuses on the phrase in that regulation stating that a claim of ownership may be
established by valid, judicial proceedings “only as specifically provided in this subpart.” Id. The
government does not deny that Kansas satisfied the evidentiary requirements set forth in 31
C.F.R. § 315.23 to establish the validity of the state court escheatment proceedings upon which
its claim of ownership is based. Rather, it argues that the regulatory phrase providing that
Treasury will recognize a claim of ownership established through valid, judicial proceedings
“but only as provided in this subpart” means that Treasury will only recognize the specific
categories of judgments that are referenced elsewhere in Subpart E—i.e., the judgments
referenced in § 315.21, entitled “[p]ayment to judgment creditors,”8 and those identified in §
315.22, entitled “[p]ayment or reissue pursuant to judgment.”9 According to the government,
(b) Trustee in bankruptcy or receiver of an insolvent’s estate. A request for
payment by a trustee in bankruptcy or a receiver of an insolvent’s estate must be
supported by appropriate evidence of appointment and qualification. The evidence
must be certified by the clerk of the court, under court seal, as being in full force
on a date that is not more than six months prior to the presentation of the bond.
(c) Receiver in equity or similar court officer. A request for payment by the
receiver in equity or a similar court officer, other than a receiver of an insolvent’s
estate, must be supported by a copy of an order that authorizes the presentation of
the bond for redemption, certified by the clerk of the court, under court seal, as
being in full force on a date that is not more than six months prior to the presentation
of the bond.
8

Section 315.21 states as follows:
(a) Purchaser or officer under levy. The Department of the Treasury will
pay (but not reissue) a savings bond to the purchaser at a sale under a levy or to the
officer authorized under appropriate process to levy upon property of the registered
owner or coowner to satisfy a money judgment. Payment will be made only to the
extent necessary to satisfy the money judgment. The amount paid is limited to the
redemption value 60 days after the termination of the judicial proceedings. Payment
of a bond registered in coownership form pursuant to a judgment or a levy against
only one coowner is limited to the extent of that coowner’s interest in the bond.
That interest must be established by an agreement between the coowners or by a
judgment, decree, or order of a court in a proceeding to which both coowners are
parties.
(b) Trustee in bankruptcy, receiver, or similar court officer. The Department
of the Treasury will pay, at current redemption value, a savings bond to a trustee in
bankruptcy, a receiver of an insolvent’s estate, a receiver in equity, or a similar
court officer under the provisions of paragraph (a) of this section.

9

Section 315.22 states as follows:

12

76a
“exceptions to § 315.5(a) [the rule stating that registration is conclusive of ownership] by judicial
proceedings include claims of ownership based on a divorce decree (§ 315.22(a)) and claims
based on a gift causa mortis (§ 315.22(b))” but not claims of ownership arising out of an
escheatment judgment because “escheatment actions are not one of the ‘valid judicial
proceedings’ recognized in the regulations.” Def.’s Mot. to Dismiss 12.
Thus, Kansas interprets the phrase “valid, judicial proceedings” in § 315.20(b) as a
catchall category, subject only to the exceptions identified in § 315.20(a) (for judicial
determinations that “give[] effect to an attempted voluntary transfer inter vivos of a bond,” or
that “impair[] the rights of survivorship conferred by [the] regulations upon a coowner or
beneficiary”). Its argument is that the phrase “as specifically provided in this subpart” in §
315.20(b) was not intended to limit the types of judicial proceedings that could confer bond
ownership rights but instead refers to the manner in which the validity of judicial proceedings
must be established. The government, on the other hand, asserts that the otherwise broad term
“valid, judicial proceedings” is narrowed by the “specifically provided” language, with the result

(a) Divorce. The Department of the Treasury will recognize a divorce
decree that ratifies or confirms a property settlement agreement disposing of bonds
or that otherwise settles the interests of the parties in a bond. Reissue of a savings
bond may be made to eliminate the name of one spouse as owner, coowner, or
beneficiary, or to substitute the name of one spouse for that of the other spouse as
owner, coowner, or beneficiary pursuant to the decree. However, if the bond is
registered in the name of one spouse with another person as coowner, there must
be submitted either:
(1) A request for reissue by the other person or
(2) A certified copy of a judgment, decree, or court order entered in
proceedings to which the other person and the spouse named on the bond
are parties, determining the extent of the interest of that spouse in the bond.
Reissue will be permitted only to the extent of that spouse’s interest. The
evidence required under § 315.23 must be submitted in every case. When
the divorce decree does not set out the terms of the property settlement
agreement, a certified copy of the agreement must be submitted. Payment,
rather than reissue, will be made if requested.
(b) Gift causa mortis. A savings bond belonging solely to one individual
will be paid or reissued at the request of the person found by a court to be entitled
by reason of a gift causa mortis from the sole owner.
(c) Date for determining rights. When payment or reissue under this section
is to be made, the rights of the parties will be those existing under the regulations
current at the time of the entry of the final judgment, decree, or court order.

13

77a
that only those claims of ownership that arise out of the types of judicial proceedings explicitly
referenced in Subpart E must be recognized.10
For the reasons set forth in greater detail below, the Court concludes that Kansas’s
reading of the regulatory text is the more persuasive one. By contrast, the government’s position
is inconsistent with the position that Treasury has articulated for over sixty years through
interpretive guidance, statements on its website, and positions taken in litigation as recently as
April of 2013, just one month before Kansas requested payment on the bonds in this case.
Accordingly, the Court concludes that Kansas has stated a claim for relief with respect to its
allegations of breach of contract.
2.

The Regulatory Text

To determine the meaning of the regulations, the Court begins with their text. See Chase
Bank USA, N.A. v. McCoy, 562 U.S. 195, 204 (2011). As noted, 31 C.F.R. § 315.20(b) states
that Treasury “will recognize a claim against an owner of a savings bond . . . if established by
valid, judicial proceedings, but only as specifically provided in this subpart.” Subsection (a) of
§ 315.20, in turn, identifies the specific judicial determinations that Treasury will not recognize
(those that give effect to “an attempted voluntary transfer inter vivos of a bond” and those that
“impair[] the rights of survivorship conferred by these regulations upon a coowner or
beneficiary”).
In the Court’s view, the best reading of the phrase “but only as specifically provided in
this subpart” is that it was intended to: (1) preclude the recognition of claims of ownership where
the evidentiary requirements set forth in Subpart E for establishing the validity of judicial
proceedings (§ 315.23) have not been met; and (2) reference the particular requirements,
limitations and/or conditions that Subpart E imposes on the redemption or reissuance of bonds in
the context of the particular types of judicial proceedings that are governed by §§ 315.21 and
315.22.
Thus, there are essentially two ways to read the phrase “but only as specifically provided
in this subpart.” Kansas argues that the word “as” in this context means “in the manner of.”
10

In its first supplemental brief, the government raised for the first time two new bases for
refusing to recognize ownership rights arising out of state court escheatment proceedings: (1)
that such proceedings do not involve a claim against the owner, coowner, or beneficiary of a
savings bond, as required under subsection 315.20(b), because an escheat judgment involves a
proceeding that is brought against the property itself (in rem), and (2) that “[t]o the extent that
Kansas claims title over savings bonds with a co-owner or beneficiary,” such a claim would be
inconsistent with the language of § 315.20(a) “because it would interfere with the rights of
survivorship conferred by Treasury regulations.” Def.’s 1st Supp. Br. 4-5. The Court addresses
these arguments in subsection 3 below, which concerns the apparent inconsistency of the
positions the government has taken both historically and in this matter concerning whether rights
of ownership based on title-based escheatment statutes must be recognized under Treasury’s
regulations.

14

78a
Pl.’s 1st Supp. Br. 12-13, Feb. 16, 2015, ECF No. 29. It contends that “used in the phrase ‘as
specifically provided’ the word ‘as’ describes the manner in which Treasury should determine
the validity of a judicial proceeding, not whether it will recognize a particular proceeding.” Id. at
13. On the other hand, under the government’s argument, the word “as” means “to the extent” or
“if”—i.e. that Treasury will recognize claims based on valid, judicial proceedings only to the
extent that, or if, such recognition is specifically provided for in Subpart E.
The problem with reading the word “as” in the manner the government would read it (to
mean “if”) is that the result would be a construction of the regulations that collides with the wellestablished canon of interpretation that holds that regulatory text should not be read in such a
way as to render any portion of the language superfluous. See Glover v. West, 185 F.3d 1328,
1332 (Fed. Cir. 1999) (“[W]e attempt to give full effect to all words contained within [a] statute
or regulation, thereby rendering superfluous as little of the statutory or regulatory language as
possible.”). For if the government is correct that only those categories of judgments specifically
referenced in §§ 315.21 and 315.22 are entitled to recognition, then the exceptions set forth in
subsection (a) of § 315.20 to the general rule recognizing claims established pursuant to valid,
judicial proceedings would be unnecessary.
Moreover, the government’s reading of the effect of §§ 315.21 and 315.22 (which posits
that those sections contain an exhaustive enumeration of the particular types of judicial
proceedings that can confer ownership rights) ignores what appears to be their actual purpose: to
address specific considerations and concerns attendant to the types of judgments referenced in
those sections. Thus, section 315.21(a) places limitations on the extent to which Treasury will
recognize claims of bond purchasers at a sale under levy or to an officer authorized to levy upon
the property of an owner to satisfy a money judgment, specifying, for example, that “[p]ayment
will be made only to the extent necessary to satisfy the money judgment” and that “[t]he amount
paid is limited to the redemption value 60 days after the termination of the judicial proceedings.”
And § 315.21(b) specifies that, in contrast, Treasury will pay the proceeds of the bond to a
trustee in bankruptcy, receiver in equity, or similar court officer “at current redemption value,”
but does not authorize the reissuance of the bonds in such circumstances.
Similarly, § 315.22(a) concerns recognition of a divorce decree ratifying a property
settlement that disposes of savings bonds or otherwise settles each spouse’s interest in such
bonds. It prescribes specific rules for the reissuance of a bond in that particular context. Section
315.22(a) also serves the purpose of clarifying that such a decree would not fall within the
language of § 315.20(a), which states that Treasury will not recognize a judicial determination
that gives effect to “an attempted voluntary transfer inter vivos of a bond.” And § 315.22(b)
specifies that Treasury will—upon request—either pay or reissue a savings bond to a person
found by a court to be entitled to such bond as the result of a gift causa mortis.
For these reasons, the Court concludes that Kansas’s reading of the scope of the phrase
“valid, judicial proceedings” contained in the regulations—which includes state court
escheatment proceedings whose validity is established in accordance with section 315.23—is
more persuasive than the government’s. The Court now turns to the question of whether,
notwithstanding this conclusion, it owes deference to Treasury’s interpretation of its regulations,

15

79a
as set forth in this litigation and in its October 2013 letter denying Kansas’s request for payment
on the Absent Bonds.
3.

Previous Administrative Interpretation of the Regulations

It is well established that an agency’s interpretation of its own regulations is “controlling
unless ‘plainly erroneous or inconsistent with the regulation.’” Auer v. Robbins, 519 U.S. 452,
461 (1997) (quoting Robertson v. Methow Valley Citizens Council, 490 U.S. 332, 359 (1989)
(quoting Bowles v. Seminole Rock & Sand Co., 325 U.S. 410, 414 (1945))). “[T]his general
rule,” however, “does not apply in all cases.” Christopher v. SmithKline Beecham Corp., 132 S.
Ct. 2156, 2166 (2012). Thus, deference is “unwarranted” where “there is reason to suspect that
the agency’s interpretation ‘does not reflect the agency’s fair and considered judgment on the
matter in question.’” Christopher, 132 S. Ct. at 2166 (quoting Auer, 519 U.S. at 462). The
Supreme Court has withheld deference on this basis, for instance, “when the agency’s
interpretation conflicts with a prior interpretation,” id. (citing Thomas Jefferson Univ. v. Shalala,
512 U.S. 504, 515 (1994)); “when it appears that the interpretation is nothing more than a
‘convenient litigating position,’” id. (quoting Bowen v. Georgetown Hosp., 488 U.S. 204, 213
(1988)); or when it appears that the interpretation is a “‘post hoc rationalizatio[n]’ advanced by
an agency seeking to defend past agency action against attack,” id (quoting Auer, 519 U.S. at
462).
Here, the Court does not believe that the government’s interpretation is “plainly
erroneous or inconsistent with the regulation.” Auer, 519 U.S. at 461. There are ample reasons
to find, however, that the interpretation being proffered in this case “does not reflect the agency’s
fair and considered judgment on the matter in question.’” Christopher, 132 S. Ct. at 2166.
Foremost among these is the fact that the government’s “interpretation conflicts with
[Treasury’s] prior interpretation” of its regulations. Id. (citing Thomas Jefferson Univ., 512 U.S.
at 515). Indeed, this conflict, in conjunction with other inconsistencies within the arguments the
government has made in this litigation, convinces the Court that the position being advanced in
this case is merely a post-hoc rationalization for Treasury’s decision not to honor the Kansas
state court judgment as to the Absent Bonds.
Thus, as described above, in the Escheat Decision, issued in 1952, Treasury rejected the
State of New York’s request to redeem bonds it held pursuant to its custodial escheatment
statute. The Secretary explained that the critical criterion for granting such a request by a state
was that it possess legitimate ownership of a bond. He noted that “even where no explicit
reference is made in the regulations to a particular case, the Department will pay one who
succeeds to the title of the bondholder” and that “[t]his is not regarded as a violation of the
agreement, but, on the contrary, as payment to the bondholder in the person of his successor or
representative.” Pl.’s Resp. App. 283 (emphasis in original). “Thus,” the Secretary observed,
“although the regulations do not mention such a case, the Department recognizes the title of the
state when it makes claim based upon a judgment of escheat.” Id.
Treasury reiterated this view in 1983, in a letter to the Secretary of Revenue of the State
of Kentucky. It stated that “[b]asically, the Department’s position is that claims by States for
payment of United States securities will be recognized only where the States have actually

16

80a
succeeded to the title and ownership of the securities pursuant to valid escheat proceedings.” Id.
App. 285.
This exact statement also had appeared on Treasury’s web site from 2000 until very
recently.11 Id. App. 290. Moreover, the government recently restated and relied on this position
and interpretation of its regulations in litigation, including in briefs filed with the Third Circuit
and the Supreme Court in which the government expressly characterized the position as
representing Treasury’s “considered interpretation of federal law.” See, e.g., id. App. 9.
In the Treasurer of New Jersey case, six states (New Jersey, Montana, Kentucky,
Oklahoma, Missouri, and Pennsylvania) sought payment on savings bonds pursuant to their
custody-based escheatment statutes. In that case, the government told both the Third Circuit and
the Supreme Court that title-based escheatment constitutes a “valid, judicial proceeding” within
the meaning of its regulations. Further, in explaining its position, it made no mention of the “as
specifically provided in this subpart” proviso or of its regulations at § 315.21 or § 315.22.
Thus, in its brief in the United States Court of Appeals for the Third Circuit, the
government observed that “Treasury regulations generally provide that payment on a U.S.
savings bond will be made only to the registered owner” but that “[t]he regulations specify
limited exceptions to this rule, including cases in which a third party obtains ownership of the
bond through valid judicial proceedings.” Brief for Appellees at 6, Treasurer of N.J. v. U.S.
Dep’t of Treasury, 684 F.3d 382 (3d Cir. 2012) (No. 10-1963), 2011 WL 6935510 (citing 31
C.F.R. §§ 315.20(b), 315.23, 353.20(b), 353.23). Significantly, it further explained that “[a]
State may satisfy this ownership requirement ‘through escheat, a procedure with ancient origins
whereby a sovereign may acquire title to abandoned property if after a number of years no
rightful owner appears.’” Id. (emphasis added) (quoting Texas v. New Jersey, 379 U.S. 674,675
(1965)). The Third Circuit agreed with Treasury and ruled against the states, explaining that this
“result does not nullify state escheat laws for, as provided in the federal regulations and as
recognized by the Treasury, third parties, including the States, may obtain ownership of the
bonds—and consequently the right to redemption—through “valid[ ] judicial proceedings.”
Treasurer of N.J., 684 F.3d at 412 (citing 31 C.F.R. § 315.20(b)).
The states then filed a petition for certiorari in the case. Then, as described above, the
government’s brief in opposition citing only 31 C.F.R. §§ 315.20(b), 315.23, and 353.23 (and not
mentioning § 315.21 or § 315.22 at all) explained that it “has long advised the States that to
receive payment on a U.S. savings bond a State must complete an escheat proceeding that
satisfies due process and that awards title to the bond to the State,” and that this “represents the
Department’s considered interpretation of federal law.” Pl.’s Resp. App. 9 (Brief for the

11

The statement appeared on Treasury’s EE/E Savings Bonds FAQs web page, a screen shot of
which appears at Pl.’s Resp. App. 289-90. At some point during this litigation, however,
Treasury revised this page, and it now omits any mention of escheatment. See
https://www.treasurydirect.gov/indiv/research/indepth/ebonds/res_e_bonds_eefaq.htm (last
visited Aug. 20, 2015).

17

81a
Respondents in Opposition, Dir. of Dep’t of Revenue of Montana v. U.S. Dep’t of Treasury, cert.
denied, 133 S. Ct. 2735 (2013)).
Despite these unambiguous statements, Treasury claims that it never actually took the
position that its regulations required it to recognize claims of ownership pursuant to an escheat
judgment. See, e.g., Def.’s Reply 5 (calling the argument that Treasury had stated many times in
the past that it would recognize title-based escheatment judgments a “misapprehension of
Treasury’s past statements”). It attempts to reconcile its position in this litigation with its past
statements on the grounds that because those statements “were made in the context of states
claiming title for bonds in their possession,” they “pertain[ed] only to the effect of state
escheatment laws on bonds the state has in its possession.” Def.’s Mot. 13 (emphasis in
original).
This contention is unpersuasive. First, as Kansas points out, the first paragraph in the
Second Amended Complaint in the Treasurer of New Jersey case clearly states that the
unclaimed bonds at issue in that matter were “in the hands of missing owners” and not the states.
Pl.’s 1st Supp. Br. Add. 2. Second, and in any event, even though Treasury had proffered its
interpretation of its regulations in the context of cases in which States were seeking redemption
of bonds in their possession, the rationale Treasury offered for its position—that under the
regulations, “to receive payment on a U.S. savings bond a State must complete an escheat
proceeding that satisfies due process and that awards title to the bond to the State”—is not
limited to circumstances in which a State has the bonds in its possession. To the contrary, that
rationale was based on the understanding that a judgment pursuant to a title-based escheat statute
would serve for purposes of Treasury regulations as a “claim against an owner of a savings
bond” that Treasury would recognize, if “established by valid, judicial proceedings.” 31 C.F.R.
§ 315.20(b).
In that regard, the Court is also not persuaded by Treasury’s argument that possession of
the bonds is uniformly a prerequisite to their redemption under the regulations. Def.’s Mot. to
Dismiss 14 (citing 31 U.S.C. § 3105(b)(2)) (asserting that “Treasury regulations require
presentation and surrender of the bonds as a prerequisite for payment” and that “[p]hysical
surrender ensures that Treasury can close out the bond contract, ensures that the bonds are
legitimate, and prevents double payment on the same bond”). To begin with, the regulations
explicitly provide for the circumstance in which an owner does not possess the bond, such as
when a bond has been lost, stolen, or destroyed. See 31 C.F.R. § 315.25. In such a case,
Treasury “may require a bond of indemnity, in the form, and with the surety, or security . . .
necessary to protect the interests of the United States.” Id. In addition, the regulations provide
that a lost, stolen or destroyed bond “for which relief has been granted” (i.e., which has been
paid) “is the property of the United States and, if recovered, must be promptly submitted to the
Bureau of Fiscal Service . . . for cancellation.” 31 C.F.R. § 315.28(b).
In addition, nothing in 31 C.F.R. § 315.20 states that possession is required where a claim
of ownership is established pursuant to valid, judicial proceedings. To the contrary, the only
reference to a possession requirement that is made in § 315.20 is in subsection (c), which
specifies that the government will not accept a notice of an adverse claim or of pending judicial
proceedings, “nor undertake to protect the interests of a litigant not in possession of a savings

18

82a
bond.” 31 C.F.R. § 315.20(c). This section addresses how Treasury will deal with
unadjudicated claims of ownership. Subsection (b), on the other hand, concerns recognition of
claims of ownership that are no longer in litigation but that have been established pursuant to
valid, judicial proceedings.
Moreover, as the government explained in the Supreme Court brief, the regulatory
prohibition on payment to anyone other than the lawful owner is what prevents double payment
on the same bond, not a requirement of physical surrender. Pl.’s Resp. App. 9. See also id. App.
285 (stating in the 1983 letter that payment to a state that has succeeded to the legal ownership of
the savings bonds “results in the full discharge of the Treasury’s obligation”). If Treasury
recognizes that title to a bond transfers from the original registrant to the state, and if it only
honors claims for redemption of that bond by one who holds title to it, there is no chance that the
government would incur multiple obligations on a single bond.
Finally, the position that Treasury is taking in this litigation is internally inconsistent.
Thus, it has claimed for the first time in the briefing of its motion to dismiss that its decision to
allow Kansas to redeem the Bonds in Possession was based on an exercise of its waiver
authority” under § 315.90(a) of the regulations,12 rather than the rationale expressed in its
Escheat Decision and in the briefs that it filed in the Treasurer of New Jersey litigation. Def.’s
Reply 7. But the letter in which Treasury instructed Kansas on how to proceed in redeeming the
Bonds in Possession said nothing to indicate that Treasury was exercising any waiver authority.
See Pl.’s Resp. App. 276-77. To the contrary, Treasury noted that it would redeem the bonds “in
the normal course,” after it received a certified copy of the Judgment of Escheatment and other
documentation. Id. at 277.
Treasury’s explanation of the basis for its denial of Kansas’s request with respect to the
Absent Bonds has also continued to morph throughout this case. In its October 2013 denial letter
(and in its initial motion to dismiss), Treasury relied upon its newly articulated narrow
interpretation of the “valid, judicial proceedings” language in § 315.20(b). But in its first
supplemental brief, the government argues for the first time that an escheat judgment does not
involve “a claim against an owner of a savings bond” within the meaning of § 315.20(b) because
an escheat proceeding was not against the owner of the bond; it is an in rem proceeding against
the property itself. Def.’s 1st Supp. Br. 5, Jan. 15, 2015, ECF No. 28. This post-hoc rationale is
12

31 C.F.R. § 315.90(a) provides that:
The Commissioner of the Fiscal Service, as designee of the Secretary of the
Treasury, may waive or modify any provision or provisions of these regulations.
He may do so in any particular case or class of cases for the convenience of the
United States or in order to relieve any person or persons of unnecessary hardship:
(a) If such action would not be inconsistent with law or equity, (b) if it does not
impair any existing rights, and (c) if he is satisfied that such action would not
subject the United States to any substantial expense or liability.

19

83a
contrary to the position Treasury has taken in the past and also lacks merit. While an
escheatment judgment is obtained by a proceeding “in rem” (i.e., against the property) the result
of such a judgment is the substitution of the state for the bond’s lawful owner. Thus, an escheat
proceeding may readily be treated as “a claim against the owner of the bond” for purposes of the
Treasury regulations. Indeed, as described above, it has been so treated (at least implicitly) in
Treasury’s prior statements on the issue.
Treasury further argues (again for the first time in its supplemental brief and again
contrary to its historically expressed views) that to the extent that Kansas claims title to savings
bonds for which there exists a coowner or beneficiary, such claims would be inconsistent with 31
C.F.R. § 315.20(a), which provides that Treasury will not recognize “a judicial determination
that impairs the rights of survivorship conferred by these regulations upon a coowner or
beneficiary.” Def.’s 1st Supp. Br. 4. This argument is unpersuasive because once a
determination is made through an escheatment proceeding that the former owner has abandoned
the bond, the State becomes its lawful owner. Therefore, the former coowner or beneficiary no
longer has any rights of survivorship to be impaired.
In short, Treasury’s litigating position cannot be reconciled with its prior statements
expressing what it then characterized as its “considered interpretation” of its regulations. Pl.’s
Resp. App. 9. And while an agency is certainly entitled to change its interpretation of its own
regulations (see Perez v. Mortg. Bankers Ass’n, 135 S. Ct. 1199, 1207 (2015)), the Court cannot
conclude that the new position represents the agency’s considered judgment, where Treasury
resists acknowledging that its position has changed, and where the rationale for its position
continues to shift as the litigation itself progresses. Therefore, the Court concludes that the
interpretation of its regulations that is set forth in Treasury’s briefs in this case is entitled to no
deference at all. If anything, deference is due to the interpretation that Treasury expressed for
over sixty years until the instant controversy arose. Accordingly, and for the reasons set forth
above in Part III.A.2, the Court concludes that Kansas’s interpretation of the relevant Treasury
regulations is correct and that it has stated a claim for relief with respect to its allegations of
breach of contract.13

13

On June 30, 2015, the government filed a notice with the Court advising it that on June 26,
2015, Treasury had issued a Notice of Proposed Rulemaking. The proposed regulation adds a
new subpart O, which requires states seeking to redeem bonds to possess the bonds for which
they claim title and to produce evidence that the bonds have been abandoned by all persons
entitled to payment. 80 Fed. Reg. 37,559-01 (proposed July 1, 2015) (to be codified at 31 C.F.R.
§ 315.88). The government appears to argue that this Notice has some bearing on the issues
before the Court in this case; it observes that “[w]hen evaluating the issue of deference, a court
may consider an interpretation formally promulgated in a rulemaking after the controversy or
litigation arose.” Def.’s Notice of Proposed Rulemaking 2, ECF No. 36 (citing Smiley v.
Citibank, 517 U.S. 735, 741 (1996) and Motorola, Inc. v. United States, 436 F.3d 1357, 1366
(Fed. Cir. 2006)). But the Federal Register Notice does not purport to interpret existing
regulations (or a statute, as in Smiley and Motorola); its purpose is to change those regulations to
reflect the position that the government is taking in this case. The Court, therefore, does not

20

84a
B.

Third-Party Beneficiary Claim

The Court turns next to Kansas’s third-party beneficiary claim, which the government has
moved to dismiss for lack of jurisdiction but which, as noted above, the Court tests for its
sufficiency to state a claim upon which relief can be granted. With respect to this claim, Kansas
alleges in its complaint that the Treasury regulations “demonstrate the intent of the parties to [the
savings bond] contracts to provide a means of transferring ownership of U.S. savings bonds” and
provide that valid, judicial proceedings are one means of transferring such ownership. Compl. ¶
127. Thus, Kansas alleges, “Kansas falls within the class clearly intended to benefit from the
U.S. savings bond contracts because it is an owner of U.S. savings bonds and it has established
its ownership of the contracts by valid judicial proceedings.” Compl. ¶ 128. According to
Kansas, these allegations demonstrate that “the State of Kansas is a third-party beneficiary to the
subject U.S. savings bond contracts.” Id.
The Court agrees with the government that the facts that Kansas has alleged do not
support a claim of third-party beneficiary status. A third-party beneficiary is not a party to the
contract but rather is one on whom the contracting parties intend that the contract will confer a
direct benefit. Glass v. United States, 258 F.3d 1349, 1354 (Fed. Cir. 2001) (citing German
Alliance Ins. Co. v. Home Water Supply Co., 226 U.S. 220, 230 (1912)). As discussed above,
Kansas has adequately alleged that it has become a party to the savings bonds contracts, but
nothing in its complaint suggests, in contrast, that Treasury and the registered owners of the
bonds entered contracts with the intention of benefitting Kansas. Therefore, the government’s
motion to dismiss is granted with respect to Kansas’s third-party beneficiary claim.
C.

Fifth Amendment Takings Claim

The final issue that the government raises in its motion is the sufficiency of Kansas’s
claim that the government’s refusal to allow redemption of the Absent Bonds constituted a taking
without just compensation under the Fifth Amendment. In addition to repeating the argument
rejected above, that Kansas has not gained ownership of the bonds in accordance with Treasury
regulations, the government contends that Treasury’s actions in relation to the savings bonds
contracts were proprietary, and therefore, Kansas’s claim, asserted as a Fifth Amendment taking,
is better treated as one for breach of contract. Def.’s Mot. 19 (citing Hughes Commc’ns Galaxy,
Inc. v. United States, 271 F.3d 1060, 1070 (Fed. Cir. 2001)).
It is well established that “[c]ontract rights are a form of property and as such may be
taken for a public purpose provided that just compensation is paid.” U.S. Trust Co. of N.Y. v.
New Jersey, 431 U.S. 1, 19 n.16 (1977) (citing Contributors to Pa. Hosp. v. Philadelphia, 245
U.S. 20, 23 (1917)). See also A&D Auto Sales, Inc. v. United States, 748 F.3d 1142, 1152 (Fed.
Cir. 2014). As the government argues in its motion, however, the Federal Circuit has observed
that “[t]aking claims rarely arise under government contracts because the Government acts in its
commercial or proprietary capacity in entering contracts, rather than in its sovereign capacity.”
consider the Notice relevant in any way to the proper interpretation of the existing regulations at
issue in this case.

21

85a
Hughes Commc’ns Galaxy, 271 F.3d at 1070. “Proprietary government action typically involves
bargaining with private actors for the provision or procurement of goods and services; the action
is deemed proprietary even though the government may enter into the contractual relationship in
pursuit of a larger governmental objective.” A&D Auto Sales, 748 F.3d at 1156. In such cases,
the court of appeals continued, “remedies arise from the contracts themselves, rather than from
the constitutional protection of private property rights.” Hughes Commc’ns Galaxy, 271 F.3d at
1070.
The Federal Circuit clarified this observation, however, in Stockton East Water District v.
United States, 583 F.3d 1344 (Fed. Cir. 2009). Specifically, the court explained that its
statements in Hughes “cannot be understood as precluding a party from alleging in the same
complaint two alternative theories for recovery against the Government, for example, one for
breach of contract and one for a taking under the Fifth Amendment to the Constitution.”
Stockton, 583 F.3d at 1368. “On the other hand,” the court further explained,
it can be understood to mean that, when a case arises in which both a contract and
a taking cause of action are pled, the trial court may properly defer the taking issue,
as it did here, in favor of first addressing the contract issue. It has long been the
policy of the courts to decide cases on non-constitutional grounds when that is
available, rather than reach out for the constitutional issue. See Nw. Austin Mun.
Util. Dist. No. One v. Holder, [557 U.S. 193, 205] (2009). And of course when a
plaintiff is awarded recovery for the alleged wrong under one theory, there is no
reason to address the other theories.
Stockton, 583 F.3d at 1368.
Here, the Court takes instruction from Stockton and finds that dismissal of Kansas’s
claim under the Takings Clause is inappropriate at this stage. Thus, the government’s motion to
dismiss is denied as to this claim.
CONCLUSION
Based on the foregoing, the Court rules on the government’s motion to dismiss as
follows:
1. The government’s motion to dismiss Kansas’s contract-based claims for lack of
subject-matter jurisdiction pursuant to RCFC 12(b)(1) is DENIED.
2. The government’s motion to dismiss Kansas’s claims for equitable estoppel and
declaratory judgment for lack of subject-matter jurisdiction pursuant to RCFC
12(b)(1) is DENIED.
3. The government’s motion to dismiss Kansas’s third-party beneficiary claim,
construed as a motion for failure to state a claim upon which relief can be granted
pursuant to RCFC 12(b)(6), is GRANTED.

22

86a
4. The government’s motion to dismiss Kansas’s claim under the Takings Clause of the
Fifth Amendment for failure to state a claim upon which relief can be granted
pursuant to RCFC 12(b)(6) is DENIED.
IT IS SO ORDERED.

s/ Elaine D. Kaplan
ELAINE D. KAPLAN
Judge

23

87a

NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

JAKE LATURNER, TREASURER OF THE STATE
OF KANSAS, ANDREA LEA, IN HER OFFICIAL
CAPACITY AS AUDITOR OF THE STATE OF
ARKANSAS,
Plaintiffs-Appellees
v.
UNITED STATES,
Defendant-Appellant
______________________
2018-1509, 2018-1510
______________________
Appeals from the United States Court of Federal
Claims in Nos. 1:13-cv-01011-EDK, 1:16-cv-00043-EDK,
Judge Elaine Kaplan.
______________________
ON PETITIONS FOR REHEARING EN BANC
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER

88a
LATURNER v. UNITED STATES

2

Appellee Jake LaTurner and Appellee Andrea Lea filed
separate petitions for rehearing en banc. A response to the
petitions was invited by the court and filed by Appellant
United States. The petitions were first referred as petitions for rehearing to the panel that heard the appeals, and
thereafter the petitions for rehearing en banc were referred
to the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petitions for panel rehearing are denied.
The petitions for rehearing en banc are denied.
The mandate of the court will issue on December 18,
2019.
FOR THE COURT
December 11, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

89a
CONSTITUTIONAL PROVISIONS,
STATUTES, AND REGULATIONS INVOLVED
U.S. CONST. amend. V
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor shall any person be
subject for the same offence to be twice put in jeopardy of life or limb;
nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use,
without just compensation.
31 U.S.C. § 3105. Savings bonds and savings certificates
(a) With the approval of the President, the Secretary of the Treasury
may issue savings bonds and savings certificates of the United States
Government and may buy, redeem, and make refunds under section
3111 of this title. Proceeds from the bonds and certificates shall be
used for expenditures authorized by law. . . .
...
(c) The Secretary may prescribe for savings bonds and savings
certificates issued under this section—
(1) the form and amount of an issue and series;
(2) the way in which they will be issued;
(3) the conditions, including restrictions on transfer, to which they
will be subject;
(4) conditions governing their redemption;
(5) their sales price and denominations;
(6) a way to evidence payments for or on account of them and to
provide for the exchange of savings certificates for savings bonds;
and

90a
(7) the maximum amount issued in a year that may be held by one
person.
...
ARK. CODE § 18-28-231. Escheatment—United States savings bond
(a) Notwithstanding any law to the contrary, including § 18-28202(a)(10) and (14) and § 18-28-219(b), a United States savings bond
held or owing in this state is presumed abandoned if the savings bond
remains unclaimed for five (5) years after the date of maturity of the
United States savings bond.
(b) If a United States savings bond is presumed abandoned under
subsection (a) of this section, the United States savings bond shall
escheat to the state two (2) years after becoming abandoned property
according to subsections (c)-(f) of this section.
(c)(1) If no claim for the United States savings bond is filed under § 1828-215, the administrator shall file a civil action for escheatment of the
United States savings bond within one hundred eighty (180) days after
the two-year period under subsection (b) of this section.
(2) The administrator may postpone filing a civil action under
subdivision (c)(1) of this section until additional United States
savings bonds accumulate to justify the expense of the proceeding.
(d) The administrator shall provide notice of the civil action to an
individual named as a defendant in the civil action in the manner
provided for under § 16-3-101 et seq., and prescribed by Rule 4 of the
Arkansas Rules of Civil Procedure.
(e) If no person files a claim or appears at the hearing to substantiate a
claim or if the court determines that a claimant is not entitled to the
property claimed by the claimant, then the court shall enter judgment
that:
(1) The United States savings bond escheats to the state; and
(2) All property rights and legal title to and ownership of the United
States savings bond or proceeds from the United States savings
bond, including all rights, powers, and privileges of survivorship of
any owner, co-owner, or beneficiary, are vested solely in the state.

91a
(f) Notwithstanding §§ 18-28-213 and 18-28-225, the administrator
shall redeem any United States savings bonds escheated to the state
and deposit the proceeds recovered by the administrator into the
Unclaimed Property Proceeds Trust Fund.
(g)(1) Notwithstanding § 18-28-215(c), a person may file a claim with
the administrator for a United States savings bond or the proceeds
from the savings bond that has escheated to the state under this
section.
(2)(A) Upon submission of sufficient proof of the validity of a claim
for a United States savings bond that has escheated to the state,
the administrator may pay the claim after deducting the expense
incurred by the administrator in securing full title and ownership of
the United States savings bond by escheatment.
(B) Upon payment of a valid claim, no action thereafter shall be
maintained by any other claimant against the state for the
funds.
(h) The administrator may contract with and obtain outside legal
counsel in the administration of this section.
31 C.F.R. § 315.15. Transfer
Savings bonds are not transferable and are payable only to the owners
named on the bonds, except as specifically provided in these
regulations and then only in the manner and to the extent so provided.
31 C.F.R. § 315.20 (2015). General
The following general rules apply to the recognition of a judicial
determination on adverse claims affecting savings bonds:
(a) The Department of the Treasury will not recognize a judicial
determination that gives effect to an attempted voluntary transfer
inter vivos of a bond, or a judicial determination that impairs the
rights of survivorship conferred by these regulations upon a coowner or
beneficiary. All provisions of this subpart are subject to these
restrictions.
(b) The Department of the Treasury will recognize a claim against an
owner of a savings bond and conflicting claims of ownership of, or
interest in, a bond between coowners or between the registered owner
and the beneficiary, if established by valid, judicial proceedings, but

92a
only as specifically provided in this subpart. Section 315.23 specifies
the evidence required to establish the validity of the judicial
proceedings.
(c) The Department of the Treasury and the agencies that issue,
reissue, or redeem savings bonds will not accept a notice of an adverse
claim or notice of pending judicial proceedings, nor undertake to
protect the interests of a litigant not in possession of a savings bond.
31 C.F.R. § 315.21. Payment to judgment creditors
(a) Purchaser or officer under levy. The Department of the Treasury
will pay (but not reissue) a savings bond to the purchaser at a sale
under a levy or to the officer authorized under appropriate process to
levy upon property of the registered owner or coowner to satisfy a
money judgment. Payment will be made only to the extent necessary to
satisfy the money judgment. The amount paid is limited to the
redemption value 60 days after the termination of the judicial
proceedings. Payment of a bond registered in coownership form
pursuant to a judgment or a levy against only one coowner is limited to
the extent of that coowner’s interest in the bond. That interest must be
established by an agreement between the coowners or by a judgment,
decree, or order of a court in a proceeding to which both coowners are
parties.
(b) Trustee in bankruptcy, receiver, or similar court officer. The
Department of the Treasury will pay, at current redemption value, a
savings bond to a trustee in bankruptcy, a receiver of an insolvent’s
estate, a receiver in equity, or a similar court officer under the
provisions of paragraph (a) of this section.
31 C.F.R. § 315.22. Payment or reissue pursuant to judgment
(a) Divorce. The Department of the Treasury will recognize a divorce
decree that ratifies or confirms a property settlement agreement
disposing of bonds or that otherwise settles the interests of the parties
in a bond. Reissue of a savings bond may be made to eliminate the
name of one spouse as owner, coowner, or beneficiary, or to substitute
the name of one spouse for that of the other spouse as owner, coowner,
or beneficiary pursuant to the decree. However, if the bond is
registered in the name of one spouse with another person as coowner,
there must be submitted either:
(1) A request for reissue by the other person or

93a
(2) A certified copy of a judgment, decree, or court order entered in
proceedings to which the other person and the spouse named on the
bond are parties, determining the extent of the interest of that
spouse in the bond.
Reissue will be permitted only to the extent of that spouse’s
interest. The evidence required under § 315.23 must be submitted
in every case. When the divorce decree does not set out the terms of
the property settlement agreement, a certified copy of the
agreement must be submitted. Payment, rather than reissue, will
be made if requested.
(b) Gift causa mortis. A savings bond belonging solely to one individual
will be paid or reissued at the request of the person found by a court to
be entitled by reason of a gift causa mortis from the sole owner.
(c) Date for determining rights. When payment or reissue under this
section is to be made, the rights of the parties will be those existing
under the regulations current at the time of the entry of the final
judgment, decree, or court order.
31 C.F.R. § 315.23. Evidence
(a) General. To establish the validity of judicial proceedings, certified
copies of the final judgment, decree, or court order, and of any
necessary supplementary proceedings, must be submitted. If the
judgment, decree, or court order was rendered more than six months
prior to the presentation of the bond, there must also be submitted a
certificate from the clerk of the court, under court seal, dated within
six months of the presentation of the bond, showing that the judgment,
decree, or court order is in full force.
(b) Trustee in bankruptcy or receiver of an insolvent’s estate. A request
for payment by a trustee in bankruptcy or a receiver of an insolvent's
estate must be supported by appropriate evidence of appointment and
qualification. The evidence must be certified by the clerk of the court,
under court seal, as being in full force on a date that is not more than
six months prior to the presentation of the bond.
(c) Receiver in equity or similar court officer. A request for payment by
the receiver in equity or a similar court officer, other than a receiver of
an insolvent’s estate, must be supported by a copy of an order that
authorizes the presentation of the bond for redemption, certified by the
clerk of the court, under court seal, as being in full force on a date that
is not more than six months prior to the presentation of the bond.

94a
31 C.F.R. § 315.25. General
Relief, by the issue of a substitute bond or by payment, is authorized
for the loss, theft, destruction, mutilation, or defacement of a bond
after receipt by the owner or his or her representative. As a condition
for granting relief, the Commissioner of the Fiscal Service, as designee
of the Secretary of the Treasury, may require a bond of indemnity, in
the form, and with the surety, or security, he considers necessary to
protect the interests of the United States. In all cases the savings bond
must be identified by serial number and the applicant must submit
satisfactory evidence of the loss, theft, or destruction, or a satisfactory
explanation of the mutilation or defacement.
31 C.F.R. § 315.26. Application for relief—after receipt of bond
(a) Serial number known. If the serial number of the lost, stolen, or
destroyed bond is known, the claimant should execute an application
for relief on the appropriate form and submit it to the Bureau of the
Fiscal Service, Parkersburg, WV 26101.
(b) Serial number not known. If the bond serial number is not known,
the claimant must provide sufficient information to enable the Bureau
of the Fiscal Service to identify the bond by serial number. See §
315.29(c). The Bureau will furnish the proper application form and
instructions.
(c) Defaced or mutilated bond. A defaced bond and all available
fragments of a mutilated bond should be submitted to the Bureau.
(d) Execution of claims application. The application must be made by
the person or persons (including both coowners, if living) authorized
under these regulations to request payment of the bonds. In addition—
(1) If the bond is in beneficiary form and the owner and beneficiary
are both living, both will ordinarily be required to join in the
application.
(2) If a minor named on a bond as owner, coowner, or beneficiary is
not of sufficient competency and understanding to request payment,
both parents will ordinarily be required to join in the application.
(e) If the application is approved, relief will be granted by the issuance
of a bond bearing the same issue date as the bond for which the claim
was filed or by the issuance of a check in payment.

95a
31 C.F.R. § 315.27. Application for relief—nonreceipt of bond
If a bond issued on any transaction is not received, the issuing agent
must be notified as promptly as possible and given all information
available about the nonreceipt. An appropriate form and instructions
will be provided. If the application is approved, relief will be granted
by the issuance of a bond bearing the same issue date as the bond that
was not received.
31 C.F.R. § 315.29. Adjudication of claims
(a) General. The Bureau of the Fiscal Service will adjudicate claims for
lost, stolen or destroyed bonds on the basis of records created and
regularly maintained in the ordinary course of business.
...
(c) Claims filed six years after final maturity. No claim filed six years
or more after the final maturity of a savings bond will be entertained,
unless the claimant supplies the serial number of the bond.
31 C.F.R. § 315.90. Waiver of regulations
The Commissioner of the Fiscal Service, as designee of the Secretary of
the Treasury, may waive or modify any provision or provisions of these
regulations. He may do so in any particular case or class of cases for
the convenience of the United States or in order to relieve any person
or persons of unnecessary hardship:
(a) If such action would not be inconsistent with law or equity, (b) if it
does not impair any existing rights, and (c) if he is satisfied that such
action would not subject the United States to any substantial expense
or liability.
31 C.F.R. § 323.2. Rules governing availability of information
(a) General. The records of the Bureau of the Fiscal Service required
by 5 U.S.C. 552 to be made available to the public shall be made
available in accordance with the regulations on the Disclosure of
Records of the Office of the Secretary issued under 5 U.S.C. 552 and
published as part I of title 31 of the Code of Federal Regulations, 32 FR
9562, July 1, 1967, except as specifically provided in this part.
(b) Limitations on the availability of records relating to
securities. Records relating to the purchase, ownership of, and

96a
transactions in Treasury securities or other securities handled by the
Bureau of the Fiscal Service for government agencies or wholly or
partially Government-owned corporations will ordinarily be disclosed
only to the owners of such securities, their executors, administrators or
other legal representatives or to their survivors or to investigative and
certain other agencies of the Federal and State governments, to
trustees in bankruptcy, receivers of insolvents’ estates or where a
proper order has been entered requesting disclosure of information to
Federal and State courts. These records are confidential because they
relate to private financial affairs of the owners under this part. In
addition, the information falls within the category of “personnel and
medical files and similar files the disclosure of which would constitute
a clearly unwarranted invasion of personal privacy” under the
Freedom of Information Act (FOIA), 5 U.S.C. 552(b)(6). FOIA
Exemption (b)(6) protects the privacy of living persons who own
securities as well as the close survivors of deceased owners. Privacy
interests, in the sense of the right to control, use, or disclose
information about oneself, cease at death. However, the exemption
protects the deceased person’s family-related privacy interests that
survive death where disclosure would cause embarrassment, pain,
grief, or disrupt the peace of mind, of the surviving family. The Bureau
of the Fiscal Service will determine, under FOIA exemption (b)(6),
whether disclosure of the records is in the public interest by balancing
the surviving family members’ privacy interest against the public’s
right to know the information.

97a

ORIGINAL

#9998-3142794

IN THE UNITED STATES COURT OF FEDERAL CLAIMS

FILED

JAN 11 2016
U.S. COURT OF
FEDERAL CLAIMS

ANDREA LEA, in her official capacity as
Auditor of the State of Arkansas,
Plaintiff,

16-43 C

Civil Action No. ___________

v.
UNITED STATES OF AMERICA,
Defendant.

COMPLAINT
Plaintiff Andrea Lea, Auditor of the State of Arkansas, files this complaint by and
through the undersigned attorneys against the United States. Plaintiff seeks damages for the
United States Department of the Treasury’s refusal to redeem certain savings bonds owned by
the State of Arkansas, a refusal which breaches the contracts underlying those bonds and also
effects an unconstitutional taking or illegal exaction of Arkansas’s property interest in them.
Plaintiff hereby alleges as follows:
INTRODUCTION
1.

Over $17 billion of unclaimed savings bonds are currently being held in custody

by the United States Department of the Treasury. These bonds have matured—in many cases,
several decades ago—but for whatever reason, they were never redeemed by their owners upon
maturity. Treasury makes no effort to affirmatively seek out the owners of these unclaimed
bonds. Instead, Treasury simply retains these unredeemed bonds indefinitely, for the use and
enjoyment of the United States. Based on Arkansas’s share of the national population,
approximately $160 million worth of these bonds were last held by residents of Arkansas.
Arkansas has come into possession of the physical bond certificates corresponding to a small
1

98a
fraction of these abandoned bonds, but the vast majority of those certificates have simply been
lost.
2.

States have long had in place abandoned property laws to provide for the

safekeeping of property—like these unclaimed savings bonds—that has been abandoned. The
ultimate goal of these abandoned property, or “escheatment,” laws is to reunite the lost property
with its real owner. In addition, because the abandoned property is held by the State until the
actual owner claims it, the value of that property is used for the benefit of the State’s residents in
the meantime.
3.

On March 20, 2015, the Arkansas General Assembly adopted an abandoned

property law that specifically addresses matured, unredeemed United States savings bonds.
Under the provisions of that law, a savings bond that goes unredeemed for five or more years
after it matures is presumed abandoned, and title to those abandoned bonds escheats to the State
two years after that. On November 20, 2015, the Arkansas Circuit Court for the Fourth Judicial
Circuit entered a Judgment of Escheatment declaring that all legal right and title to certain of
these abandoned bonds has vested in the State by operation of this new statute.
4.

Under federal law and Treasury’s regulations—as interpreted by this Court in

Estes v. United States, 123 Fed. Cl. 74 (2015), and as long interpreted by Treasury itself—this
valid judgment of escheatment effectively transferred title to the bonds in question, requiring
Treasury to recognize Arkansas as the new owner of the bonds and to comply with Arkansas’s
request to redeem them. But Treasury has recently reversed its own decades-old reading of the
federal regulations governing United States savings bonds, adopting a transparently self-serving
interpretation that requires a State to produce the physical bond certificate corresponding to each
savings bond that has escheated to it. And relying on this newly-minted interpretation of its

2

99a
regulations—which simply cannot be squared with those regulations’ plain terms—Treasury has
refused to redeem the abandoned bonds that have escheated to Arkansas, as established by the
November 20 Judgment.
5.

Treasury’s refusal to redeem the bonds breaches its most fundamental obligation

under the contract that underlies each of the savings bonds in question (contracts to which
Arkansas has now succeeded in interest): to pay back the value of the loan, plus the interest that
has accrued at the stipulated rate, after maturity and upon request. Treasury’s refusal also wholly
deprives Arkansas’s property interest in the abandoned bonds of any economic value. Plaintiff
brings this action on behalf of the State to obtain compensation for the United States’ illegal and
unconstitutional actions.
JURISDICTION
6.

This Court has subject-matter jurisdiction over this case because it involves

claims for damages against the United States founded upon the Constitution and upon express
contracts with the United States, and that jurisdiction is exclusive because the amount in
controversy exceeds $10,000. 28 U.S.C. §§ 1346, 1491.
PARTIES
7.

The plaintiff in this action is Andrea Lea, Auditor of the State of Arkansas. Her

duties include keeping the accounts of the State and directing prosecutions against all those who
possess property owned by the State. Her official address is 1401 West Capitol Avenue, Suite
325, Little Rock, AR 72201. She brings this suit in her official capacity, on behalf of the State of
Arkansas.
8.

The defendant in this action is the United States of America (“United States”).

The actions relevant to this lawsuit were taken by the United States Department of the Treasury
(“Treasury”), and a division of the Treasury, the Bureau of the Fiscal Service. Treasury is an
3

100a
executive-branch department of the United States Government, created by Congress and tasked
with managing the finances of the United States. Its principal place of business is 1500
Pennsylvania Avenue, Washington, D.C. 20220. The Bureau of the Fiscal Service is an agency
within the Treasury Department. It provides accounting services for the United States
Government and manages the public debt—including the United States savings bond program.
Its principal places of business are 401 14th Street S.W., Washington, D.C. 20227, and 200 Third
Street, Parkersburg, WV 26101.
FACTUAL ALLEGATIONS
The United States Savings Bond Program
9.

Treasury began selling United States savings bonds at the conclusion of the First

World War, and has sold them continuously ever since. Most savings bonds bear long maturities:
30 or 40 years, on average.
10.

United States savings bonds have been sold in several different “series,” and the

terms of the bonds vary by series. Series A, B, C, and D bonds were sold from March 1935
through April 1941. Series A, B, C, and D bonds were sold with 10-year terms. All Series A–D
bonds reached maturity by April 1951.
11.

Series E bonds were first sold in 1941. Nearly 4.6 billion Series E bonds were

sold in this country between 1941 and 1980. Series E bonds sold between 1941 and 1965 were
given 40-year terms. Between 1966 and 1980, they carried 30-year terms. The last Series E bond
was sold in 1980. The first Series E bonds matured and ceased earning interest in 1981; the last
such bonds matured in 2010.
12.

Series F and G bonds were sold from May 1941 through April 1952. Series F and

G bonds were sold with 12-year terms. All Series F and G bonds reached maturity by April 1964.

4

101a
13.

Series H bonds were sold from June 1952 through December 1979. Series H

bonds sold between 1952 and 1957 carried a term of 29 years and 8 months; Series H bonds sold
between 1957 and 1979 had a term of 30 years. All Series H bonds reached maturity by
December 2009.
14.

Series J and K bonds were sold from May 1952 through April 1957. Series J and

K bonds were sold with a term of 12 years. All Series J and K bonds reached maturity by April
1969.
15.

Treasury does not keep reliable records of current bond-holders. Moreover,

because the bonds have long maturities, their original purchasers often transfer the bonds in
some way—or at least move from their initial address—before the bonds mature. Accordingly,
the owner addresses contained in Treasury’s registration records are often no longer accurate
when the bonds reach maturity. Indeed, the Government has admitted as much. In litigation in
this Court, the Government recognized that its ownership information “is decades old,” and it
acknowledged “the possibility that most bond purchasers have moved or that the bonds have
passed by inheritance to persons other than the purchaser.” See Transcript of Hearing at 21:18–
22:2, Estes v. United States, No. 13-1011C (Fed. Cl. Oct. 24, 2014), ECF No. 26; Defendant’s
Supplemental Reply Brief in Support of its Motion to Dismiss at 8, Estes, No. 13-1011C (Fed.
Cl. Mar. 3, 2015), ECF No. 30. And because of the limitations of Treasury’s records, the United
States General Accounting Office has concluded that even if “a thorough search for owners [of
matured savings bonds] were completed, the success rate might not be very high.” UNITED
STATES GEN. ACCOUNTING OFFICE, UNCLAIMED MONEY: PROPOSALS FOR TRANSFERRING
UNCLAIMED FUNDS TO STATES 22 (May 1989), available at http://goo.gl/6En4aU.

5

102a
16.

But Treasury has not conducted a thorough search for owners of matured savings

bonds. When savings bonds mature, Treasury does not attempt to locate or notify their current
owners—even by using the addresses it has on record, or through some general form of
publication. Instead, to redeem a long-matured United States savings bond from Treasury, an
owner must affirmatively contact Treasury with a formal request and present to Treasury either
the physical paper bond, its serial number, or other identifying information.
17.

Owners of matured savings bonds are frequently unaware, however, that they

possess bonds that have matured and are being held, without earning further interest, by
Treasury. Because Treasury takes no steps to notify owners when their bonds mature, and
because those bonds have both lengthy terms and a relatively small face value, many bond
owners have misplaced or simply forgotten about their bonds. And children and other
beneficiaries of bond-holders may never even have learned of their existence. Moreover, even if
these owners recall that they once purchased or received savings bonds, many cannot meet
Treasury’s demand that they present either the physical paper bond or its serial number, as the
bond may have been lost, stolen, damaged, or destroyed.
18.

As a result, there are approximately $17.2 billion worth of United States savings

bonds that have matured and stopped earning interest—many, several decades ago—but have
never been redeemed. Plaintiff estimates that approximately $160 million, or 0.93%, of that
amount corresponds with owners whose last known addresses are in Arkansas. The bulk of these
bonds are series E bonds. Until they are claimed, the proceeds due these unredeemed, matured
bonds are held by Treasury, for the use and enjoyment of the United States.
19.

Each of those unredeemed bonds is “a contract between the United States and the

person to whom it is registered.” Rotman v. United States, 31 Fed. Cl. 724, 725 (1994). Like any

6

103a
other debt contract, to the creditor—here, the bondholder—it is also a form of intangible
personal property. Those bonds that were last held by Arkansas residents and have since been
abandoned in the State are thus subject to Arkansas’s Unclaimed Property Act.
Escheatment of Unclaimed Property
20.

Like most states, Arkansas has long had a general “escheat” statute providing that

property that is abandoned in-state is to be reported and delivered into the custody of the State,
until such time as its owner comes forward to claim it. ARK. CODE § 18-28-201 et seq.
21.

Again like most states, Arkansas’s general abandoned property statute contains

what is known as a “custody” escheat regime: property that has escheated to the State is merely
held by the State for safekeeping until claimed by its rightful owner, who at all times retains title.
See, e.g., id. § 18-28-210(b). Most states moved towards this “custody” type of escheat regime in
the mid-twentieth century, under the influence of the Uniform Law Commission’s model
Uniform Abandoned Property Act.
22.

Before this shift, most States had traditional “title” escheat regimes. Under this

more traditional type of abandoned property regime, when abandoned property escheats to the
State, the State takes title—not simply custody—of the property. While a title escheat regime
also preserves the ability of the original owner to come forward and reclaim once-abandoned
property, in the interim, all legal rights in the property belong to the State.
23.

While “escheat” regimes are most commonly associated with tangible personal

property, such as lost or unclaimed valuables, they also apply to intangible property like savings
bonds or other forms of debt. Such intangible property, of course, does not have a physical
location, so it cannot literally be abandoned “in” a particular State. But in Texas v. New Jersey,
379 U.S. 674, supplemented by 380 U.S. 518 (1965), the Supreme Court established a
straightforward rule governing escheat of intangible property: “each item of [intangible]
7

104a
property . . . is subject to escheat only by the State of the last known address of the creditor, as
shown by the debtor’s books and records.” 379 U.S. at 677, 681–82.
24.

The State Unclaimed Property Acts seek to protect the rights of missing owners.

Other holders of unclaimed property have the opposite incentive. It is to their benefit to sit back
and do nothing, treating the unclaimed property as their own, rather than to expend the resources
necessary to find the actual owners. By contrast, States like Arkansas have both the resources
and the solemn responsibility to locate the missing property owners and reunite them with their
property.
25.

Indeed, Plaintiff, acting on behalf of Arkansas, undertakes robust efforts to locate

the owners of unclaimed property that has escheated to the State. Every year, the State publishes
in prominent state newspapers lists of all property abandoned that year waiting to be claimed—
an event known as the Great Arkansas Treasure Hunt. And the State also maintains a convenient
online portal, https://goo.gl/eSZXIj, that individuals can use to determine whether they own any
property that has been abandoned and has escheated to the State.
26.

Arkansas’s Unclaimed Property Act benefits the rightful owners of unclaimed

property directly, because the State actively attempts to reunite owners with their property.
Citizens and taxpayers of the State also benefit indirectly because valuable property held in
safekeeping by Arkansas may be used for the public good, until returned to its owner. The
alternative, to permit the de facto holders of unclaimed property to keep and use valuable
property—in which they have no legitimate right or interest—would bestow an unjustified
windfall on those individuals. And the same reasoning follows for the valuable unclaimed United
States savings bonds that Defendant has continued to keep in its de facto possession.

8

105a
Escheatment of United States Savings Bonds
27.

Congress has authorized Treasury to prescribe “restrictions on [the] transfer” of

savings bonds, as well as “conditions governing their redemption.” 31 U.S.C. § 3105(c)(3)–(4).
Those restrictions make up part of the terms of the contract between the United States and each
individual creditor.
28.

Pursuant to this statutory grant of authority, Treasury has issued rules providing

that savings bonds are generally “payable only to the owners named on the bonds” and are not
transferrable, except “as specifically provided in [its] regulations.” 31 C.F.R. § 315.15.
Importantly, however, neither Congress nor Treasury has purported to preempt the entire field of
state property or contracts law. Indeed, Treasury’s regulations in several places affirmatively
contemplate that ordinary principles of state common law will continue to govern such things as
estate and divorce law. See, e.g., id. §§ 315.22, 315.71. And in particular, Treasury’s rules
provide that it will recognize a transfer of title to a savings bond if it is “established by valid,
judicial proceedings.” Id. § 315.20(b).
29.

As this Court has recently held, although escheat of an abandoned savings bond

under a custody escheat regime does not amount to a valid transfer of the rights and interests in
the bond, escheat of the bond’s title to a State, confirmed by a “valid, judicial proceeding[ ],”
vests the legal ownership of an abandoned bond—and, under Section 315.20(b), the right to
redeem it—in the State. Estes v. United States, 123 Fed. Cl. 74 (2015).
30.

Indeed, until quite recently, Treasury had long understood its regulations as

requiring it to recognize a valid escheatment of title. For example, in a 1952 Bulletin, Treasury
maintained that it would “recognize[ ] the title of the state when it makes claim based upon a
judgment of escheat” pursuant to which it “succeeds to the title of the bondholder.” TREASURY

9

106a
DEPARTMENT, FISCAL SERVICE, BUREAU OF THE PUBLIC DEBT, PD Bulletin No. 111 at 3 (Feb.
27, 1952) (attached as Exhibit 1). It would not, however, recognize a mere custody
escheatment—which would “not purport to substitute the State . . . as the owner of the bonds.”
Id.
31.

Treasury took the same position in a 1983 letter to the Kentucky Department of

Revenue:
[T]he Department’s position is that claims by States for payment of United States
securities will be recognized only where the States have actually succeeded to the
title and ownership of the securities pursuant to valid escheat proceedings. The
Department does not recognize claims for payment by a State acting merely as
custodian . . . .
Letter from C. Gardner, Director, Div. of Transactions and Rulings, to Ronald G. Geary, Sec’y
of Revenue, State of Ky. Dep’t of Revenue (Sept. 6, 1983) (attached as Exhibit 2).
32.

Treasury again took this position only a few years ago, in litigation with New

Jersey, North Carolina, Montana, Kentucky, Oklahoma, Missouri, and Pennsylvania. Those
States had attempted to take custody of unclaimed savings bonds that were last held in-state,
under their general custody escheat statutes. Treasury refused to deliver custody of the bonds to
the States, and the States sued. The case was ultimately appealed to the Third Circuit, which
concluded that the States’ attempt to take custody of the abandoned bonds was preempted by
Treasury’s regulations—because they had obtained mere custody, rather than title, escheatment:
[A]s provided in the federal regulations and as recognized by the Treasury, third
parties, including the States, may obtain ownership of the bonds—and consequently
the right to redemption—through “valid[ ] judicial proceedings,” 31 C.F.R. §
315.20(b), so long as they submit certified copies of the judgment or order affecting
ownership and other evidence that may be necessary to support the validity of the
judgment or order. See 31 C.F.R. § 315.23. The Government through its issuance
of the Escheat Decision admits as much. Here, however, the States merely seek
custody of, not title to, the funds at issue under their unclaimed property acts.

10

107a
Treasurer of N.J. v. United States Dep’t of Treasury, 684 F.3d 382, 412–13 (3d Cir. 2012)
(alteration in original) (footnote omitted).
33.

In its brief opposing the States’ petition for certiorari in the case, the Solicitor

General represented to the Supreme Court on behalf of Treasury that the Third Circuit’s
conclusion that title escheatment would effect a valid transfer of title under Section 301.20’s
“judicial proceedings” exception “represents the Department’s considered interpretation of
federal law.” Brief for Resp’ts in Opp’n at 4, Director of the Dep’t of Revenue of Mont. v.
Department of Treasury, 133 S. Ct. 2735 (2013) (No. 12-926), 2013 WL 1803570, at *4.
34.

Finally, a statement that was posted on Treasury’s website until as recently as

May 3, 2015 represented that
The Department of the Treasury will recognize claims by States for payment of
United States securities where the States have succeeded to the title and ownership
of the securities pursuant to valid escheat proceedings. The Department, however,
does not recognize claims for payment by a State acting merely as custodian of
unclaimed or abandoned securities and not as successor in title and ownership of
the securities.”
EE/E Savings Bonds FAQs, TREASURYDIRECT.COM (attached as Exhibit 3).1
35.

Recognizing this distinction between title and custody escheatment, the State of

Kansas recently amended its Abandoned Property Act to provide for title escheatment of savings
bonds. When Kansas attempted to redeem those bonds that had escheated to it, however,
Treasury refused, maintaining that unless Kansas could provide the physical bond certificates, it
would not recognize the judgment of escheatment Kansas obtained as a “valid, judicial
proceeding.” In doing so, Treasury blithely reversed its own decades-long position.

1

In the current version of Treasury’s FAQ’s, available at http://goo.gl/d9XxiM, the
section on escheatment law has been deleted. But the website Archive.org preserved a “cached”
copy of the web page, http://goo.gl/e0bRfN, as it appeared on May 3, 2015, which contains the
language as it is shown in Exhibit 3.
11

108a
36.

Kansas sued Treasury over the bonds in this Court, and this Court recently denied

Treasury’s motion to dismiss the case, concluding that, consistent with Treasury’s previous,
longstanding position, its regulations require it to recognize the escheatment of title in abandoned
bonds to a State if that transfer is “established by valid, judicial proceedings”—whether or not
the State physically possesses the bond certificates. Estes, 123 Fed. Cl. 74 (quoting 31 C.F.R. §
315.5(b)).
37.

On July 1, 2015, Treasury published notice of a proposed amendment to 31

C.F.R. Part 315 making official its newly-minted position that even a valid escheatment of title
to abandoned savings bonds does not amount to a “valid, judicial proceeding[ ]” capable of
legally transferring title. That rule became final on December 24, 2015, but under binding
Supreme Court precedent, its operation can only be prospective, and it thus cannot be applied to
the bonds at issue in this case.
Escheatment of Savings Bonds Abandoned in Arkansas
38.

On March 20, 2015, Arkansas amended its Abandoned Property Act to provide

for title escheatment of United States savings bonds abandoned in the State. The new Section 1828-231 of the Arkansas Code provides that a “United States savings bond held or owing in this
state is presumed abandoned if the savings bond remains unclaimed for five (5) years after the
date of maturity of the United States savings bond.” ARK. CODE § 18-28-231(a). Once such a
bond is presumed abandoned, it “shall escheat to the state two (2) years after becoming
abandoned property . . . .” Id. § 18-28-231(b).
39.

To establish the escheatment, the new statute authorizes the State Auditor to “file

a civil action for escheatment of the United States savings bond . . . .” Id. § 18-28-231(c)(1).
Notice to any defendant is to be given by publication of a “warning order,” according to ARK.

12

109a
CODE § 16-3-101 et seq. and Rule 4 of the Arkansas Rules of Civil Procedure. Id. § 18-28231(d).
If no person files a claim or appears at the hearing to substantiate a claim or if the
court determines that a claimant is not entitled to the property claimed by the
claimant, then the court shall enter judgment that: (1) The United States savings
bond escheats to the state; and (2) All property rights and legal title to and
ownership of the United States savings bond or proceeds from the United States
savings bond, including all rights, powers, and privileges of survivorship of any
owner, co-owner, or beneficiary, are vested solely in the state.
Id. § 18-28-231(e).
40.

Unlike a custody escheat law, then, Arkansas’s new statute results in the transfer

of title to the abandoned bonds in the State. But a putative owner of an escheated bond retains
the right to file a claim for the proceeds of the bond—less any “expense incurred by the [State] in
securing full title and ownership of the United States savings bond by escheatment.” Id. § 18-28231(g)(2)(A).
41.

Section 18-28-231 provides for escheatment of two types of savings bonds. First,

it includes bonds for which the State currently physically possesses the corresponding
certificates. Those “bonds-in-possession” have been yielded up to Arkansas over the years under
the pre-existing custody escheatment regime. Second, there are many more bonds for which
Arkansas does not physically possess certificates, but that have gone unclaimed in the State and
that are presumed abandoned under Section 18-28-231(a). Under Section 18-28-231, the titles to
both these “absent” bonds and the bonds-in-possession are subject to escheatment.
42.

On October 16, 2015, Plaintiff filed a complaint in Arkansas Circuit Court

seeking a declaratory judgment, pursuant to Section 18-28-231, that all absent bonds that had
been abandoned on or before October 16, 2008 were presumed abandoned as of October 16,
2013, and had now escheated to the State.

13

110a
43.

Because Plaintiff was unable to ascertain the identity or location of any of the

persons interested in the absent bonds, despite several attempts to gain that information from
Treasury, Plaintiff effected service on those unknown individuals through publication of a
“warning order” certified by the Clerk of Court, as authorized in Rule 4(f) of the Arkansas Rules
of Civil Procedure. A warning order giving notice of the pending lawsuit to anyone with an
interest in the absent bonds was published on October 18 and 25 in the Northwest edition of the
Arkansas Democrat-Gazette, which has circulation covering the county in which the suit was
pending, and on October 23 and 30 in the statewide edition of the Gazette, which has circulation
covering all 75 counties of Arkansas.
44.

On November 20, 2015, the circuit court held a hearing to hear testimony and

argument, take evidence, and allow anyone interested in the absent bonds to come forward and
present their claim. No interested persons attended the hearing or otherwise asserted a claim to
the absent bonds.
45.

Later that day, the court entered a final judgment of escheatment. Lea v. Martin,

No. 72 CV-15-1910-5 (Ark. Cir. Ct. Washington Cnty. Nov. 20, 2015) (attached as Exhibit 4).
The Court held that every prerequisite established by Section 18-28-231 had been satisfied and
that that state law was valid and not preempted by federal law because Section 315.20 of
Treasury’s regulations expressly contemplated that title to a savings bond could be transferred by
a valid judicial proceeding. It therefore held that
all property rights and legal title to and ownership of . . . all savings bonds that
matured on or before October 16, 2008, that were not redeemed prior to the date of
entry of this Judgment, that are shown in the books and records of the United States
Department of the Treasury as having a last-known purchaser or owner with an
address in the State of Arkansas, and that are not in the physical possession of the
State, are vested solely in the State of Arkansas.
Id. at 17.

14

111a
46.

On November 25, Plaintiff wrote to Treasury to formally request redemption of

the absent bonds. A copy of this letter is attached as Exhibit 5. Plaintiff included a certified copy
of the November 20 Judgment of Escheatment, as required by 31 C.F.R. § 315.23, and although
Plaintiff by definition does not possess the physical bond certificates for the absent bonds, she
provided sufficient information to enable Treasury to identify the bonds, as required by 31
C.F.R. § 315.26(b). Plaintiff requested a response by Treasury within 30 days.
47.

Treasury did not respond. Instead, on December 24, Treasury finalized the

amendments to its regulations governing redemption of escheated bonds, described above in
paragraph 37, purporting to foreclose redemption of escheated bonds claimed by a State that
does not physically possess the corresponding certificates. Those amendments—which Treasury
apparently intends to apply retroactively, in contravention of binding Supreme Court precedent,
see Regulations Governing United States Savings Bonds, 80 Fed. Reg. 80258, 80262 (Dec. 24,
2015) (to be codified at 31 C.F.R. pts. 315, 353, and 360)—make clear that Treasury has decided
not to redeem Plaintiff’s savings bonds.
48.

By refusing to redeem these matured bonds, Defendant has breached its single

most important obligation under the contracts that underlie each of these bonds: to pay back the
principal of the loan and the interest that has accrued at the stipulated rate when they are due.
49.

Moreover, Defendant’s actions have deprived the State of Arkansas of the entirety

of its property interest in the absent bonds. These abandoned bonds, worth an estimated $160
million upon redemption, are plainly worth nothing if the United States refuses to redeem them.
Indeed, each day that Defendant refuses to redeem the bonds, it causes additional injury to the
State by preventing Plaintiff from fulfilling the two public-interest goals underlying its
Abandoned Property Act: working to reunite the abandoned bonds with their true owners and

15

112a
using the value of that property for the benefit of the citizens of Arkansas until it is lawfully
claimed.
CLAIMS FOR RELIEF
COUNT I
Breach of Express Contract
50.

Plaintiff incorporates by reference the allegations of the preceding paragraphs.

51.

Each United States savings bond is an express contract between the United States

and the purchaser of the bond.
52.

Whenever an individual purchases a United States savings bond, there is an

objective manifestation of voluntary assent by both parties to the contract underlying the bond.
53.

The money paid by the purchaser of each United States savings bonds, and the

United States’ promise to repay the principal and accrued interest after maturity and upon
request, constituted the mutual, bargained-for consideration for the contracts underlying each
bond.
54.

Whenever an individual purchases a United States savings bond, there is an

unambiguous offer and acceptance of the terms of the contract underlying the bond.
55.

The agents of the United States who sold each of the United States savings bonds

at issue in this case had actual authority to bind the United States in contract for the value of the
bond.
56.

The contract underlying each United States savings bond obligates the United

States to repay the principal of the bond, and the interest that has accrued at the stipulated rate, to
the valid owner of the bond once the bond matures and upon request.

16

113a
57.

The federal law and regulations governing the United States savings bonds in

question allow all title to and interest in a bond to be transferred from the original purchaser to a
third party if the transfer is established by a valid judicial proceeding.
58.

The November 20, 2015 Judgment of Escheatment transferred to the State of

Arkansas all right and title to all United States savings bonds that matured on or before October
16, 2008 but had not been redeemed prior to the entry of judgment, that are shown in Treasury’s
books and records as having a last-known purchaser or owner with an address in the State of
Arkansas, and that are not in the physical possession of the State.
59.

The November 20, 2015 Judgment was entered pursuant to a valid judicial

proceeding within the meaning of the relevant federal law and regulations.
60.

The November 20, 2015 Judgment, by substituting Arkansas in the place of the

previous bondholder under the contract underlying each of the United States savings bonds in
question, brought Arkansas and the United States into privity of contract.
61.

The United States has breached the contract underlying each of the United States

savings bonds in question by failing to redeem those bonds upon Arkansas’s request.
62.

The United States’ breach of each of the contracts underlying the United States

savings bonds in question has directly caused Plaintiff substantial damages, in an amount to be
proved at trial.
COUNT II
Breach of Implied Contract
63.

Plaintiff incorporates by reference the allegations of the preceding paragraphs.

64.

In the alternative, each United States savings bond is an implied-in-fact contract

between the United States and the purchaser of the bond.

17

114a
65.

Whenever an individual purchases a United States savings bond, there is an

objective manifestation of voluntary assent by both parties to the contract underlying the bond.
66.

The money paid by the purchaser of each United States savings bonds, and the

United States’ promise to repay the principal and accrued interest after maturity and upon
request, constituted the mutual, bargained-for consideration for the contracts underlying each
bond.
67.

Whenever an individual purchases a United States savings bond, there is an

unambiguous offer and acceptance of the terms of the contract underlying the bond.
68.

The agents of the United States who sold each of the United States savings bonds

at issue in this case had actual authority to bind the United States in contract for the value of the
bond.
69.

The contract underlying each United States savings bond obligates the United

States to repay the principal of the bond, and the interest that has accrued at the stipulated rate, to
the valid owner of the bond once the bond matures and upon request.
70.

The federal law and regulations governing the United States savings bonds in

question allow all title to and interest in a bond to be transferred from the original purchaser to a
third party if the transfer is established by a valid judicial proceeding.
71.

The November 20, 2015 Judgment of Escheatment transferred to the State of

Arkansas all right and title to all United States savings bonds that matured on or before October
16, 2008 but had not been redeemed prior to the entry of judgment, that are shown in Treasury’s
books and records as having a last-known purchaser or owner with an address in the State of
Arkansas, and that are not in the physical possession of the State.

18

115a
72.

The November 20, 2015 Judgment was entered pursuant to a valid judicial

proceeding within the meaning of the relevant federal law and regulations.
73.

The November 20, 2015 Judgment, by substituting Arkansas in the place of the

previous bondholder under the contract underlying each of the United States savings bonds in
question, brought Arkansas and the United States into privity of contract.
74.

The United States breached the contract underlying each of the United States

savings bonds in question when it refused to redeem those bonds upon Arkansas’s request.
75.

The United States’ breach of each of the contracts underlying the United States

savings bonds in question has directly caused Plaintiff substantial damages, in an amount to be
proved at trial.
COUNT III
Unconstitutional Taking of Private Property
76.

Plaintiff incorporates by reference the allegations of the preceding paragraphs.

77.

The contractual rights under each of the United States savings bonds at issue in

this case to receive payment of the principal and interest due under each matured bond upon
request constitute a cognizable form of intangible personal property.
78.

The federal law and regulations governing the United States savings bonds in

question allow all property interest in a bond to be transferred from the original purchaser to a
third party if the transfer is established by a valid judicial proceeding.
79.

The November 20, 2015 Judgment of Escheatment transferred to the State of

Arkansas all title and property interest in all United States savings bonds that matured on or
before October 16, 2008 but had not been redeemed prior to the entry of judgment, that are

19

116a
shown in Treasury’s books and records as having a last-known purchaser or owner with an
address in the State of Arkansas, and that are not in the physical possession of the State.
80.

The November 20, 2015 Judgment was entered pursuant to a valid judicial

proceeding within the meaning of the relevant federal law and regulations.
81.

The United States’ refusal to redeem the bonds at issue in this case upon

Arkansas’s request deprives Plaintiff of all economically beneficial or productive use of its
property in the bonds.
82.

The United States’ refusal to redeem the bonds at issue in this case upon

Arkansas’s request also severely impacts and destroys the economic value of the State’s property
in the United States savings bonds, thwarts its reasonable, investment-backed expectations as the
owner of the savings bonds, and imposes upon the State of Arkansas burdens that, in all fairness
and justice, should be borne by the public as a whole.
83.

The United States’ refusal to redeem the bonds at issue in this case upon

Arkansas’s request is not justified by any background principles of property law.
84.

The United States’ refusal to redeem the bonds at issue in this case upon

Arkansas’s request constitutes an unconstitutional taking of Plaintiff’s private property for public
use within the meaning of the Fifth Amendment of the United States Constitution, and Plaintiff is
entitled to just compensation and interest in an amount to be proved at trial.
COUNT IV
Illegal Exaction
85.

Plaintiff incorporates by reference the allegations of the preceding paragraphs.

86.

The contractual rights under each of the United States savings bonds at issue in

this case to receive payment of the principal and interest due under each matured bond upon
request constitute a cognizable form of intangible personal property.
20

117a
87.

The federal law and regulations governing the United States savings bonds in

question allow all property interest in a bond to be transferred from the original purchaser to a
third party if the transfer is established by a valid judicial proceeding.
88.

The November 20, 2015 Judgment of Escheatment transferred to the State of

Arkansas all title and property interest in all United States savings bonds that matured on or
before October 16, 2008 but had not been redeemed prior to the entry of judgment, that are
shown in Treasury’s books and records as having a last-known purchaser or owner with an
address in the State of Arkansas, and that are not in the physical possession of the State.
89.

The November 20, 2015 Judgment was entered pursuant to a valid judicial

proceeding within the meaning of the relevant federal law and regulations.
90.

The United States’ refusal to redeem the bonds at issue in this case upon

Arkansas’s request violates Plaintiff’s right, under federal law and regulations, to receive
payment for those matured savings bonds it validly owns upon request. See 31 C.F.R. § 315.35.
91.

The United States’ refusal to redeem the bonds at issue in this case in violation of

its duties under federal law and regulations deprived Plaintiffs of their property rights in the
bonds without due process of law within the meaning of the Fifth amendment of the United
States Constitution, and Plaintiff is entitled to damages, including interest, in an amount to be
proved at trial.

PRAYER FOR RELIEF
92.

WHEREFORE, Plaintiff prays for an order and judgment:
a.

Awarding to Plaintiff damages in an amount equal to the matured value of

those United States savings bonds that matured on or before October 16, 2008, that were
not redeemed prior to November 20, 2015, that are shown in Treasury’s books and
21

118a
records as having a last-known purchaser or owner with an address in the State of
Arkansas, and that are not in the physical possession of the State;
b.

Awarding to Plaintiff just compensation for Defendant’s taking of

Arkansas’s property interest in those United States savings bonds that matured on or
before October 16, 2008, that were not redeemed prior to November 20, 2015, that are
shown in Treasury’s books and records as having a last-known purchaser or owner with
an address in the State of Arkansas, and that are not in the physical possession of the
State, in an amount equal to the matured value of those bonds plus applicable interest;
c.

Declaring that Plaintiff owns all legal right, title, and interest in those

United States savings bonds that matured on or before October 16, 2008, that were not
redeemed prior to November 20, 2015, that are shown in Treasury’s books and records as
having a last-known purchaser or owner with an address in the State of Arkansas, and
that are not in the physical possession of the State;
d.

Awarding Plaintiff her reasonable costs, including attorneys’ fees,

incurred in bringing this action; and
e.

Granting such other and further relief as this Court deems just and proper.

22

119a

Dated: January 11, 2016

Respectfully submitted,

Of counsel:

s/ David H. Thompson
David H. Thompson
COOPER & KIRK, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
(202) 220-9601 (fax)
dthompson@cooperkirk.com

Peter A. Patterson
John D. Ohlendorf
COOPER & KIRK, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
(202) 220-9601 (fax)
Joseph H. Meltzer
Melissa L. Troutner
KESSLER TOPAZ MELTZER & CHECK LLP
280 King of Prussia Road
Radnor, PA 19087
(610) 667-7706
(610) 667-7056 (fax)
jmeltzer@ktmc.com

23

120a
IN THE C IRCUIT COURT OF THE FOURTH JUDICIAL C IRC UIT,
WASHINGTON COUNTY, ARKANSAS
FIFTl-1 DIVISION

ANDREA LEA,

Plaintiff,
(

N

v.
MARK MARTIN ,
DrANE MARTIN,
.RACHEL

,,- -

SUSAN REAGAN ,
U.S. SAVINGS BOND NO . Q6132327840E,

Civil Action No. 72 CV- IS-1910-S

U.S. SAVINGS BOND NO. Q6141634466E,
U.S. SAVINGS BOND NO. QSIS0616922E,
UNKNOWN JOI-lN AND JANE DOE
OWNERS, and
MA TURED, UNREDEEMED, AND
UNCLAIMED UN ITED STATES SAVINGS
BONDS WITH PURCHASERS OR
OWNERS WITH LAST KNOWN
ADDRESSES IN THE STATE OF
ARKANSAS ,

I
CERTIFY
INSTRUMENT
COpy OF THE
FILE
gfrE

Defendants.

f\ ,..,w-"

NOW on thi sclJClay of
Complaint

for

Declaratory

Kyl

JUDGMENT

V\/A. _ (\.

4N

Judgment

and

/

from

THAT
IS A

THIS
TRUE
OFFICE

ylve ter, Ci uit Clerk

D.C.

comes on to be heard the Plaintiff s
the

pl eadin gs

as

fi led

herein.

121a
statements of counsel, evidence in open court, and other things and matters appearing, this Court
does find:
I.

That thi s Court has subj ect-matter juri sd iction pursuant to ARK. CONST. amend.

80, § 6, ARK. CODE § 16-13 -20 1, and ARK. SUP. CT. ADMI N. ORDER 18, because it is a civil
matter where the amount in controversy exceeds $5 ,000.
2.

This Co urt ' s determination of venue is made pursuant to ARK. CODE § 16-106-

101 and § 16-60-101 , as recentl y amended by Act 830. H.B. 1252,2015 Arkansas Laws Act 830
(Mar. 31, 20 15), because the last known address of four individual Defendants, Mark Martin,
Diane Martin, Ra",bel
3.

Rpo ::,."I' onrl

';''' 0 0 "

is in Washington

Plaintiff, Andrea Lea, is the Auditor of the State of Arkansas. Her duties include

keeping the accounts of the State and directing prosec utions against all those who possess
propMy lawfull y owned by the State of Arkansas. Her official address is 1401 West Cap itol
Avenue, Suite 325, Little Rock , AR 72201.
4.

Thi s matter is brought before the Couli pursuant to Rule 55 of the Arkansas Ru les

of Civi l Procedure, as the Defendants to thi s action are in default.
5.

The Court find s that the Plaintiff attempted service by Warning Order in both the

Northwest Arkansas edition of the Arkansas Democrat Gazette and th e statewide edi tion of the
Arkansas Democrat Gazette. The Court finds that service by Warning Order was appropriate
under Rule 4(f) of the Arkansas Rules of Civil Procedure.
6.

Arkansas State Auditor, Andrea Lea (" Plaintiff') has brought this action in her

official capacity pursuant to Arkansas Code Almotated § 18-28-23 1, seeki ng a declaratory
judgment that certain matured but ul1l'edeemed United States Savings Bonds that were last held
by Arkansas residents are unclaimed propeliy within the meaning of the State's escheatment

122a
laws, and that all ri ght and titl e to those bonds has vested to the State of Arkansas by operation of
law.
7.

The Co urt finds , based upon the ulU"ebutted pl ead ings and evi dence before thi s

Court, that there are over $ 17 billion worth of unclaim ed sav ings bonds currentl y being held in
the custody of the United States Depm1ment of Treasury (hereinafter " the Treasury"). These
bonds have matured, in many cases several decades ago, and fo r whatever reaso n have never
been redeemed by their owners upon maturity.
8.

The Court find s that the Treasury makes little or no effort to affirmatively seek

out the owners of

:,,; tead, the Treasury simply relams these uncl aimed

bonds for its own use and enjoyment. Arkansas's share of these bonds on national population
fi gures would be approximately one hundred and sixty million dollars ($160,000,000,00).
Despite the effot1s of the Plaintiff, the Treasury has refused to di sclose the identity of the bond
holders. The Auditor of the State of Arkansas, Andrea Lea, has testified that it is her intent to
seek redemption from Treasury of the approx imately one hundred and sixty million dollars'
worth of bonds that are matured, unredeemed , and unclaimed with purchasers or owners with last
known addresses in the State of Arkansas once the Auditor has obtained a judgment declaring
that title to the bonds has esc heated to the State. In the event that Treasury refuses to redeem the
bonds, it is her intent to file an action similar to the action filed by the State of Kansas in the
United States Co urt of Federal Claims in Washington, D.C. The Kansas case is docketed as Estes

v. United States, docket no , 13-101 C.
9.

Earlier thi s year the Arkansas General Assembly adopted an abandoned property

law that specificall y addresses matured, unredeemed United States savings bonds. Under the
provisions of that law, a sav ings bond that goes unredeemed for five (5) or more years after it

3

123a
matures is presumed abandoned, and the title to those abandoned bo nds escheats to the State two
(2) years after that.
10.

Andrea Lea, the Aud itor of the State of Arkansas, has bro ught thi s civil action for

a declaratory judgment making clear that all legal ri ght and titl e to bonds that were last held by
state residents and have now been abandoned has esc heated to Arkansas by operation of law. for
use and safekeeping by the State until such time as the State is abl e to locate thei r owners. The
Co urt find s that it should grant Plaintiffs request for declaratory reli ef as such reli ef places all
propelty ri ghts and legal title to and ownership of all bonds set forth herein currently held in the

--

.,..

II .

-,

Defendants, Mark Martin and Diane Martin are the last-known owners of two

Series E savings bonds, numbers Q6132327840E and Q6141634466E, al so named here as
defendants in rem, which were issued on February 1 and March I, 1977, respecti ve ly. Those
bonds have since been abandoned to the State and, according ly, are in the State's possession. On
information and be li ef, and accord ing to the information printed on the sav ings bonds, Mr.
Martin and Ms. M3Itin are residents of Springdale, Arkan sas.
12.

Defe,1dants Rachel Reagan and Susan Reagan are the last-known owners of a

Series E savings bond , number Q51S0616922E, al so named here as a de fendant in rem , which
was issued on January I, 1974. That bond has since been abandoned to the State and,
accordingly, is in the State's possession. On information and belief, and accordin g to the
information printed on the savings bo nd , Ms. Reagan and Ms. Reagan are resid ents of
Fayetteville, Ark3l1sas.
13.

Defendant John Doe and Jane Doe Owners are those persons who have an

ownership interest in those United States savings bonds that matured on or before October 16,

4

124a
2008, that have not yet been redeemed , are not in the physical possession of the State, and have
Purchasers or Owne rs who last had a known add ress in the State of Arkansas, accordi ng to the
records of the U nited States Department of the Treasury. The identity and location of these
Defendants are unknown.
14.

Those United States sav ings bonds that matured on or before October 16, 2008,

that have not yet been redeemed, are not in the physical possess ion of the State, and have
Purchasers or Owners who last had a known add ress in the State of Arkansas according to the
records of the United States Department of th e Treasury, are also named in thi s acti on as

15.

The Treasury Department began sel ling United States savi ngs bonds at the

conclusion of the First World War, and has sold them continuously ever si nce. Most savings
bonds bear long maturities: 30 or 40 years, on average.
16.

U.S. sav ings bonds have been sold in severa l di fferent "series,'· and the terms of

the bonds vary by series. Series A, B, C, and D bonds were sold fro m March 1935 through April
1941 . Series A, B, C, and D bonds were so ld with 1O-year terms. All Series A- D bonds reached
maturity by April 195 1.
17.

Seri es E bonds were first so ld in 1941. Nearly 4.6 billi on Series E bonds were

sold in thi s country between 194 1 and 1980. Series E bonds so ld between 1941 and 1965 were
given 40-year terms. Between 1966 and 1980, they carried 30-year terms. The last Seri es E bond
was so ld in 1980. The first Series E bonds matured and ceased earning interest in 1981; the last
such bonds matured in 2010.
18.

Series F and G bonds were sold from May 1941 through April 1952. Series F and

G bonds were sold with 12-yea r terms. All Series F and G bonds reached maturity by May 1964.

5

125a
19.

Series H bond s were so ld Ij'OIn June 1952 thro ugh Dece mber 1979. Se ri es H

bonds sold between 1952 and 1957 carried a term of29 years and 8 months; Seri es H bond s sold
between 1957 and 1979 had a term of 30 years. All Seri es H bond s reached maturity by
December 2009.
20.

Series J and K bonds were sold from May 1952 through April 1957. Series J and

K bonds were so ld with a term of 12 years. All Series .l and K bonds reached maturity by April
1969.
2 1.

The Court finds that the Treasury Departm ent does not disc lose records of current

transferred the bonds in some waY--<Jr at least moved from their initi al add ress-before the
bonds matured. Accordi ngly, the owner addresses conta ined in Treasury's registration records
are often no longer accurate w hen the bonds reach maturity. Indeed, the government has
admitted as much. In liti gation in federal court, the government recogni zed that it s ownership
information " is decades old," and it acknowledged " the possibility that most bond purchasers
have moved or that the bond s have passed by inheritance to perso ns other than the purchaser. "

See Transcript of Hearing at 2 1: 18- 22 :2, Estes v. Un ited States, No. 13-1011 C (Fed. Cl. Oct. 24 ,
2014) , ECF No. 26; Defendant 's Supplemental Reply Bri ef in Support of its Moti on to Dismi ss
at 8, Estes, No . 13-IOII C, ECF No. 30. And because of the limitations of Treas ury's records, the
United States General Accounting Office concluded that even if "a thorough search for owne rs
[of matured savings bonds) were completed, the success rate mi ght not be very hi gh." U.S. GEN.
ACCOUNTING OFFICE, UNC LAIMED MONEY: PROPOSALS FOR TR ANS FERR ING UNC LAIMED FUNDS
TO STATES 22 (May 1989), available at http://www.gao.gov/assetsIl501l47740.pdf

6

126a
22 .

The Court find s that when savings bonds matu re, the Treas ury does not attempt to

locate or notify their current owners- even by using the add resses it has on record, or th ro ugh
some genera l fo rm of publicati on. Instead, to redeem a long-m atured U.S. sav ings bond from
Treasury, an owner must affi rmatively contact Treasury wi th a forma l request and p resent to
Treasury either the physica l paper bond, its seri al num ber, or other identifying information.
23.

Owners of matured savi ngs bonds a re freq uently un aware, however, th at they

possess bonds that have matured and are being he ld, wi thout earning furth er interest, by
Treasury. Because Treasury takes no steps to noti fy owners when their bonds mature, and

owners have mi spl aced or simply fo rgotten about thei r bonds. And children and other
beneficiaries of bond-holders may never even have learn ed of the ir ex istence. Moreover, even if
these owners recall that they once purchased or rece ived savings bonds, many cannot meet
T reasury's demand that they present either the physical paper bond or its seri al number, as the
bond may have been lost, stolen, damaged, or destroyed.
24.

The Court find s that as a resul t, there are approx im atel y $ 17.2 billi on worth of

United States savings bonds that have matured and stopped earning interest- man y, several
decades ago-but have never been redeemed. T he Court determines that approx imate ly $160
million , or 0.93%, of that amount corresponds w ith owners whose last known addresses are in
Arkansas. The bulk of these bond s are series E bond s. Until they are clai med, the proceeds due
these unredeemed, matured bonds are held by Treas ury, fo r the use and enjoyment of the federa l
government.

7

127a
25.

The Court find s that those unredeemed bonds last held by Arkan sas residents

represent a ri ght to collect matured principal and interest from Treasury, an intangible property
that was abandoned in the state and is thus subj ect to Arkansas ' s Unclai med Property Act.
26.

Like most states, Arkansas has long had a general "esc heat" statute providing that

property- real, personal , and intangib le- that is abandoned in -state is to be reported and
delive red into the custody of the State, until such time as its owner comes forward to claim it.
ARK. CODE § 18-28-20 1 - 233 . Again like most states, Arkansas's abandoned property statute
e nacts what is known as a "custody" escheat regime : property that has escheated to the State is

comes forward to c laim it. See, e.g., id. § 18-28-2 10(b).
27.

Most states moved towards thi s "custody" type of escheat regime In the mid-

twentieth century, under the influence of the Uniform Law Commi ssion ' s model Uniform
Abandoned Property Act. Before this shi ft , most states had traditional "title" escheat regimes.
Under this more traditional type of abandoned property regime, when abandoned property
escheats to the State, the State takes litle- not simpl y custody- of the property. Whi le a titl e
escheat regime may al so preserve the ability of the ori gina l owner to come forward and reclaim
once-abandoned property, in the interim , all legal rights in the property belong to the State.
28.

The Court find s that all States' Unclaimed Property Acts, whether they provide

for title or custody escheatment, share the same public policy underpinnings: to protect the rights
of mi ssing owners. States like Arkansas have the solem n responsibili ty to locate the mi ssing
propeliy owners and reunite them with their property.
29.

The Co urt find s that Plaintiff. acting on behalf of Arkansas, undertakes efforts to

locale the owners of unclaimed property that has escheated to the State. Every year, the State

8

128a
publi shes in prominent state newspapers li sts of al l property abando ned that year waiting to be
claimed- an event known as the Great Arkansas Treasure Hunt. And the State also maintains a
convenient onl ine portal, https://www.ark.orglauditor/uncl prop/index. php/search/searchCrit, that
indi vidual s can use to determine whether they own any property that has been abandoned and
has escheated to the State.
30.

Arkansas 's Unclaimed Property Act benefits the ri ghtful owners of unclaimed

property directl y, because of the State' s efforts to reunite owners with their property. Citi zens
and taxpayers of the State a lso benefit indirectly because valuable propeI1y held in safekeeping
.

by
31.

good, until returned to

- ",,- ', ' ,-:

The Court find s that a United States sav ings bond constitutes a contract between

the United States and the current owner of the bond. The terms of that contract are set, in part, by
regulations promulgated by Treasury. Congress has authorized Treasury to prescribe " restrictions
on [the] transfer" of savings bonds, as well as "condition s govern ing their redemption." 31
U.S. C. § 3105(c)(3 )-(4).
32.

Pursuant to this statutory grant of authority, Treasury has issued rul es providing

that savings bonds are transferrabl e onl y "as specifically provided in [its] regulations." 3 1 C.P.R.
§ 315. 15. Importantly, however, neither Congress nor Treasury has purported to preempt the
entire fi eld of state property or contracts law. Indeed, Treasury' s regulations in several places
affirmati vely contemplate that ordinary principles of state common law will continue to govern
such things as estate and divo rce law. See, e,g., id. §§ 3 15.22, 3 15.7 1. And in particular,
Treasury 's current rules provide that it will recognize a transfer of titl e to a savi ngs bond if it is
"establi shed by valid, judicial proceedings." ld. § 315 .20(b).

9

129a
33 .

The Court fi nds that as the United States Co urt of Fede ral C laims recently held,

although escheat of an abandoned savings bond under a clisiody escheat regime does not amount
to a valid transfer of the rights and interests in the bond, escheat of the bond' s title to a State,
co nfirmed by a "valid, judicial proceeding[]," vests the legal ownership of an abandoned bo ndand , under § 3IS .20(b), the ri ght to redeem it- in the State . Estes v. United States, 123 Fed. C I.
74 (20 15).
34.

The Court find s that the Treasury has long understood its regul ations as requiring

it to recognize a va lid escheatment of title, In a 1952 Bulletin , T reasury maintained that it would

pursuant to which it "succeeds
SE RVICE, BUREAU

OF

10

Ihe title of the bondh older." TREASURY DEPARTMENT, FISCA L

THE PUBLI C DEBT, PO Bulletin No. 111 (Fe b. 27, 1952). It would not,

however, recogni ze a mere custody esc heatm ent- which wou ld " not pu rport to substitute the
State, .. as the owner 0 f the bonds." Jd.
35.

The Court find s that Treasury took the same pos iti on

111

a 1983 letter to the

Kentucky Department of Revenue:
[TJhe Department's position is that claim s by States for payment o f United States
securities w ill be recogni zed only where the States have actuall y succeeded to the
titl e and ow nership of the securiti es pursuant to valid escheat proceed ings. The
Department does not recogni ze claim s for payment by a State acting merely as a
custodi an , , . .
Letter from C. Gardner, Director, Di vision of Transacti ons and Rulings, to Ronald G. Geary,
Sec'y of Revenue, State of Kentucky Dep' t of Revenue (Sept. 6, 1983).
36.

A few years ago, several States attempted to take custody of unclaimed sav ings

bonds that were last he ld in-state, und er their genera l custody escheat statutes . Treasury refused
to redeem them, and the States sued. The case was ultimatel y appealed to the Thi rd Circu it,
which co ncluded that the States' attempt to take custody of the abandoned bonds was preempted
10

130a
by Treasury ' s regulations- but whi ch reaffirmed th e crucial di stinction between cuslody and litle
escheatment. Treasurer of New Jersey v.

u.s. Dep 'l of Treasury, 684 F.3d 382, 406- 12 (3 d Cir.

20 12).
37.

The Third Ci rcuit held that the States' attempt to take custody of the bonds wou ld

have effective ly substituted the Slales as custodian of the unclaimed bond s in place of Treasury.
Because the procedures that each State provided for an actual bond-holder to regain custody of
hi s bond s were different than Treasury's procedures govern ing redemption, the co urt concluded
that thi s attempt to impose different redemption procedures was preempted as in confl ict with the

38.

The Third Circuit explicitl y noted , however, that this hold ing followed only

because the State pl aintiffs had attempted to take merely cuslody of the abandoned bond s, rather
than title. [n line w ith Treasury' s then-longstandi ng position, then, the cOllli concluded :
[A]s provided in the federa l regulat ions and as recognized by the Treasury, third
parties, including the States, may obtain ownership of the bonds- and
consequentl y the right to redemption- through "va lid[ 1judicial proceedings," 31
C.F.R. § 3 J 5.20(b), so long as they submit certified copies of the judgment or
order affecting ownership and other ev idence that may be necessary to support the
validity of the judgment or order. See 3 1 C.F.R. § 3 15.23 . The Government
through its issuance of the Escheat Dec ision admits as much. Here, however, the
States merel y seek custody of, not title to, the fund s at issue under their uncla imed
property acts .

lei at 4 12- 13 (footnote om itted).
39.

In its bri ef opposing the States' petition for certiorari to the Third Circuit in the

case, the So licitor General represented on behalf of Treasury, once again, that a full transfer of
ti tle to the state- under a ti tl e escheat regime-would come within Section 3 15.20's "j udicial
proceedings" exception, and that this "represents the Department' s considered interpretati on of
federal law. " Brief for Resp' ts in Opp' n at 4, Direclor of Ihe Dep 'l of Revenue of Monl. v.

Deparlmenl of Treasury, 133 S. Ct. 2735 (No. 12-926), 2013 WL 1803570.

J1

131a
40.

A statement that was posted on Treasury's websi te until as recently as May 3,

20 15 represented that:
The Department of the Treasury will recognize claim s by States fo r paym ent of
United States securities where the States have succeeded to the title and
ownership of the securiti es pursuant to val id escheat proceedings . The
Departme nt, however, does not recognize claims for payment by a State acti ng
mere ly as custodian of unclaimed or abandoned securiti es and not as successo r in
title and ownership o f the securities."

EElE Savings Bonds FAQs , TREASURyDIRECT.COM. I
4 1.

The Court finds that States have recently begun to amend the ir abandoned

pro perty laws to provide for tille escheatment of sav ings bonds abandoned in state. Such
....

" --=--G"-"".;"":""

.... -":.- .. ,;;

amendments' extend to savings bonds the great public benefits that those general abandonedproperty laws provide: a loca lly-responsibl e public agency dedicated to reuniting a bandoned
bonds w ith their lawfu l owners, a nd the abi lity to use that valuab le property for the public benefit
in the meantime.
42 .

In 2000, Kansas amended its Abandoned Pro perty Act in just this way : to provide

for title escheatment of savings bonds. When Kansas attempted to redeem the bonds it had
va lid ly taken titl e to, however, Treasury refused, maintaining fo r the first time that unless Kansas
co uld provide the physical, paper bonds, it wo uld not recognize the judgment of escheatment
Kansas obtained as a "valid, judicial proceeding." In doing so, T reasury blithel y reversed its own
decades-long positi o n.
43.

Kansas sued Treasury over the bonds in the Un ited States Co urt of Federal

C la im s, and that court recentl y denied Treasury's motion to di smiss the case, concluding that,

In the current version of Treas ury' s FAQ 's, availab le at http ://goo .gl/d9Xx iM , th e
section on escheatment law has been deleted. But the website Archi ve.org preserved a "cached"
copy of the web page, as it appeared on May 3, 20 J 5, whi ch contai ns the language as it is shown
in Exhibit 3. http://goo.gl/eObRfN .
I

12

132a
consistent with Treas ury's prevIous, longstandin g positi on, its regulations required it to
recognize the escheatment of title in abandoned bond s to a State if th at transfer was "establi shed
by va lid, judicial proceedings." Estes, 123 Fed. CI. 74 (quoting 3 1 C.F. R. § 3 15 .5(b)).
44.

On Jul y I, 20 15, Treasury publi shed notice of a proposed amendment to 3 1

C. F.R. Part 3 15 that wou ld make oflicial its new ly- minted position that even a vali d esc heatment
of Ii/Ie to abandoned savi ngs bonds does not amount to a " valid, judicial proceeding" capable of
legall y transrerring ti tl e. That proposed rul e, however, has not yet gone into effect. Accordingly,
there is nothing in Treasury's regulations that would change what Treasury fo r so long

to an abandoned savings bond has escheated to the State amounts to a " va lid , judicial
proceeding" that legall y vests titl e to the bond in the State.
45 .

On March 20, 2015 , Arkansas amended its Abandoned Pr?perty Act to provide

for title escheatment of Un ited States sav ings bonds abandoned in the State. That amendment
took e ffect on Jul y 22, 20 15.
46.

The new Section 18-28-23 1 of the Arkansas Code provides that a " United States

savings bond held or owing in thi s state is presumed abandoned if the sav ings bond remains
uncla imed for five (5) years after the date of maturity of the United States savings bond." ARK.
CODE § 18-28-23 1(a). Once such a bond is presumed abandoned , it "sha ll escheat to the state
two (2) years after becoming abandoned property ... .,. Jd. § 18-28-231 (b).
47.

To establi sh the esehea tment, the new statute authorizes the State Audi tor to " fil e

a civi l action for escheatment of the United States sav in gs bond . . .. " Id. § 18-28-231(c)( I).
Not ice to any defendant is to be given acco rding to ARK. CODE § \ 6-3- 10 1 et seq. and Rule 4 of
the Arkansas Rules of Civi l Procedure. Id § 18-28-231 (d).

13

133a
If no perso n file s a claim or appears at the hearin g to substantiate a claim or if the
court determines that a claimant is not entitl ed to the property claimed by the
claimant, then the court shall enter j udgment that: (I) The United States savings
bond escheats to the state; and (2) All property rights and legal title to and
ownership of the United States sav in gs bond or proceeds from the Un ited States
savings bond, inc luding all ri ghts, powers, and pri vil eges of survivorship of any
owner, co-owner, or beneficiary, are vested solely in the state.

Jd § 18-28-23 1(e).
48.

The Court find s that unlike a custody escheat law, th en, Arkansas 's new statu te

results in the tran sfer of ririe to the abandoned bo nds in the State. But as with custody
escheatment, a putative owner of an esc heated bond reta ins the abil ity to come fo rward, offer

securing full title and ownership o f the United States savings bond by escheatment." ld. § 18-28231 (g)(2)(A).
49.

The Co urt find s that by operati on o f this new statutory provision, the titl es to all

unclaimed United States savings bonds that were last held by a resident of the State and that
matured on October 16, 2008 (seven years before the filin g of thi s suit) or earlier have escheated
to the State and are now the property of Arkansas. That class of bonds includes all unclaimed
series A through D, F, G, J, and K bonds, which have long-s ince matured. It al so includes all
series E and H bond s that were issued on or before October 16, \ 978, as all of those matured
seven years before this suit was fil ed and are now presumed abandoned and have escheated to
the State.
50.

The COllrt find s that this category of un claimed savings bonds-that have now

escheated to Arkansas- is made lip of two types of bonds. First, it includes bond s that Arkansas
currently physicall y possesses. Those "bonds- in-possess ion" have bee n yielded up to the State
over the years lUlder the pre-existing custody escheatment regime. Three of these bonds in

14

134a
possession, and their record owners, are defendants in thi s lawsuit. By operati on of the new
Section 18-28-23 1, title to those bond s has now escheated to the State.
5 1.

In addition to the "bonds-in-possession," there are many more bonds that

Arkansas does not physically possess but that have go ne uncl aimed in the State and that are
presumed abandoned under Section 18-28-23 1(a). The tit les to these "absent bond s," too , have
esc heated to the State by operation of law. Despite diligent efforts, Plaintiff has not been able to
learn from Treasury the identity of their last-known owners. Accordingl y, they are identifi ed
here simply as John and Jane Doe Owners and as Matured, Unredeemed , and Unclaimed Un ited

-=
Arkan sas.
52.

The Cout1 finds that these absent bonds are subj ect to Section 18-28-23 1, and the

title to th ose bonds has now vested in the State by operation of law. Plaintiff seeks on behalf of
the State of Arkansas and its citizens a dec laratory judgment establishing the State' s legal
ownership of these bonds.
53 .

Andrea Lea, in her capacity as Auditor of the State of Arkansas, brings this civi l

act ion pursuant to ARK. CODE § 18-28-231(c), for a dec laration that all right and legal title in,
and ownership of, certain matured, unredeemed United States sav ings bonds has esc heated to the
State of Arkansas.
54.

Section 18-28-23 1(a) provi des that "a Un ited States savings bond held or owing

in thi s state is presumed abandoned if the savings bond remains unclaim ed for fi ve (5) years after
the date of maturity of the United States savings bond. " Section (b) further provides that sav ings
bonds that are thus presumed abandoned "escheat to the state two (2) years after becoming
abandoned property."

15

135a
55.

The

Co urt

specifi call y

find s

that

defendant

bonds

Q6 132327840 E,

Q6 14 1634466E, and Q51 506 16922 E are presum ed abandoned by operation of Secti on 18-28 23 1, and under Secti on 18-28-23 1(b), title to those bonds has esc heated to the State.
56.

The Court further find s that all absent savings bonds he ld or owing in the State of

Arkansas, according to the records of Treasury, that were abandoned on or before October 16,
20 13- two years before the commencement of this action- were presumed abandoned as of
October 16,2013 and have now escheated to the State of Arkansas by operation of law. All title,
right, and interest in those absent bonds is now vested in the State .
.,., ." .T.h.'A.·CoJJrt finds that the category of absl'P'.

.

all unredeemed

series A through D, F, G, J, and K bonds, and all series E and H bonds that were issued on or
before October 16, 1978.
58.

The Court find s that because no actual owners of these savings bonds have come

forward to substantiate their claims to the bonds, Plaintiff is entitled to a judgment declaring that
"AlI property ri ghts and legal ti tl e to and ownershi p" of those bonds "are vested so lel y in the
state." Id. § 18-28-23 1(e).

16

136a
IT IS THEREFORE CONSIDERED, ORDERED, DECREED and ADJ UDG ED that the
above set forth findings of fact and conclusions of law of the Court shall constitute the lawfu l
order of thi s Court and thi s Co urt spec ifica lly find s th at all property rights and lega l title to and
ownership of savings bonds Q6 132327840E, Q614 1634466E, and Q51506 16922E, as wel l as all
savings bonds that matured on or before October 16, 2008 , that were not redeemed prior to the
date of entry of thi s Judgment, that are shown in the books and record s of the United S tates
Depmtment of the T reasury as having a last-known purchaser or owner with an address in the
State of Arkansas, and that are not in the physical possess ion of the State, are vested so lely in the
. - ' ...

IT IS SO ORDERED.

rey Bryan, Circui t Judge

17

137a
DEPARTMENT OF THE TREASURY
BUREAU OF THE FISCAL SERVICE
WASHINGTON, DC 20227

September 28, 2015

John W. Ahlen
Legal Counsel
Office of the Auditor of State Andrea Lea
230 State Capitol
Little Rock, AR 72201
RE: 2015-08-142
Sent via email at: John.Ahlen@auditor.ar.gov
Dear Mr. Ahlen:
This is in response to your letter dated August 20, 2015, seeking assistance of the United States Treasury in
restoring lost property to Arkansas residents. Given that you are requesting savings bond registration
records we are processing this request under the Freedom of Information Act (FOIA). Your request was
received in our office on August 28, 2015, seeking “...a list of those Arkansas residents who are registered
owners of United States Savings Bonds that have matured and remained unclaimed for a period of five years
or more.”
DISCUSSION
I.

Scope of the terms “bondholder”

Your request seeks records related to “bondholders” of United States savings bonds owned by Arkansas
residents. Your request does not expressly define the terms “bondholders”. Treasury interprets your request
as seeking securities records of all individual or non-individual bondholders whose bond registration has an
Arkansas address.
II.

Scope of Requested Records

Your request specifically seeks, “...a list of Arkansas residents who are registered owners of matured,
unredeemed savings bonds.”
III.

Securities records of non-individual bondholders (Series H)

Records for matured, unredeemed Series H savings bonds of non-individual bondholders are publiclyavailable records. Records responsive to your request for securities records of non-individual
bondholders are available on Treasury’s website at: http://www.treasurydirect.gov/foia/foia_mud.htm
under the subheading: Matured, unredeemed savings and marketable Treasury securities. The
information is updated twice each year, usually in January and July. This information relates only to
non-individuals.

138a

IV.

Securities records of non-individual bondholders (Series A-G, Series J and Series K)

Series A-G, Series J, and Series K savings bonds records are not compiled or searchable based on the
State listed in the bond’s registration. To respond to your request, Treasury would essentially need to
create new records organized by State for non-individual bondholders of Series A- G, Series J, and
Series K savings bonds. The FOIA, however, imposes no such duty on Treasury. See Borom
v.Crawford, 651 F.2d 500, 502 (7th Cir. 1981). Even if an agency has the requested data within its
control, it need not compile or aggregate that information into a new form for the sole purpose of
satisfying a FOIA request. Id. (citing Goland v. CIA, 607 F.2d 339, 353 (D.C.Cir. 1978)). Therefore,
Treasury has no responsive records to your request for non-individual bondholders of Series A-G,
Series J, and Series K savings bonds.
V.

Securities records of individual bondholders (All Series of Requested Records)

Similar to records of non-individual bondholders, records of individual bondholders for the requested
bond series are also not compiled or searchable based on the State in the bond’s registration. For the
same reasons set out in Section IV above, Treasury has no records of individual bondholders of Series
A-G, Series H, Series J, and Series K savings bonds that are responsive to your request.
Alternatively, Treasury has determined that records of an individual's securities fall within the category
of "personnel and medical files and similar files the disclosure of which would constitute a clearly
unwarranted invasion of personal privacy" under the FOIA. 5 U.S.C. 552(b)(6); see generally U.S.
Dep’t of State v. Washington Post Co., 456 U.S. 595, 602 (1982) (noting that exemption 6 applies to
disclosure of “[g]overnment records on an individual which can be identified as applying to that
individual.”). FOIA Exemption 6 protects the privacy of living individuals who own securities as well as
the close survivors of deceased bondholders. Additionally, Treasury regulations assure the
confidentiality of securities records relating to individuals, stating:
(b) Limitations on the availability of records relating to securities.
Records relating to the purchase, ownership of, and transactions in Treasury securities
... will ordinarily be disclosed only to the owners of such securities, their executors,
administrators or other legal representatives or to their survivors or to investigative and
certain other agencies of the Federal and State governments, to trustees in bankruptcy,
receivers of insolvents' estates or where a proper order has been entered requesting
disclosure of information to Federal and State courts. These records are confidential
because they relate to private financial affairs of the owners under this Part.
See 31 C.F.R. § 323.2(b). Accordingly, we are alternatively withholding records of individual bondholders of
Series A-G, Series H, Series J, and Series K savings bonds with last known addresses in the state of
Arkansas, on the basis that the disclosure of this information would constitute a clearly unwarranted invasion
of personal privacy pursuant to Exemption 6 of the FOIA. Disclosure of this information would not serve the
core purpose of the FOIA, which is to shed light on an agency’s performance of its statutory duties.

Page 2

139a

DETERMINATION and APPEAL RIGHTS
For these reasons, your FOIA request is being partially denied, without prejudice. Should you choose to
appeal this response, you must do so within 35 days from the date of this letter. Your appeal must be in
writing, must be signed by you, and should contain the reason(s) why you believe an adequate search was
not conducted. Your appeal should be addressed to the Department of the Treasury, Bureau of the Fiscal
Service, 401 14th Street, SW, Room 508C, Washington, DC 20227. The appeal should specify the date of
your initial request and the date of this letter. If possible, please provide a copy of your request and this
letter.
No fees were incurred in processing your request.
Sincerely,

Denise Nelson
Co-Disclosure Officer
cc: FOIA Files

Page 3

140a

Andrea Lea

230 State Capitol
Little Rock, AR 72201

Auditor of State

November 25, 2015

State ofArkansas

By Electronic & U.S. Mail
Commissioner Sheryl Morrow
Department of the Treasury
Bureau of the Fiscal Service
401 Fourteenth Street, S.W.
Washington, D.C. 20221
RE:

Request for Redemption of U.S. Savings Bonds
that have Escheated to the State of Arkansas

Dear Commissioner Morrow,
As Auditor of the State of Arkansas, I am writing on behalf of the State concerning certain
matured and unredeemed savings bonds that have been abandoned by purchasers or owners with
last-known addresses in the State of Arkansas, according to the records of the United States
Department of the Treasury ("Treasury"). By operation of ARK. CODE § 18-28-231, and as
established in a Judgment of Escheatment issued on November 20, 2015 by the Arkansas Circuit
Court in Washington County, the title to these bonds is now vested in Arkansas. I write to request
the redemption of Arkansas' s bonds.
Like most States, Arkansas has a general "escheat" statute providing that property that is
abandoned in-state is to be reported and delivered into the custody of the State for protection until
its previous owner comes forward to claim it. ARK. CODE§ 18-28-201 - 233. Arkansas recently
amended its general escheat laws to extend similar protection to United States savings bonds that
have been abandoned in the State. Importantly, while the rest of Arkansas's escheatment
provisions provide merely for a transfer of "custody" over the abandoned property to the State,
Section 18-28-231 provides that upon entry of a judgment of escheatment by a court of competent
jurisdiction, "All property rights and legal title to and ownership of the United States savings bond
or proceeds from the United States savings bond, including all rights, powers, and privileges of
survivorship of any owner, co-owner, or beneficiary, are vested solely in the state." Id. at§ 18-2823 l(e).
Under Section 18-28-231 , a "United States savings bond held or owing in this state is
presumed abandoned if the savings bond remains unclaimed for five (5) years after the date of
maturity of the United States savings bond." Id. § 18-28-231(a). Once such a bond is presumed
abandoned, it "shall escheat to the state two (2) years after becoming abandoned property . ... "
www.auditor.ar.gov • (501) 682-6030 • info@auditor.ar.gov

1

141a
Id. § 18-28-231 (b). The statute authorizes my office to file a civil action for a judgment declaring
that the bonds in question have escheated, with notice to anyone with an interest in the bonds
through newspaper publication. Following a hearing, Section 18-28-23 l(e) provides that if no one
has come forward to claim a bond subject to escheatment, "the court shall enter judgment that ...
[t]he United States savings bond escheats to the state."
As State Auditor, I filed an action for escheatment in Washington County Circuit Court on
October 16, 2015, published notice of the lawsuit in the northwest edition of the Democrat-Gazette
on October 18 and 25, and published notice of the lawsuit in the Democrat-Gazette's statewide
edition on October 23 and 30. On November 20, the Court held a hearing to give anyone with an
interest in those bonds that Arkansas does not currently physically possess-the "absent bonds"an opportunity to come forward. No one appeared at the hearing or otherwise filed any claim to
the bonds in question, and on November 20, the Court entered a final judgment of escheatment
declaring that the State now holds title in any savings bonds that (1) matured on or before October
16, 2008; (2) were not redeemed prior to November 20, 2015; (3) are shown in the books and
records of Treasury as having a last-known purchaser or owner with an address in the State of
Arkansas; and (4) are not in the physical possession of the State. A certified copy of this Judgment
is enclosed with this letter.
I am writing to formally request the redemption of these absent bonds. Section 315 .20(b)
of the regulations currently governing the issuance and redemption of savings bonds requires
Treasury to recognize a transfer of title to a bond that is "established by valid, judicial proceedings."
31 C.F.R. § 315.20(b). The November 20 Judgment was issued at the conclusion of such a valid
judicial proceeding; and the enclosed certified copy of that judgment satisfies Section 315.23(a)'s
evidentiary requirements. Accordingly, pursuant to ARK. CODE § 18-28-231, the November 20
final judgment of escheatment, and Treasury's regulations, Arkansas is now the title owner of the
absent savings bonds described in the judgment. See Estes v. United States, 123 Fed. Cl. 74, 8590 (2015); see also Treasurer ofNew Jersey v. US. Dep 't of Treasury, 684 F.3d 382, 406-12 (3d
Cir. 2012).
Of course, by definition Arkansas does not possess the bond certificates of these absent
bonds. But Treasury's regulations conveniently anticipate situations such as this, where the title
owner of a savings bond desires to redeem it even though he no longer possesses the bond's
certificate. Those regulations provide for redemption of lost or destroyed savings bonds if they are
identified by serial number, 31C.F.R.§315.25 or, ifthe serial number is not known, by "sufficient
information to enable the Bureau of the Fiscal Service to identify the bond by serial number," id.
§ 315 .26(b). Here, Arkansas has provided information sufficient to enable your office, after
investigation of your records, to identify the bonds in question: Arkansas is requesting redemption
of all bonds that (1) matured on or before October 16, 2008; (2) were not redeemed prior to
November 20, 2015; and (3) are shown in Treasury's books and records as having a last-known
purchaser or owner with an address in the State of Arkansas. 1 In the alternative, Arkansas hereby
requests a list of the serial numbers of all such bonds pursuant to 31 C.F.R. §§ 323.2, 323.4 which
1

In this letter Arkansas is pursuing redemption only of those savings bonds that it does
not physically possess. I have enclosed a list of all relevant bonds that Arkansas does possess, so
that your office can exclude those bonds when identifying the absent bonds that are the subject of
this request.
2

142a
provide for the disclosure of such information to the owner of the bonds in question. Under ARK.
CODE§ 18-28-231, the November 20 final judgment of escheatment, and 31 C.F.R. § 315.20, the
State of Arkansas is now the title owner of the absent bonds in question.
Arkansas looks forward to your prompt attention to this matter and to your cooperation in
the redemption of the absent bonds. Should you have any questions about this request, or should
you decide that you are not willing to cooperate with Arkansas in the redemption of these savings
bonds, you may contact either my office at the address above or our outside legal counsel in this
matter:
David H. Thompson
Cooper & Kirk, PLLC
1523 New Hampshire Avenue, NW
Washington, D.C. 20036
(202) 220-9600
dthompson@cooperkirk.com

Joseph H. Meltzer
Kessler Topaz Meltzer & Check LLP
280 King of Prussia Road
Radnor, PA 19087
(610) 667-7706
jmeltzer@ktmc.com

If neither my office nor our counsel have heard from you regarding this matter after the
expiration of 30 days, we will assume that you have decided not to cooperate in the redemption
of the bonds in question, and we reserve the right to take any legal action necessary to vindicate
Arkansas's rights as title owner of the absent bonds at that time.
Thank you for your time and anticipated cooperation.
Sincerely,

Andrea Lea
Arkansas State Auditor

cc: Christopher Meade, General Counsel
Margaret Marquette, Chief Counsel

3

143a

DEPARTMENT OF THE TREASURY
BUREAU OF THE FISCAL SERVICE
WASHINGTON, DC 20227

January 28, 2016
Andrea Lea
Arkansas State Auditor
230 State Capitol
Little Rock, AR 72201
(sent via First Class Mail)
Dear Ms. Lea:
By letter dated November 25, 2015, Arkansas requested that the U.S. Department of the
Treasury ("Treasury") redeem certain U.S. savings bonds. Arkansas claims to have acquired
valid title to all matured, unredeemed Series A through D, F, G, J, and K United States Savings
Bonds and all Series E and H United States Savings Bonds that have purchasers or owners who
last had a known address in Arkansas, and which were issued on or before October 16, 1978.
Arkansas specifically requests Treasury redeem savings bonds that the state does not
possess - which Arkansas refers to as the "Absent Bonds." Arkansas does not seek redemption
of bonds it possesses, and those bonds are not the subject of this determination. For the reasons
discussed below, Arkansas's request to redeem the Absent Bonds is denied. This letter and the
documents referenced in it complete the administrative record for Arkansas's November 25,
2015, request to redeem the Absent Bonds.
Background

Treasury has issued savings bonds since 1935 on the credit of the United States to raise
funds for federal programs and operations. Article 8, Section 8, Clause 2 of the Constitution
authorizes the federal government to "borrow money on the credit of the United States." Under
this grant of power, Congress authorized Treasury to establish the terms and conditions that
govern the savings bond program. 31 U.S.C. 3105(c). Treasury' s savings bond regulations
implement this authority, setting forth a contract between the United States and savings bond
purchasers. This contract gives purchasers confidence that the United States will honor its debts
when a purchaser surrenders a savings bond for payment. The contract also protects the public
fisc by ensuring that Treasury does not face multiple claims for payment on a single savings
bond.
To make bonds "attractive to savers and investors," Free v. Bland, 369 U.S. 663, 669
· (1962), Congress authorized Treasury to provide that "owners of savings bonds may keep the
bonds after maturity." 31 U.S.C. 3105(b)(2)(A). The Treasury regulations "do not impose any
time limits for bond owners to redeem the savings bonds" at issue here. New Jersey v. United
States Treasury, 684 F.3d 382, 388 (3d Cir. 2012). "Consequently, their owners can present
them for payment to an authorized agent of the United States at any time." Id.

144a

The redemption process is not complex. New Jersey, 684 F.3d at 388. The registered
owner need only present the physical bond to an authorized payment agent, 31 C.F.R. 315.39(a),
353.39(a), establish his identity, sign the request for payment, and provide his address. The
agent then may pay the bond with a check drawn against funds of the United States. 31 C.F.R.
315.38, 353.38. The owner may also mail them t9 Treasury Retail Securities Site with the
required information, as described on Treasury's web site. 1
Discussion

Arkansas asks Treasury to redeem U.S. savings bonds that have matured but have not yet
been redeemed by their registered owners. Arkansas contends that, under its own law, the
registered bond owners are deemed to have "abandoned" their right to payment by the United
States if they fail to redeem their bonds within five years of maturity, and that this "abandoned"
property escheats to the State two years after it is deemed "abandoned." Based on this law,
Arkansas obtained an escheatjudgment on November 20, 2015.
The November 2015 escheatjudgment was Arkansas's second attempt to convince a state
court to award title over the Absent Bonds. 2 In August 2015, Arkansas filed a complaint for
declaratory judgment in the Circuit Court of the 6th Judicial District, Pulaski County, Arkansas.
See Arkansas Complaint (Aug. 5, 2015). At the outset of this case, Arkansas asked the court to
issue a temporary restraining order (TRO) that would prevent savings bond owners from
redeeming their bonds, without prior notice to any of these owners. The court denied this
request, and issued an opinion recognizing the conflict between federal law and the Arkansas
escheat statute regarding savings bonds, and finding that Arkansas had not provided savings
bond owners with due process. See Order (Aug. 17, 2015) (attached). Rather than continuing to
litigate in this court, Arkansas voluntarily withdrew its complaint and re-filed the case six days
after it was dismissed without prejudice in the Circuit Court of the 4th Judicial District,
Washington County, Arkansas. See Arkansas Complaint (Oct. 16, 2015). That court issued an
uncontested escheat judgment approximately one month later. 3
Treasury recently amended its regulations to clarify the circumstances under which it will
consider a state's request to redeem savings bonds that have ostensibly escheated to the state.
We are addressing Arkansas' claim under both the prior regulations and the amended
regulations. As discussed below, Arkansas's redemption request fails regardless of whether the
amended regulations are considered.
A.

Application of the Prior Regulations in 31 C.F.R. Parts 315 and 353, subp·art E to
Arkansas's Request to Redeem the Absent Bonds

1

See http://www-treasurydirect.gov/indiv/research/indepth/ebonds/res_ e_bonds_eeredeem.htm#how.
We are attaching pertinent documents from the state court escheat proceedings in the Pulaski County and Washington County
Circuit Courts in Arkansas. By this reference, all documents filed in Civil Action No. 60CV- l 5-3638 in the 6th Judicial District
of Pulaski County, Arkansas and Civil Action No. 72-CV-15-1910-5 in the 4th Judicial District of Washington County, Arkansas,
are incorporated into Treasury' s administrative decision record for Arkansas' November 25, 2015, request for redemption.
3
The court' s orders entered in Civil Action No. 72-CV-15-1910-5 in the 4th Judicial District of Washington County, Arkansas,
made no reference to the August, 17, 2015, Order in Civil Action No. 60CV-15-3638 in the 6th Judicial District of Pulaski
County, Arkansas. It is unclear whether Arkansas disclosed the August 17, 2015 Order during the subsequent proceeding in Civil
Action No. 60CV-l 5-3638 in the 6th Judicial District of Pulaski County, Arkansas.
2

PAGE 20F8

145a

1.

The state court escheat judgment is not a "valid, judicial proceeding"
because it rests on a state statute that is preempted by federal law

Under longstanding Treasury regulations, "[s]avings bonds are not transferable and are
payable only to the owners named on the bonds, except as specifically provided in [the federal]
regulations and then only in the manner and to the extent so provided." New Jersey, 684 F.3d at
388 (quoting 31 C.F.R. 315.15, 353.15). Arkansas admits that it is not the registered owner of
the bonds it seeks to redeem. Instead, Arkansas contends that it has secured title to the Absent
Bonds through "valid, judicial proceedings." See 31 C.F.R. 315.20(b), 353.20(b) ("The
Department of the Treasury will recognize a claim against an owner of a savings bond ... if
established by valid, judicial proceedings.").
The state court escheat judgment on which Arkansas relies is not a valid, judicial
proceeding because (inter alia) the judgment rests on a state statute that is preempted by federal
law. Arkansas law provides that a U.S. savings bond is presumed abandoned if it "remains
unclaimed for five (5) years after the date of maturity." Ark. Code 18-28-231(a) (quoted in the
State Court Judgment at 15, if 54). Arkansas law further provides that such bonds shall escheat
to the state "two (2) years after becoming abandoned property," Ark. Code 18-28-231 (b) (quoted
in State Court Judgment at 15, if 54), and that "all property rights and legal title to and ownership
of such United States savings bonds or proceeds from such bonds, including all rights, powers,
and privileges of survivorship of any owner, co-owner or beneficiary, shall vest solely in the
state." Ark. Code 18-28-231(e) (quoted in State Court Judgment at 14, if 47). The state court
relied on these state law provisions in declaring that the Absent Bonds "were presumed
abandoned as of October 16, 2013, and have now escheated to the State of Arkansas by operation
of law." State Court Judgment at 16, if 56.
The provisions of Arkansas law on which the state court relied are preempted by federal
law. These state law provisions have the same fundamental defect as the state laws that were
found to be preempted in the New Jersey litigation: they purport to deem U.S. savings bonds
"abandoned" even though they are not "abandoned" for purposes of federal law. As the Third
Circuit explained, "[i]t is highly significant that the [federal] regulations do not impose any time
limits for bond owners to redeem the savings bonds" at issue here. New Jersey, 684 F.3d at 388.
"Consequently, their owners can present them for payment to an authorized agent of the United
States at any time." Id. By contrast, Arkansas law provides that "matured bonds are abandoned .
. . if not redeemed within a [specified] time period" after maturity. Id. at 407-08. Arkansas'
"efforts to impose the status of 'abandoned' or 'unclaimed' on the Federal Government's
obligations only underscores the conflict between federal and state law, in which federal law
must prevail." Id. at 409. "There simply is no escape from the fact that the Federal Government
does not regard matured but unredeemed bonds as abandoned even in situations in which [the]
state would do exactly that." ld. 4
4

In a 1989 report to Congress, the General Accounting Office ("GAO") explained that amounts that the United States owes to
owners of matured U.S. savings bonds are not "unclaimed" for purposes of federal law "because these moneys are currently
payable to the rightful owners upon presentation ofa proper claim and without any time limitation. " GAO, Unclaimed Money:
Proposals for Transferring Unclaimed Funds to States, at 23 ( 1989); see also id. at 17 (noting that Treasury as of 1989 was
receiving claims of $7,000 to $10,000 a day for payment on savings bonds that had matured many years earlier). In letters that
Treasury sent in 2004 and 2006 in response to various state inquiries, Treasury noted that it had contacted approximately 25,000
PAGE 3 OF 8

146a

A state cannot transform U.S. savings bonds into "abandoned" property by enacting a
state law deadline for the bonds' redemption and declaring that registered owners who miss that
deadline have "abandoned" their right to payment by the United States. U.S. savings bonds are
attractive to purchasers because they have no expiration date. Purchasers pay valuable
consideration for U.S. savings bonds, and they are entitled to the benefits of their contracts with
the United States. By contrast, if a state was permitted to impair those contract rights,
confidence in the U.S. savings bond program would be undermined. The purpose of the U.S.
savings bond programs is to raise funds for the operations of the federal government. 31 U.S.C.
3105(a). State law that impairs that objective is void by operation of the Supremacy Clause.
Arkansas' request to redeem the Absent Bonds does not find support in the historical
Treasury guidance on which it relies. In 1952, Treasury issued a bulletin reprinting a letter from
the Secretary to the Comptroller of the State of New York. 5 The Comptroller was seeking
guidance regarding four U.S. savings bonds that had come into New York's possession when the
registered owner died in a state hospital. Because no person claimed the bonds, the hospital
delivered them to the Comptroller, who sought guidance regarding redemption of the bonds. 6 In
that context, the Secretary advised the Comptroller that Treasury would not redeem the bonds in
the New York's possession unless the state obtained a judgment that conferred title to the state. 7
Nothing in the Secretary's 1952 letter suggested that a state could deem U.S. savings
bonds to be "abandoned" simply because their registered owners did not meet a state-imposed
deadline for redemption. Nor did the Secretary's letter suggest that a state could redeem U.S.
savings bonds that the state did not possess. To the contrary, New York had physical possession
of the bonds, and the circumstances under which it came into possession of those bonds-the
death of the registered owner as a ward of the state and the failure of any other person to claim
the bonds-provided evidence that the bonds were, in fact, abandoned property.
The guidance that Treasury posted on its website in 2000 likewise referred to bonds in a
state' s possession and contemplated that their abandonment would be established by factual
evidence. That 2000 guidance responded to the following frequently asked question (FAQ):
In a state that has a permanent escheatment law, can the state claim the money
represented by securities that the state has in its possession. For example, can a state cash
savings bonds that it' s gotten from abandoned safe deposit boxes?
In answering that question, Treasury made clear that it was insufficient for a state to come into
possession of bonds found in abandoned safe deposit boxes. Treasury explained that it would
not redeem such bonds unless the state also obtained title through valid escheat proceedings.
The 2000 guidance did not suggest that a state could deem a bond "abandoned" simply because
the registered owner failed to meet a state-imposed deadline for its redemption. Nor did the
2000 guidance suggest that a state could redeem a bond that it does not possess.
owners of matured savings bonds; that about 90 percent had the bonds in their possession; and that the remaining I 0 percent
indicated that they probably would fi le a claim for lost bonds so that they could receive payment from the United States.
Illustrative letters to South Dakota and Florida are attached.
5
Public Debt Bulletin No. 111 , Subject: State Statutes Concerning A bandoned Property (Feb. 27, 1952), at I .
6
7

Id.
Id. at 3.

PAGE 4 OF 8

147a

In letters sent in response to various state inquiries in 2004 and 2006, Treasury repeatedly
advised states that it would not consider requests to redeem bonds that the state did not possess. 8
You have not identified any instance in which a state has redeemed a U.S. savings bond that was
not in its possession.
Arkansas may also rely on the Brief in Opposition to the Petition for a Writ of Certiorari
in the New Jersey case. But that opposition brief expressly relied on the preemption principles
that foreclose Arkansas' claim. The opposition brief explained that the states' argument
ignores the fact that the bond proceeds they demand are not "unclaimed" under the
federal statutory and regulatory framework. See Pet. App. 49a. Rather, federal law
provides that a bondholder may redeem a savings bond at any time after maturity, thus
permitting bondholders to delay redemption without fear that the proceeds of their bonds
will be paid out to a third party. See 31 C.F.R. 315.35(c), 353.35(b). It is therefore
puzzling that petitioners contend that "Congress and Treasury have declined to address"
the circumstance "where the registered owner has not come forward to redeem a bond at
maturity." Pet. 19. They clearly have, and the federal scheme does not leave room for
States to upset the bargain between the United States and the bondholder by enacting
laws that declare the proceeds of the bonds to be "unclaimed." See Arizona v. Bowsher,
935 F.2d 332, 333-334 (D.C. Cir.), cert. denied, 502 U.S. 981 (1991); see also Pet. App.
49a ("[T]he bond proceeds are not 'abandoned' or 'unclaimed' under federal law because
the owners of the bonds may redeem them at any time after they mature, and thus
Congress has not been silent with respect to the fate of the proceeds of the unclaimed
bonds.").
Brief for Respondents in Opposition, Director of the Department of Revenue of Montana v.
Department of the Treasury, No. 12-926 (2013), 2013 WL 1803570, at *15-16. For the same
reason, Arkansas cannot transform matured U.S. savings bonds into "abandoned" property by
imposing a deadline for their redemption.
Consistent with its prior guidance and prior regulations, Treasury has informed other
states that it will redeem certain bonds that had come into the state's possession and for which
the states had obtained title through a judgment of escheat. 9 In various cases Treasury has
reviewed, the states indicated that most of those bonds had been turned over to the states by
banks because they had remained in a safe deposit box for some amount of time after the lease or
rental period on the box expired. 10 The states also submitted evidence indicating their substantial
efforts to locate the registered owners, whom the states identified by name, and to reunite them
with their lost securities. 11 In those cases, Treasury concluded that, overall, the facts presented
supported the state's claims that the bonds were actually abandoned." 12 Because those states
8
In 2004, Treasury sent nearly identical letters to Connecticut, the District of Columbia, Illinois, Kentucky, New Hampshire,
North Carolina and South Dakota rejecting their claims to a class of bonds they did not possess. In 2006, Treasury sent a similar
letter to Florida. See n.4, supra (discussing the same letters).
9
See, e.g. , Letter of October 1, 2015 from Treasury to South Dakota Treasury Secretary Sattgast, at 5. We understand that you
already possess copies of South Dakota' s redemption request letters to Treasury.
10
See, e.g., South Dakota' s Motion Seeking Leave to Effect Service by Publication at 4,
11
Letter of October 1, 2015 from Treasury to South Dakota Treasury Secretary Sattgast, at 5.
12

Id.

·

PAGE 5 OF 8

148a

possessed the bonds and could surrender them for redemption, "the risk of liability or expense
resulting from double payment on the bonds" was decreased. 13
By contrast, Treasury is not granting Arkansas' request to redeem the Absent Bonds.
Arkansas does not possess these bonds and did not present evidence showing that the bonds were
actually abandoned, rather than in the possession of the registered owners or their heirs. As
Treasury explained in denying an analogous redemption request made by Kansas, "Treasury is
bound by its contract to the registered owners of these savings bonds, and would violate that
contract if it redeemed them to a third party." 14 "Federal law of course governs the interpretation
of the nature of the rights and obligations created by the Government bonds themselves." Free,
369 U.S. at 669-70. Federal law allows the registered owners of U.S. savings bonds to keep their
bonds after maturity and to present them for payment at any time. And as the Third Circuit
correctly held, a state has no power to abrogate the contract between a registered bond owner and
the United States.

2.

The state court proceeding is not a "valid, judicial proceeding" because it did
not comport with due process

Arkansas ' Absent Bond claim also fails under the prior regulations for the independent
reason that the state court proceeding did not comport with the Due Process Clause of the
Fourteenth Amendment.
First, the state court did not identify a constitutional basis for exercising in rem
jurisdiction over the Absent Bonds. Although a state court may exercise in rem jurisdiction over
property within its borders, Burnham v. Superior Court of California, 495 U.S. 604, 617 (1990),
the state court did not find that the Absent Bonds are in Arkansas and there was no evidence in
the state court record that would have supported such a finding. The bonds are "Absent" and
Arkansas knows nothing of their whereabouts. The fact that bonds may have been issued many
decades ago to persons with Arkansas addresses reveals nothing about the present location of the
bonds or their registered owners. Indeed, in the parallel Estes litigation, Kansas admitted that the
long maturities of U.S. savings bonds meant that "registered owners, if still living, had likely
moved one or more times while the bonds were outstanding." Estes Complaint at 12-13 ,-r 46.
Also, "[i]n many cases, bonds pass by inheritance to persons other than the purchaser," id., and
there is no reason to believe that the heirs reside in the state in which the purchaser lived when
the bonds were purchased decades earlier.
Second, the state court failed to give the owners of the Absent Bonds constitutionally
adequate notice of the escheat proceeding. Under the Due Process Clause, "individuals whose
property interests are at stake are entitled to 'notice and an opportunity to be heard."' Dusenbery
v. United States, 534 U.S. 161, 167 (2001) (citation omitted). Notice must be "reasonably
calculated, under all the circumstances, to apprise interested parties of the pendency of the action
and afford them an opportunity to presenttheir objections." Id. at 168 (citation omitted). In
13
Id. Treasury subsequently reached the same conclusion with respect to certain additional bonds that had come into South
Dakota' s possession and to which the state had obtained title through a judgment of escheat. See Letter of November 9, 2015
from Treasury to Mr. Milbourn.
14
Letter of October 16, 2013 from Treasury to Kansas Treasurer Estes, at 1.

PAGE60F8

149a

Dusenbery, the Supreme Court concluded that this standard was met because the government had
(among other things) sent notice of a forfeiture action by certified mail to the property owner
care of the federal prison where he was then incarcerated; to the address of the residence where
he was arrested; and to an address in the town where his mother lived. Id. at 164. Here, by
contrast, Arkansas merely published a general notice of the escheat proceeding in various local
newspapers around the state. See State Court Judgment, at 2 iJ 5. That notice did not name the
Absent Bond owners. See Warning Order (image of notice attached). Moreover, there is no
reason to believe that the Absent Bond owners reside in Arkansas. The failure of even a single
Absent Bond owner to appear at the hearing only confirms that the notice gave them no reason to
believe that their property interests were at risk.

In sum, even assuming that Arkansas ' request to redeem the Absent Bonds should be
considered under 31C.F.R.315.20(b) and 353.20(b), the state's claim of ownership was not
"established by valid, judicial proceedings" and is therefore denied.

B.

Application of the Final Rule to Arkansas's Request to Redeem the Absent Bonds

Treasury also considered Arkansas' s request to redeem the Absent Bonds under the final
rule issued last month. See 80 Fed. Reg. 80258 (Dec. 24, 2015). The final rule clarifies the
circumstances under which Treasury will consider a state' s request to redeem savings bonds
based on a judgment of escheat.
As particularly relevant here, Treasury clarified that it will not redeem bonds that the
state does not possess. See 31 C.F.R. 315.88(a) and 353.88(a) (providing that Treasury "will not
recognize an escheat judgment that purports to vest a State with title to a bond that the State does
not possess"). The fact that a bond has come into the possession of a state demonstrates that the
bond is not in the possession of the registered bond owner, because the physical bond can be in
only one place at a time. And, as discussed above, a registered owner may present his physical
bond for payment by the United States at any time. Allowing a state to redeem bonds that it does
not possess would impair the rights of the registered owners, undermine confidence in the U.S.
savings bond program, and expose the United States to multiple claims on a single bond.
Because Arkansas does not possess the Absent Bonds, its request to redeem those bonds is
denied.
The final rule also confirms that Treasury is not bound by a state court escheat judgment
and may require a state to present evidence that the bonds have been abandoned by all persons
entitled to payment under federal law. See 31 C.F.R. 360.77(a). Arkansas ' s assertion that the
state court judgment binds Treasury turns the principle of federal supremacy on its head. It has
been settled since McCulloch v. Maryland, 17 U.S. 316, 322 (1819), that states have no power to
regulate the operations of the federal government. See New Jersey, 684 F.3d at 409-10. The
U.S. savings bond is a federal program to raise funds for the operations of the federal
government. If Arkansas wishes to raise funds for its own operations, it is free to sell Arkansas
bonds, but it cannot interfere with the federal savings bond program.
The final rule also clarifies that Treasury will not consider escheat proceedings under 31
C.F.R. Parts 315, 353 , and 360, subpart E. That subpart does not apply to claims derived from in
PA GE 7 OF 8

150a

rem proceedings, judicial determinations that impair the rights of survivorship of co-owners and
beneficiaries, or other proceedings that are not specifically listed in subpart E. Arkansas's claim
is properly considered under the regulations that specifically apply to escheat proceedings.
If you have any questions, please direct your inquiries to Paul Wolfteich, our Acting
Chief Counsel.
Sincerely,

Dara Seaman
Assistant Commissioner
Treasury Securities Services
Bureau of the Fiscal Service
United States Department of the Treasury
Enclosures:

Selected documents filed in Civil Action No. 60CV-15-3638,
61h Judicial Circuit Court, Pulaski County, Arkansas
Complaint for Declaratory Judgment (Aug. 5, 2015)
Motion for Service by Warning Order (Aug. 5, 2015)
Motion for Temporary Restraining Order (Aug. 5, 2015)
Order (Aug. 17, 2015)
Renewed Motion for Service by Warning Order (Aug. 27, 2015)
Order (Sept. 16, 2015)
Motion for Voluntary Dismissal (Oct. 8, 2015)
Order of Dismissal (Oct. 9, 2015)
Selected documents filed in Civil Action No. 60CV-15-3638,
lh Judicial Circuit Court, Washington County, Arkansas
Complaint for Declaratory Judgment (Oct. 16, 2015)
First Affidavit for Service by Warning Order (Oct. 16, 2015)
Second Affidavit for Service by Warning Order (Oct. 16, 2015)
Warning Order (Oct. 16, 2015)
Motion for Temporary Restraining Order (TRO) (Oct. 19, 2015)
Order granting TRO (Oct. 20, 2015)
Order extending TRO (Nov. 2, 2015)
Second Order extending TRO (Nov. 16, 2015)
Treasury Letters to South Dakota (2004) and Florida (2006)

cc: David H. Thompson, Esq. (via email - dthompson@cooperkirk.com)
Joseph H. Meltzer, Esq. (via email - jmeltzer@ktmc.com)
PAGE 8 OF 8

151a

O$ i 02 1 200-l 10: 58 FAX 202 219 U63

OEPARTME:NT OF THE TREASURY
BUREAU OF THE PUSL. I C OEST
WASHINGTON . DC 20239·0001

AUG U

200\

The Honorable Vernon L. Larson
South Dakota State Treasurer

500 East Capitol A venue
Pierre, SD 57501-5070

Dear Mr. Larson:

I am responding to your letter to Secretary Snow about matured but unredeemed
U.S. Savings Bonds. As overseer of South Dakota's Unclaimed Office, you asked that
Treasury disburse to South Dakota an amount equal to its estimate of the value of
matured but unredeemed savings bonds held by residents of the state.
The Department of the Treasury does not have the legal authority to pay the State of
South Dakota the estimated value of matured but unredeemed bonds held by the citizens
of South Dakota. The Secretary of the Treasury issues U.S. Savings Bonds pursuant to
the authority contained in Article I, Section 8, Clause 2 of the United States Constitution,
and Title 31, United States Code, Section 3105. A U.S. Savings Bond is a federal
contract between the United States and the registered owner on the bonds, and under
federal regulations payment may only be made to the registered owner. In order for the
bonds to be paid to South Dakota, it must have possession of the bonds, statutory
authority to obtain title to the individual bonds, obtain an order of escheat from a court of
competent jurisdiction vesting title in the state to the individual bonds, and apply to the
Department of the Treasury for payment.
As of June 30, 2004, there were approximately 31 million savings bonds in the hands of
the public with a value of approximately $12.3 billion that are matured but unredeemed.
The $12.3 billion represents our obligation to pay, in perpetuity, the owners of these
securities when the bonds are presented for redemption. We have worked to encourage
owners of matured savings bonds to redeem those bonds and put their money back to
work. In addition to outreach through the media, our website, and more directed
communications, we have staff who work to locate owners.
Over the past few years we located some 26,000 owners of matured bonds to advise them
that their bonds had stopped earning interest and to encourage them to redeem the bonds.
In doing so we found that:
•

70 percent had the bonds in question in rheir possession and lrnew they had
stopped earning interest but cbose not to redeem them at present.

•

20 percent had the bonds but were unaware that the bonds had stopped earning

interest.

www.t:reasurydirect.gov

14! 003

10 : 58 FAX 202 219 4163

152a
2

•

1Opercent didn't know they had bonds or didn't know where they were and
indicated they would probably file a claim for lost bonds so we could make

payment.

As you can see, many people holding matured bonds have made a conscious decision to
hold on to their securities despite the fact that they are no longer earning interest It has
also been our experience that approximately 75 percent of matured bonds are redeemed
within nine years after they stop earning interest, whjch tends to confirm that many
owners or their successors have these bonds and eventually redeem them.
At present, we believe th.at continued outreach to bond owners directly and through
public education efforts will help convince these investors to put their money back to
work If you have any questions or would like to discuss this further please feel free to
contact me.
Sincerely,
-"

Van Zeck
Commissioner

cc:

Ms. Matty

PA

Dean Adams

019 / 054

.t H'U

153a

•

DEPARTMENT OF THE TREASURY
BUREAU OF THE PUBLIC DEBT
PARKERSBURG, WV 26106·1328

. October 6, 2006

Richard I. Donelan:, Jr.
Chief Counsel, Division of Legal Savices
200 Eastgaines Street
Fletcher Building Stilte 464
Tallahassee, FL 32399-0333
Dear Mr. Donelan:

I am responding to your letter to Commissioner Zeclc about matured but unredeemed
United States Savings.Bonds. As counsel for the Florida Chief Financial Officer and
head of the Department of Financial Services, you requested that the Department of the
Treasury pay to the state of Florida an amowit of money representing the proceeds of all
matured but unredeemed savings bonds belonging to Florida residents. In support of
your request, you cited Section 716.0l, et seq., Florida Statutes.
The Secretary of the Treasury issues United States Savings Bonds pursuant to the
authority c.ontained in Article I, Section 8, Clause-2 of the United States
and
Title
United States Code, Section 3105 . . A United States Savings Bond is a federal
c.ontract between the United States and the registered owner named on the bonds, and,
under the governing federal regulations, the registered owner of a bond is conclusively
presumed to be the owner. See, e.g., 31 C.F.R. §§ 315.5-and 353.5. Payment on a bond
may only be made to the owner of the bond upon presentation
delivery of the bond.
See, e.g., 31 C.F.R §§ 315.15, 315.35, 315.39, 353.15, 353.35, and 353.39. The
regulations are incorporated into the bond contract by reference and a.re governed by
federal law. See, e.g., Free v. Bland. 369 U.S. 663 (1962). To the extent there is any
conflicting or interferirig state law, the federal law govCming the bonds governs. Id. at
668. The obligation to pay the registered owner is in perpetuity, and does not cease when

and

the bond matures.

The applicable regulations would pennit the state of Florida to be paid for the bonds,

pursuant to an appropriate state statute and after due process, by obtaining an order of ·
escheat from a court of competent jurisdiction vesting title in the state, and then applying
for payment to the Department of the Treasury pursuant to the procedures established by
the regulations that all bond owners must utilize. The Treasury Department has no
authority to pay Florida (or anyone else) the proceeds of matured but unredeemed savings
bonds owned by the residents of Florida outside the context of these procedures.
While not strictly relevant to the procedures that Florida must follow to obtain the
proceeds of matured but unredeemed savings bonds, it may be useful to know that a bond
owner's failure to redeem matured savings bonds in no way suggests that the bond owner

020 / 054

BPD

154a
2

has abandoned the property. A )'.'ecent survey of owners of matured bonds showed that
over 54 percent of the individuals who were contacted had possession of the securities.
The remaining bond owners were planning to file a claim for the proceeds of the bonds.
It has also been our experience that approximately 75 percent of matured bonds are
redeemed within 9 years after they stop earning interest, which tends to confinn that
many owners or their successors have these bonds and eventually redeem them.

Over the past few years we have been successful in over 64 percent of our attempted
contacts with owners of matured savings bonds. The purpose of these contacts was to
advise owners that their bonds had stopped earning interest and to encourage them to
redeem the bonds. In doing so, we found that an average ofless than 28 percent of the
individuals who were contacted chose to redeem the bonds or file a claim requesting
payment for the secmities within one year of our contact This is another indication that
the bond owners will request payment at a time that is most beneficial for them and not
necessarily when the seeurities have ceased to earn interest
I hope this information is useful. If you have any questions or would like to discuss this
further, please feel free to contact me.

ZPaavrFrcd Pyatt
Assistant Commissioner
Office of Investor Services

[4J 051/054

155a

TREASURY DE?ARTE::;NT

?D Bulletin No. 111

Fiscal Service·
Washington, February 27, 1952

Bureau of the Public Debt

To Federal Reserve Banks, Fiscal Agents of ths United States, and Others
Concerned:

·subject 137:

e

STATE STATUTES CONCERNING

PROPERTY.

For the information of Federal Reserve Banks as to the present attitude
of the Department toward State statutes purporting to vest abandoned property,
including United States securities, in certain State officers, there follows
a copy of a letter from the Secretary of the Treasury to the State Comptroller
of the State of New York, dated January 28, 1952.

E. F. Bartelt
Fiscal ASsistant Secretary

"With your l5tter to tho Department dated .April 16, ·1951 was
enclosed a copy of your letter of
date to the Bureau of
Public Debt. This correspondence donls with questions concerning
the right, or the prospective right, of_ the State of New York, acting through its State Comptroller, to reoeive payment of certain
United States securities of which it is not the registered ownur.
your letter to
Department describes a contemplated
legislative program by which New York would greatly broaden its
program of custody or escheat of tho proceeds of securities of the
United States, the letter to the Bureau of the Public Debt is confined to claiming
of four bonds registered in the name
of one William E. Thompson. These bonds total
in face amount,
and will mature at various dates in 1952 and 1954. Mr. Thompson
died in 1946
Hudson River State
a state institution
for mental patients. No person claiming possession, the hospital
authorities delivered the bonds to the State Comptroller on Maroh 31,
1951 pursuant to Soc. 128 of the State Finance Law and Sec. 1304 of
tho Abandoned Property Law (both of New York).
11

0ne paragraph of your letter to th13 Bureau reads as follows:
'On prior occasions we have sought redemption
of similar bonds received by
state comptroller
uilder similar circumstances and have met with technical obstacles rnised by your 3ureau. You have,

GOV00000092

f4l 052/054

156a

.

'

- 2 -

&t
advised us thct you would not pay the
state comptroller as succossor
provisions
of the State Finance Law and the Abandoned Property
Ln.w and hav0 indicn ted that you would pay tho sta.te
comptrollsr wero he claiming e.s a creditor of tho
estate and that you would pay the state comptroller
if ho were claiming as an
of the
estate of the deccasod obligee. WG havo not bean
to reconcile your position. The title of an
administrator would rest upon the statutory law of
this stato. Tho titlo .of thEl stato comptroller as
custodian undor the Abandoned
Law and the
State Finance taw also rests upon tho statutes of
this state. We do
why you would
recognize a title under ono statuto while denying
claim of o. porson holding title under another statuto. In other words, we fail to understand why tho
Surrogate's Court Act of this
under which an
administrator would act, would be recognized by you,
nnd the State Finance Law and Abandoned Property Law
provisions would be ignored by you.'
"The Department's position e.s to the claim to the four Thompson
bonds will throw same light on your
project} and I do not
discuss such ?reject further at this time.
"The Department is of course aware of Anderson National Bank v.
Luckett, Commr. (.1944) 321 U.S. 233 e.nd Connecticut Mutual Lifo InCo. v. Hoorc, Comptroller (1948) 333 U.S. 541. Howovor, as
we read thGsc casos they fail to support the present claim of New
York, c.nd at least the Connecticut Mutual case indicates that this
Dcpc.rtmcnt cc.::mot ucocdo to your request. On page 546 thereof the
Supreme Court re:cognizod that the provisions of tho New York Abandoned Property Law, ·as applied to tho proceeds of insurance policies,
effected chnngcs in the contracts between the insurers and
persons insurGd. Now tho proceedings under the Now York statute, and
particularly tho paymont of funds int'o the custody of tho sta to,
c-i thcr provide the obligor with a discharge, valid_ within o.nd without Now York, or fail to provide such discharge. If the
is provided in the case of the ordinary debtor, then the other party
to the contract has had substituted for
right to
his obligor in any jurisdiction, a. right merely to prosecute a claim against
the State Comptroller of New York; if an effcctiv0 discharge is not
provided, the obligor is subject to suit outside the State of Now York
and to th0 necessity of making double payment--in exchange he has a
·right to claim relief from the Ccmptrollcr under Sec. 1406 of the
;_bandoncd Property Le.w.
"Neither cf these possible alt::;ra-cions of contract is contemplated
in the agreement by which
United States pledges its faith oo its
securities.
it is established
even in the cuso of negotiable

GOV00000093

[41 053/054

157a

3 -

instruments •Th8 ri&hts and duties of the United States * * • arc
governed by
rather than local law.' Clearfield Trust Co. v.
States (1943) 318_U.S. 363, 366; sec also National Metropolitan
Bank v. United states (1945) 323 u.s. 454, 456. Accordingly, tho alterations proposed by New York lnw must fail o.s affecting federal contracts.
T!lis position is not, we think, in nny sense inconsistent with the
willingness to pay in ccrtaln oases, as noted in your abovequoted letter. Payment according 'to explicit terms of regulations is
plainly an obligution of the Government. Sec, for
31 CFR
315.13(b) dealing with payment of a savings bond to e.
creditor, and 31 CFR 315.47(a) dealing with payment to the •duly qualifisd
ropresontativo of the estate• of a decedent bondholder. But oven wh2re
no explicit rofcrcnco is made in the regulations to a particular case,
the Department will pay one v.:ho succeeds to the title of' the bondholder.
This is not regarded as a violation of the agreement, but, on the contrary, as pll:Jlllcnt to the bonciholdcr in t.ho person ot' his successor or
Thus, although tho
do not mention such
ca.;e, tho Dcpo.rt:mcnt recognizes the titlo of the stato when it makes
claim based upon a judgment of escheat. As remarked by Cardozo, J. in
Rc 1!r:lrosc l;.vo. in Borough of Tho Bronx (1922) 234 N.Y. 48, 136 N.E.
235, 236, in escheat tho state is 'tho ultimate heir.' Similarly, I
may c.dd, if the regulations nci thcr recognized nor- prohi bi tod payment
to the csto.tc of a. decedent tho Department would novortholcss think
its obligation clear to recognize the title of an executor or
trutor. On the subject of payment of an original creditor or claimant
through pnyment to one who stands in his shoos,. soc Kane v. Paul (U.S.
1840) 14 Pet. 33, 40 (f'or the purposes of administration an executor
llrc.s much t.lcc
proprietor of those chattels, o.s was the testator
him so lf while o.li ve 1 11 ); Now York Mutual Lifo Ins. Co. v. l.rmstrong
(1886) 117 rr.s. 591, 597 {"The term 'legal roprosontativcs 1 is not
necessarily restricted to the personal representatives of one
but is sufficiently broad to cover all parsons who, with respect to
his property, stand in his place and represent his interests, whether
to them by his act or by operation of law"); 3:o.rris v. B::tlk
(1905) 198 U.S. 215, 226 (an attaching creditor ·is 'c. representative of
the creditor of tho garnishee'). For casas whcro tho United States, as
debtor, recognized tho right of a new party to step into the shoos of a
claimo.nt, soo Houston, Secrotnry of the Treasury v. Ormes (1920) 252
469 und !.Jellon, Soorcto.ry of the Treasury v. Orinoco Iron Co. (1924) 266
11

u.s.

121.

11
Now the statutes under
you clnim payment of the bonds registered i.::l the name of ::.:r. Thompson do not purport to substitute the State
o:f
York for ·him as the own':lr of tho bonds. This is o lear from opinions of the
of' New York, addressed to tho
;.Lldit o.nd Control. (In (r.Y.) 1947, Op. Atty. Gen. 135, relying upon
Sees • 128 and 1304, supra, he stated that the New York _;.bundoncd Property
lAw
'is r..ot an escheat statuto * * •. J,be.ndoncd property upon being turnod ov2r to the Comptroller
not become the property of thu State;

GOV00000094

f4l 054/054

158a

- 4 insteud tho

its

and custody

-in a special fund (stutc Finance Law

95)

for the benefit of those
to receive it,
and any person who can provo his right to such
property is entitled to have it paid
to
him e.t any time (;lbandonod Property Law Sec.
1406) •

I

Ir. (Y.Y.) 1945, Op.
Gon. 132 the Attorney-Genora1 udvised, with
to proposed payments by the Comptroller out of the fund, thc.t
c.n r.xccutor of a will cr the administrator of tho osto.to of a
generally has 'the legal title of the decedent.' Sco also
1945,
Op. Atty. Gen. 116; 1945, Op. Il-c-ty. Gen. 131; 1945, Op.
Gen. 15.3.

rc

Instoo.d of substituting New York for Mr. Thompson as tho lognl
person cntitl(d, the New York statutes recognize tho continued existof Thompson's claim, while attempting to chango tho obligor's
(iYhether state administrative proceedings--us distinguished from judicial proceedings--might under any circumstances
be comoctcnt to tro.nsfr:r titlE' from a bondholder to the State of lkw
York it is not- necossa:r-y to decide at this timo:)
11

Since tho claim which you make is neither within the explicit
languo.gc of the regulations nor based upon the stato 's succc.ssion to
the interest of :Mr. Thompson, complio.nco with it would violate the
agreement of
United States with the bondholder.
11

tho.t this somowho.t detailed statomcnt of the Department's
If, however, the
State of New York docs not ngrco, and will so advise tho
thon upon the State's request I shall be pleased. to refer the case to
tho Court of Claims, pursuant to 28 U.S.C. Supp. N, 1493, for the
rendition of a judgment which
establish tho respective rights of
tho parties horsin.
11

I

views in this mattor will lend to your concurrence.

11

Very truly yours,

(Signed)

JOHN W. SNYDER

Secretary of tho Treasury"

GOV00000095

[4J 049/054

159a

(

L/

'":"HE DEPARTMENT OF THE TREASURY

S
(- • '-f

FISCAL SERVICE
WASHfNGTON. D.C.

/er.

• , -· 2

20226

BUREAU OF THE PUBLIC DE!IT

//-.i

.

-

c..,__ ·_--;-......_

/2 -S /7 2
/.

NO\/ l 9 1971

'.D1:!..s rcf'cz-s to the corrcsrond:=nce y::m sel!t t":U-lier to our
cf:fice
,or the Genc-r:?l
concernit'!.g the
ol ::;cme
214, 0-.) J in tne 'Vni te1. St.:i.tes 'Ire.'!.surJ .?r.i Serie!; B
bo!l.!S v'..lic."'J wero
:received. b.:;r yo.ir or"t'ice
to th!'.' Ind..iana.
Pro,!)erty Act.
"".::l "!

to t:-,e

I rei;ret t!'lc del..'!:r in
yoa !l
l-etter3
be.:-n under
oy O'.:r C-!icf Cou..-::4:-l' s office. I
th'1t thej"
were
vit!:i
.;'!''j7J seve:-<i.l. ot':::ler
for the
Q; worid.r.::; out, 1 f p=J::l.J
to the
-Er::'..l p·c·ol,.e!!! o.f rec::-:;::ni::ir..,3
by the :::e·.rerc..l St::.te:J (or J.;Jcsl jurisd.ictiops) to SO-C.'.!..lled
or ab-'.!.n:-boe-1 !..'!!i!:;ed. State3 i;ecur!tie.::;.
Alth·:>uf.h 01.ir legal. stu.-'ly cf the
has not
conclu.i<?d, I bi:lte·,ra
it rn.!..bht be h!!lpi'cl.. t:::> di:!cus.:J s=c or t;1-:?
i.rwolvei.
c
rip,.'"lt toreet:!ivaor ao:::.!110.::lC:l C·.)Ve:ri:•t:nt.
it Le:::. 'rne first or
.r-=ll'.tes to th'? is:.:.ie f'_G t.-:::> l."'·:ie:=.e±- ":.he
ha..s
1 tJ

t:!.t1e

it is r.ctin?,
a re'!,X)sit.:ir-J.
ot', th;? oblisn.tio!l
.'!.ll .1u.ri.o 1tction!l.

vtli:!.

'!i.1!.3

b!'_:l

is

ct

::\S

:J.

cy

zucb

.'l

::::.nc h.<?;:e '::!..li<lity

th.;.?

disc!l.,,...r;;c resul t..s o::ily w::icra e.
,

The p::iint :.li!lClt...";3::>d f?.h.:>vc is, of' c.::u.rs<::?, !I. cr!!:ic<!.1
la-..1, i..i;>., the un.i.:::rt.!l.i:L'1.;;; o·.:- th!!
t.;..
.<:.
ric-;:·:.f"u.l
s.::i.ti.s.f'i2J. by
St::i.te or loc<>.1. ;;ovcnt--:::c;:i:t.::i.1
;i.t least 1n t:1!:
th:-:.t !luch i:xuth..:i:ity
b'2'en citl.:r <H'J'.'Oi::.tc'l to
3S the

O[

1

CW'!le.t' S est!!'_i;e,

:security.

OT

t-;_'!!!t it

ks

w:i.:ebbc-r
di:;-

to t:ie

o::" coctract
t:::-

o-: a sh_,·..rin.:
r-=Tr-:sei:'!tc.tive
tile

!o -put th"! !:1!?.'tter e. little di1'.f,,;r2i:L ,·, there· cnr:.
s-...:'::::;-tit·.rt.lon of'
United
:l.3 obl.ico!."' on its U?ci.:.r:1";1.,,:J,
It r-ir;;at oe
out, in
this ccnnec:tion,
ricb.t to :;:::·c". a 'c:l:1.iD P.;;::i!:::=:': e
er loctl
or.rice is co"; the SE."ile c.s
to
a c.L1im ill e.ny :\uxis·:iict!an.
'The
;:x;rt1cul.a:r r.:>1.f:7!U!ce to y.::u.!'
ir ns
is bein !'.:c:.:_-2-:t
to Section
23 c.f
above f,ct, witilout b".:.n!.fit o:;' :d.;)ud1c.'.'.tion tL"l:!.c:r S!!'cti::>n 35. ·ln·
fact, :;1.:; you point out, the
ro.l.:: is
th:it
t!".i.:itee.
1
_;

GOV00000071

!4J 050/054

160a

2

\i":li.lc there
:,;

oa

lcc"."!.l
no l\?::J

t.:-

th<!

'.:t;,tcs

L>

i:t
:2...::.-: :°-:.: LA::l
t;·:te::;e f':.::r,-:"J!t:::l
I
e.:·,::, t Y.1"'JVC.t, tb'.".t c C' fi:..rts L'1 tb"' t
Lo:i.
.:"ur--":.=:::- c-:,::;-,1:.c.ote·.1
bJ tJ')
th':' f..:-.:?;''1l't-:?K'r.t h".s
i.n-:-.il.rt;;:;
1n F..ri;'.Z:J
l'!CCO!.L'lt3 to ':i"Jic;:i
!"eel

o:"

r4:ht of cki:i.

It i.:J my

to fin:t a

c=xr
th;t
act1-;,.n ur.i:il the.:io

c'-1.r Gt:.ne>:-tl Co'.J:,3el,'s

ic

ci'

p:;siticn on t'hit
I
t::cb !u:i<:tu.rs- it v::-u.l·l t--e cc.ly

h!>. ve b-:en co:nplete·l.

ot

r.r::-

J-_'!-.i
";:":""'.! '.-:::::-.-:

tili.s

t".>

l!.!::u-

H. J.
"i"!;:;n:;r.-

?.ohert A. Z-!:b!!.:1

f:tr..t.e of'"' lnj!::uui

? l')

t-!! !.;'?\Lll.?

copy for: -- Jvl.x- .--S!!!.i th,-Chic:_aeo

cc: · PD Files
}lo.26

Disposition of four1d and. unclaicecl bonds

Cress to:
and:
and:
a:-..d:

315.15 H. 1. GenenLl
315.15 H. 2. By state - Indiana

1.1-19--71

315.70 F. 1. General
315 . 'TO F. 2. By s tu te - lndiam.

7.o De-p1ity Attorney General of Ir.d.ia.n.'l. dj sct:ss:.:-,3 ss::.= c:- -:.:-_e

i:l·:o:!.v·=:! in recc;;;niz1n.::; a State's right to receive JUY::e:-.';

GOV00000072

[4]047/054

161a

Inquiry From New Hampshire State Treasurer
Concerning Unclaimed Or Abandoned Securities
ESCHEAT
Inquiry From New Hampshire State Treasurer Concerning Unclaimed Or Abandoned
Securities
May 12. 1976
The Honorable Robert W. Flanders
State Treasurer
The State of New Hampshire
State House
Concord, New Hampshire
Dear Mr. Flanders:
Upon receipt of your letter of April16, 1976, I inquired as to whether the Department had
arrived at a position on the recognition of State statutes purporting to escheat property
that is abandoned or remains unclaimed by its owner.
I am informed that the Department has had a position on the matter of escheat of United
States securities for many years, but for reasons explained in the 1969 letter to you, this
position was described as still open. This long-standing position is that the Department
will recognize claims by States for payment of United States securities where the States
have actually succeeded to the title and ownership of the securities pursuant to valid
escheat proceedings. The Department, however, does not recognize claims for payment
by a State acting merely as custodian of unclaimed or abandoned securities and not as
successor in title and ownership of the securities.
In other words, the Treasury recognizes escheat statutes that provide that a State has
succeeded to the legal ownership of securities because in such case payment of the
securities results in the full discharge of the Treasury's obligation and this discharge is
valid in all jurisdictions. On the other hand, payment of securities to a State claiming only
as a custodian results in the substitution of one obligor, the Department of the Treasury,
for another, the State. Not only is there serious question whether there is authority for a
State to effect such a substitution, but there seems to be no basis for believing that
payment to a State custodian would effectively discharge the Treasury of its obligation.
Even if the discharge were claimed effective in the State to which the payment is made,
it is believed that the Treasury's obligation and liability would still remain in force in all
other jurisdictions.
In the 1969 letter, reference was made to a then pending case in the U.S. District Court,
Indianapolis, Indiana. This litigation dealt directly with the rights of several States to
obtain payment, as unclaimed property, of United States postal savings accounts, which
had been entrusted to the Treasury for liquidation. At the time the 1969 letter was

GOV00000078

048/054

162a

written, there was a possibility of some modification of our traditional position as a resl11t
of the court decision in that litigation: However, after some delay that controversy was
resolved through Congressional legislation and the litigation was terminated.
I also understand that a few years later the Treasury participated in extensive
deliberations with the Department of Justice, which were prompted by an inquiry made
by the State of New York about unclaimed Federal obligations held by the Treasury. The
result was to reinforce the view that there are fonnidable constitutional and legal barriers
to the recognition of State claims to so-called abandoned property.
Other States have inquired over the years as to how they might escheat unclaimed
United States securities. The principal problem seems to be that the cost of compliance
with the constitutional due process safeguards, as reflected in U.S. Supreme Court
decisions, as well as provided in most State statutes, renders attempts to escheat
relatively small amounts of securities completely unprofitable. This could be the case
with you with securities totaling $543.41. As you suggest, your better course of action
would probably be to present the securities in another six years with an appropriate
order from your Superior Court.
I have outlined the Treasury's case at some length to give you a greater appreciation of
the complexities of dealing with abandoned securities-. While the Department postponed
providing you with a further response in the hope that these later developments to which
I referred would provide a basis for modifying its position, it certainly should have·- ··
informed you sooner that it could not recognize your office's claim except in compliance
with the law of escheat under New Hampshire statutes, i.e., pursuant to a court order
following 15 years' custody of the securities. I apologize for the delay that occurred.
Sincerely yours,
William E. Simon
Guerin: Mosso: 05-06-76
Bk17doc009

GOV00000079

163a

;•-"

··-='

OCT O 11982
Mr. Paul D. Connor /

Assistant Director /
Abandoned Proper- cy

.

State Treasurr . .
One Ashburton Place /
·12th Floor
. Eoaton, MA 021o8 / _
... ::·.··.·

\

.....

. ·y· ·: .

.

.-

.

.·

' ' ,_·:_

. .. .

.

..:c;..:.,;,.- ·Thia refers to J'Dm" letter of J'al.713. 1982, concerning approximately
"
$250,000 in United. States Sa-rl.llgs Bonda turned over. to your Departmen't pursuant ",. • :/ <.;

'.

r

;, . > .
;" .: ._: .·.. . · .
i ,: .. ·:.:A United States S&'rlngs J3ond ia a cont:ract between the United. statea
.:<./.<•·.
; ··.: ' .. the person(s) named in the registration. We aze enclo.siDg the regulations
-- -· · · ·. ;2
·
bonds, Department C1:rcular .No. 530, Eleventh Revision, and
......
. _ ,·· - Department Circular No. 3-Bo. 1hese regulations are incorporated in the bond.
· . contract by ret'erence and are matters of :f'eder&'l. 18.Y. Your attention is called ·
,-'
• to the f'ollowing pertinent sections: 315.5 and 353.5, which provide that with
.. ·;exceptions not perti:lent 1n this case, the registration used must express the -.. ·
..
,actuaJ. ownersh:ip of and interest in the bond.a and will be considered conclusive
·.,:_of such ownership and interest; 315.15 and 353.15, which provide that asv:Ulgs .
.2
. · bonda are not
and are pa\yable onl.1' to the owners named thereon_,. ·
:'
· ... '·):.·;except as speci.1"1c:ally provided in the regulations, and then onl:y' in. the mmmer· ; ',. ··
;: .
and to the extent so provided; and 315.70 e.nd 353.70, which set out the rulea ·· · ', ·
·
entit1ement where one or both of tbe persons named on a bond have died :'-Y :..: >

f

;

•

;, .,

..

·<·.:::..:·
··

accordmlce-.with the bond contract,. -we· will recognize a reqliest -for,,;;:,
behal:f'·o:e the state purswm't to a statute which :;n-ovides for· the ·..,. . ?
Mm1ni st:rative each.eat;;. i.e.,. vesting of title,. of abandoned :propet;y, vhe?"e ... :·t ·\;'.:
,the application of the statute is
the tumishing of adequate ___ l;··
notice and reuonabl.e o:pportun1ties tor interested parties to be hea.ri..:· In . · : ' ·
.,;.
tbis cmmection we Dote the decision o-r the United States District Ccurt> · .:.: :.: . _ .,. ._, . ,. . "········.·
.·.•. ·· ·, :. ·· · District of Massachusetts, in Application of CommonYee.lth o'f Masaacimsetts, · (·' ·.·
-._: .·: · 206 7. Supp. J.c6 (1962). In construing the Massachusetts aba:ldoned. !'raperty··· .·
...
with respect to·undi&trlbuted ba.nk:J.-uptcy dividends held in the-United states..::·::._.,:
... · ...
the Com-t denied the Commonvealth'a contention that the eschd.t
_ .·.
Section .6 of Chapter 2ooA,
self'-exeeuting and tha't no judicial. ·.. _·. ·
decree was required to e:f'feetuate
based on a :pl"!sumpi!On
. ·' ' · · :-:
:: abandonment a:f'ter·14 years. The Court bel.d that either a judicia.1. decree of , .
..
. -• · eschea.t was an indispensable requirement or at. lea.at some :prior notice .to. the
. . :'.'. :};
. _· ·: _;. ·'lll'lknown cl aimanta was neces3827" as a. ccndition precedent for the Commomtealth
.,-, .,:, :", .. to have acquired a·good title to the-t'lmd.s...
·

-· . ,

•.

'

.

.. .

. • ·.!

- ....,::··..':,;···

·:.-."-

GOV00000054

164a

terms

Under the
the bond contract, we could. make
to the Treasurer
the Commonwealth 1fhere the Cammonwee.1.th, tbrough approprla.te court proceeding.a,
takes the owner's titJ.e to itself. In that event, we would P8"3' the owner in
the person of' !ta successor, the Cammonwee.l.th. See Sections 315.23(a) and
353.23(a) for the proper evidence to be submitted if' this approach is f'ollowed.

In lieu of such a judgment, the Department woul.d consider evidence showing
that the procedm-al dl1e process requirements of notice and hearing have been
satis:tied as a condition precedent to the acquiring of title by the Commomrea.1.th
pursuant te> Chapter 200A of the Lava of Maasa.chu.setts. In the alternative, the
bonds could be transmitted to the Bureau to be he1d pending & claim
t:b.e
owner or his righttlll. sucessora .. /

,., i..,·.·. - .

.· ... ; '.-:·:

:.·,·.··-.·

-·

GOV00000055

I

165a
DEPARTMENT OF THE TREASURY
BUREAU OF THE PUBLIC DEBT
WASHINGTON, DC 20239-0001

April 6, 2004

The Honorable Richard H. Moore
Treasurer, State of North Carolina
325 North Salisbury Street
Raleigh, NC 27603-1385
Dear Mr. Moore:
I am responding to your letter to Secretary Snow about matured but unredeemed U.S.
Savings Bonds. As administrator of North Carolina's Unclaimed Property Program, you
asked that Treasury disburse to the state an amount equal to the state's estimate of the
value of matured but unredeemed savings bonds held by residents of North Carolina.
The Department of the Treasury does not have the legal authority to pay North Carolina
the estimated value of matured but unredeemed bonds held by the citizens of North
Carolina. The Secretary of the Treasury issues U.S. Savings Bonds pursuant to the
authority contained in Article I, Section 8, Clause 2 of the United States Constitution; and
Title 31, United States Code, Section 3105. A U.S. Savings Bond is a federal contract
between the United States and the registered owner on the bonds, and under federal
regulations payment may only be made to the registered owner. In order for the bonds to
be paid to North Carolina, the state must have possession of the bonds, statutory authority
to obtain title to the individual bonds, obtain an order of escheat from a court of
competent jurisdiction vesting title in the state to the individual bonds, and apply to the
Department of the Treasury for payment.
As of February 29, 2004, there were approximately 30 million savings bonds in the hands
of the public with a value of approximately $11.9 billion, which are matured but
unredeemed. The $11.9 billion represents our obligation to pay, in perpetuity; the owners
of these securities when the bonds are presented for redemption. We have worked to
encourage owners of matured savings bonds to redeem those bonds and put their money
back to work. In addition to outreach through the media, our website, and more directed
communications, we have staff who work to locate owners.
Over the past few years we located some 25,000 owners of matured bonds. to advise them
that their bonds had stopped earning interest and to encourage them to redeem the bonds.
In doing so we found that:
•

70 percent had the bonds in question in their possession and knew they had
stopped earning interest but chose not to redeem them at present.

www.publicdebt.treas.gov
GOV00000082

166a
2

•

20 percent had the bonds but were unaware that the bonds had stopped earning
interest.

•

10 percent didn't know they had bonds or didn't lmow where they were and
indicated they would probably file a claim for lost bonds so we could make
payment.

As you can see, many people holding matured bonds have made a conscious decision to
hold on to their securities despite the fact that they are no longer earning interest. It has
also been our experience that approximately 75 percent of matured bonds are redeemed
within nine years after they stop earning interest, which tends to confirm that many
owners or their successors have these bonds and eventually redeem them.
At present, we believe that continued outreach to bond owners directly and through
public education efforts will help convince these investors to put their money back to
work. I do appreciate your effort to help us in this work by featuring information about
savings bonds on your website. If you have any questions or would like to discuss this
further please feel free to contact me.
Sincerely,
(signed) V__a2!

Van Zeck
Commissioner
cc: Linda Matty
Exec Sec 2004-SE-001843
Phollenbach:ph 411104

GOV00000083

141019/054

167a

•

DEPARTMENT OF THE TREASURY
BUREAU OF THE PUBLIC DEBT
PARKERSBURG, WV 26106-1328

October 6, 2006
Richard I. Donelan, Jr.
Chief Counsel, Division of Legal Services
200 Eastgaines Street
Fletcher Building Suite 464
Tallahassee, FL 32399-0333
Dear Mr. Donelan:
I am responding to your letter to Commissioner Zeck about matured but unredeemed
United States Savings.Bonds. As counsel for the Florida Chief Financial Officer and
head of the Department of Financial Services, you requested that the Department of the
Treasury pay to the state of Florida an amount of money representing the proceeds of all
matured but unredeemed savings bonds belonging to Florida residents. In support of
your request, you cited Section 716.01, et seq., Florida Statutes.
The Secretary of the Treasury issues United States Savings Bonds pursuant to the
authority contained in Article I, Section 8, Clause-2 of the United States Constitution, and
United States Code, Section 3105. A United States Savings Bond is a federal
Title
contract between the United States and the registered owner named on the bonds, and,
under the governing federal regulations, the registered owner of a bond is conclusively
presumed to be the owner. See, e.g., 31 C.F.R. §§ 315.5 and 353.5. Payment on a bond
may only be made to the owner of the bond upon presentation and delivery of the bond.
See, e.g., 31 C.F.R §§ 315.15, 315.35, 315.39, 353.15, 353.35, and 353.39. The
regulations are incorporated into the bond contract by reference and are governed by
federal law. See, e.g., Free v. Bland. 369 U.S. 663 (1962). To the extent there is any
conflicting or interfering state law, the federal law governing the bonds governs. Id. at
668. The obligation to pay the registered owner is in perpetuity, and does not cease when
the bond matures.

The applicable regulations would pennit the state of Florida to be paid for the bonds,
pursuant to an appropriate state statute and after due process, by obtaining an order of
escheat from a court of competent jurisdiction vesting title in the state, and then applying
for payment to the Department of the Treasury pursuant to the procedures established by
the regulations that all bond owners must utilize. The Treasury Department has no
authority to pay Florida (or anyone else) the proceeds of matured but unredeemed savings
bonds owned by the residents of Florida outside the context of these procedures.

While not strictly relevant to the procedures that Florida must follow to obtain the
proceeds of matured but unredeemed savings bonds, it may be useful to know that a bond
owner's failure to redeem matured savings bonds in no way suggests that the bond owner

GOV00000065

[4J 0201054

168a
2

has abandoned the property. A recent survey of owners of matured bonds showed that
over 54 percent of the individuals who were contacted had possession of the securities.
The remaining bond owners were planning to file a claim for the proceeds of the bonds.
It has also been our experience that approximately 75 percent of matured bonds are
redeemed within 9 years after they stop earning interest, which tends to confirm that
many owners or their successors have these bonds and eventually redeem them.

Over the past few years we have been successful in over 64 percent of our attempted
contacts with owners of matured savings bonds. The purpose of these contacts was to
advise owners that their bonds had stopped earning interest and to encourage them to
redeem the bonds. In doing so, we found that an average of less than 28 percent of the
individuals who were contacted chose to redeem the bonds or file a claim requesting
payment for the securities within one year of our contact. This is another indication that
the bond owners will request payment at a time that is most beneficial for them and not
necessarily when the seeurities have ceased to earn interest.
I hope this information is useful. If you have any questions or would like to discuss this
further, please feel free to contact me.

Fred Pyatt
Assistant Commissioner
Office of Investor Services

GOV00000066

169a

Trea UT)'Direct
EE/E Savings Bonet. FAQ•

• \I! !Mt 11 tb1!Z!N1x11 mb my tmo dtOm tht fht SY§15?
• \It !)#

m ,.,,,. ft;t«s !

wtm• b!md a I dJ Whit 11 Clan' lsnow tbe ownw'• $1QI
S«>dxffunM?
• 1n • msn tblt tun • "'' ••• nqwtmmt Inf. can the stm cM:n lb:! mppn
n:mnmt• bx •mrtiM lt!M tbt mtt"" "" QOSHSWn7 For
1 JM• mn 1rmp1 trpnd• llMg l't pqttm !rPm F11ndqrf=d H'P dmgst FxpJ
• lmttm yytiga b;1od1 m Wia
tfimMslh rsOm stes iQd> n d!w•. b!4
1 tbpUqht AMUnhlD wn Mft:to!llfmb•. ttcm docs thl:i wpdc?
• [d lb:W bw I

••••cm

'*

Whwt lllould I do

d..eroywd7

I"",.,• ..._. 9'011d h•• m.- IDlt, •

..., or

SllT1ptf I'll out 1nd 1lgn the f\1nn L.Q1t. sio!M. pr Destroved U.S. SiM>qt Bont11
£Poon flD r 1MDl attord ...11 to \he tonn'• ...,tNd:lons and malt to the addr••
provided on th• form.
We llftd the fQll1wtlQ '1fomi.u:in
Bond . . . . n""1l>tr •• • yot.I

don'

fwthe record of your bond :
Mw the bond $ertal DQlllber,

.. of

$pdt; month and Yter ot punNn

Coms*l• todlt uc:urty number (for . . . . lD-45-6789)

,,_., tdadbv rrtidll,..,.

Md,.. (strl!lt.

I
cm i11t.11ba1tt thit :a
mWld to a111b
S..•...,.
• "*Ulb! LpgwPcsxqrw!
Pgaq
g_,,_..utoMwnt a ' J • ........ , ... IE._,.,......,, ..
nipllm

lllond1

thebondt Min'\ done IO,

lodll

._...,Mi••

ms r a

W9

pemio

1

Ille I .... tD . . . . CMictlilO

F ..._ •• I!! lond• don' Mild to be relli5ued
Anlll
typogniphtaf
n.wn9. The bond n.ds to be nSsued I the tnW ..
"1nlbnt tnOUQh lO prww1t the bond O'fllMf from c:ashklg t. Tog• a bond
n9sU«l, Jufl ftl out WMS 1lgn ronn PQ r 4000 n lndkatei on the form Ind
m.I t
th• bond• to th• Trluury Rltd SIO.Btfls sle ilt the lddrws
on th• tonn,

"'°" _,

Inmrnct AddlWll •• l!I 8ond1 don't need to be ntosued to correct th•
addrw• thlt •PP•n on th• bonds.

Nu••··

tnaHTst lodll lecultty
El! Bonds don't need to be .-sued to
conw:t I Sodlll Seady Numbw. The Sodll Sea.ulv Number does not
wtlblth OWMn"'1 or ta llblly, l '• ustd to ft1d siMlgs bond l'SDl"ds r, tw
a.-npt, the bOnd• are btt end the O"MW hu not bllt.a nmrd of,..,
numb9w. Be..,,. to Dall • l'SDl"d of II 'fOU" bonds l1dJdbg se111 l'.M1Mw.
On Wf'f p.,.bond• ..SU!ld on
dlgts ot
Sodll SC#'ly numbs
fT'mlaf. md ,..._

to,,....

1, 2006, or 8ttr" the fht fMI

..n __....,TI*.,. done
tor

ldedt:atb1nwnbw ...
l'O'a" prtoty IOd
theft.

l!QtQIRA

.......... ,.... •• ..... ..... """-W1

•c:Md•

Qullftld
rmy be..,.. to
II or Pa1 ol tbe tterest emMd trom
1111. . !.! WMS I 9onm ..sued lftw 1Mt wtltn
quall'led
_.,... ... Bond• must be ..IU«l h the ,,..,. of 1 tapayer age 24 or
a the
•su.nca. Other
end lnCDnw rrnts _.,, See IIDR d.... on the
eduaiU>n
or ll5 (Man MU

170a

What ls th.- penalty tr r a sh my bond during the rtnt s yur1?

Ir you

sh

oono hdorc

1$

5 yearn old, you .-.1 fcrfett the bst 3 months'

L11cre.:
What arc Patno l londs?
P !rot bcnc:s .,., SM;ter LE DDndsi that
nst uuons The';
""' t te

re

tllrouqh in41nt.iaJ

":P<!:-no: 3ooG •

I'd
to b u y a u
bOnd as a 91ft. What if I don' t !mow Ole owner•
Soca l Securfty " umb r?

mQ" oo:io a
the TreasurvOnc emu t holder
Mlf1l's rut rame &nd Sooa Seurty Na.rrbcr ¥tcJ/or
ID
The gilt DOnd ts
n the ccou.,t holder's
lt
untl : I'!
c.count t.ol1er Obt l1'1!il the
c.court n ...r nber ct : ,.
and K
r ltdy t:> tr•
th bond into lhc r.ccnenl's a.."'C.01.n::

To
n

ds io ltnow th r

rem:$

When YoU buv .lii)VlnQlo bonds as Qits, yo.. rrusl "Old :--em m
ct
acrount for t
d11ys before you cz-1 de
th,...,, ro tht gt'r
rC'Clpl<'nt Th<' l ivc·l111v hn"1 nrot<'rt• Trl'll'lury ag ainst loss by l'Mur1nq
AC":ll
dt.11J1t h<>r. bt11tn !111(.t
t.Om pltited befort: t he furrds can bt: muv111d.

,...,P.

1he glfl rcctp1cnl w1ll l hcri rc:cc1vc

iin e·mall announcing

the t rM Sfot of lhl? uond

Jn • state th•t hH • permanent ucheatment law, can the state c&alm th•

money repraenled by a«uritles that the sate bas In Jts possession. For
eJUample, un • atat• calt\ iwrv1n9s bonds that it's gotten from •b•ndoned

ufe d•po•lt boau r
c U(partmcnl or th

P-lr men\ or
hlllP nd O'f'IMt111".;>
o• the
p rsuan• :o.., lid cheat
Oepatmc.nt, hoW(!'."f!!,
c:ocs net rcco;ni:c m'l •or c:if'r-mcnt by a State- ac:rq ""lC'TCI) es CU5tod"'1 or
u
l'IC r.ro 1
r:c
-.e no: sua:ssc.- ., : .1.nc1 o
h p o•
T

U,,ded St.'.\tes

the

T (<lSurv .,.,iJ r

cogruz.e dams =>r

II!'!

O\vP

'or

succeeded t o

tr, RCOg\'\l:'CS eschl": • sta."'W.es t
prQV1IS lhal
OiM'lm 11> ol uc ,.,.es te:a_sc i.n suet\ case

rf':Sull• In I.ii OISCh rg or
JS v d n •I 1u• d..:!On,;

l'reasur{s ob.._a•;on aod this

St •

o•

But, p.aynent of ccurit
10 a St
.rrmg
as i'!. c;.1stodk'U1 results n 1
ot one ob 1gor, the Stbtc , 1o•
the Oepar..men: o• the! lrcosurv
l'tol on y
there sr.nous auC!!lttO'.'t wt:ethCf
s a.Jthort'f :-Or a S: :t> :o Mf •
SUC'h f' 'lt.b'ltfUllDn, b11I kn there
lo be l"O DaSiS for b
thl!l l>.\)'m(!nl
lo a State tustoo11111 would
I rcasu1 y or its
t:vcn 11 tht dijth.>tQt
worn clttlmN'l 11tfc•r.tl111i In t'hfl C'1 tMt! t t'l which t he payment Is mt'ldo, It I'\ h t'il<J11C'd thllt
l'hfl TrM!HJry'11 ohllqntlnn 11nd 11.-.bllltY would 1;tlll remain in forc:o In &II ot.h or

Jui

I

NvlnO• bond• are being sold through auction Mtu such a• •lay••,
but 1 tt10&19ht own•rchlp wa• non ·tran5fentbJe.• How does lh• worlr?
S w.q, bonds
sol1'.mitTK!s
s sauven rs o- cnrecrors' it !nS The s
C:e ,,·c "e::t tin! o ...
of the
bo-d. sinc.e by •«!gu tK>"I, "'uv rqs
bond s a registered U'Cu•h One! owr.ershop IS ro-- tra-sferable 1 h Untcd States
T
smy sti'l hit
tontr ua rrat1Cnsl"ip ....th
o• co·owners "''mid on
on "''ho bo:J9t.t t e bend at .a...id.JOn Bca;n or th<S, th
t<tion
t asri ··!'Its Just
a
I n ll'lf' propeny o• the
er co-o..-ntn r..l!.mCd Ol'I t
r>ena !'MY tw. tfie pro:>err,. n• tne u- Cd S • C'S Tr suf).
fO\ s lost
Ms sntc beet reperej Bottom lne 11•5
cood
Idea :o t>uv as :n;t bone! t itn uclon,
d:> not ec.Qu
,
to
tt
or h•v illW
nql'l:s.

Dn 9

1

171a

No. 10-1963
IN THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
____________________
TREASURER OF THE STATE OF NEW JERSEY; DIRECTOR OF THE
DEPARTMENT OF REVENUE OF THE STATE OF MONTANA; TREASURER OF
THE STATE OF KENTUCKY; TREASURER OF THE STATE OF OKLAHOMA;
ATTORNEY GENERAL OF THE STATE OF MISSOURI; TREASURER OF THE
STATE OF PENNSYLVANIA,
Plaintiffs-Appellants,
v.
UNITED STATES DEPARTMENT OF THE TREASURY; SECRETARY OF THE
TREASURY; BUREAU OF THE PUBLIC DEBT, a Division of the Treasury;
COMMISSIONER OF THE BUREAU OF THE PUBLIC DEBT,
Defendants-Appellees.
_______________________
On Appeal From The United States District Court
For The District Of New Jersey (Civ. No. 04-4368, Hon. Mary L. Cooper)
_______________________
BRIEF FOR APPELLEES
_______________________
GEORGE W. MADISON
General Counsel

TONY WEST
Assistant Attorney General

PAUL G. WOLFTEICH
Chief Counsel

PAUL J. FISHMAN
United States Attorney

EDWARD C. GRONSETH
Deputy Chief Counsel

MARK B. STERN
(202) 514-5089
ALISA B. KLEIN
(202) 514-1597
Attorneys, Appellate Staff
Civil Division, Room 7235
U.S. Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530

DEAN A. ADAMS
Assistant Chief Counsel
THEODORE C. SIMMS II
Attorney-Adviser
Department of the Treasury

172a
2. As noted above, Treasury regulations generally provide that payment on
a U.S. savings bond will be made only to the registered owner. The regulations
specify limited exceptions to this rule, including cases in which a third party
obtains ownership of the bond through valid judicial proceedings. 31 C.F.R.
§§ 315.20(b), 315.23, 353.20(b), 353.23.
A State may satisfy this ownership requirement “through escheat, a
procedure with ancient origins whereby a sovereign may acquire title to
abandoned property if after a number of years no rightful owner appears.” Texas
v. New Jersey, 379 U.S. 674, 675 (1965) (footnote omitted). Accordingly,
Treasury has long advised state governments that, to receive payment on a
U.S. savings bond, a State must go through an escheat process that satisfies due
process and awards title to the bond to the State, making the State the rightful
owner of the bond. See, e.g., JA 136 (1952 letter of the Secretary of the Treasury
to the Comptroller of New York), JA 139 (1983 letter from Treasury to the
Commonwealth of Kentucky).
Treasury has made equally clear that it will not make payment on a bond if,
as in this case, a State does not obtain title to the bond and merely seeks “custody”
of bond proceeds while the bond owner retains the underlying right to payment on
the bond. JA 135-137, 139. Treasury has explained that “[p]ayment of securities
-6-

173a
to a State claiming only as a custodian results in the substitution of the State for
the Department of the Treasury as obligor on the securities.” JA 139. “Not only is
there serious question whether there is authority for a State to effect such a
substitution, but there seems to be no basis for believing that payment to a State as
custodian would effectively discharge the Treasury of its obligation” to the owner
of the bond. Ibid.; see also JA 135-136.
The same distinction between state ownership and custody is set out on
Treasury’s website. JA 142. The parties stipulated that the website provides
Treasury’s interpretation of its own savings bond regulations. Ibid.
B.

Proceedings Below

Plaintiffs are six state governments that seek to compel the U.S. Treasury to
pay them billions of dollars that, plaintiffs allege, represent monies owed to the
owners of federal savings bonds that have matured but have not yet been
redeemed. Plaintiffs allege that there are approximately 40 million matured
U.S. savings bonds outstanding and that their proceeds are collectively worth
about $16 billion. JA 97 ¶ 36. They allege that about $1.6 billion of the proceeds
are owed to bond owners whose last known addresses were in the plaintiff States.
JA 87 ¶ 3.

-7-

174a
No. 12-926

In the Supreme Court of the United States
DIRECTOR OF THE DEPARTMENT OF REVENUE OF
MONTANA, ET AL., PETITIONERS
v.
DEPARTMENT OF THE TREASURY, ET AL.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

BRIEF FOR THE RESPONDENTS IN OPPOSITION

DONALD B. VERRILLI, JR.
Solicitor General
Counsel of Record
STUART F. DELERY
Principal Deputy Assistant
Attorney General
MARK B. STERN
ALISA B. KLEIN
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

175a
3
period beyond maturity during which the bonds have
earned interest and continue to earn interest.” 31
U.S.C. 3105(b)(2)(A). Pursuant to that statutory author­
ization, the Department’s regulations allow the bonds to
be redeemed at any time after maturity. See 31 C.F.R.
315.35(c) (“A Series E bond will be paid at any time
after two months from issue date at the appropriate
redemption value.”) (emphasis added); see also 31
C.F.R. 353.35(b). Because payment on a savings bond is
made from the general funds in the federal Treasury,
during the period before the bondholder redeems the
bond, the funds continue to be available to the federal
government for any “expenditures authorized by law.”
31 U.S.C. 3105(a).
b. States have enacted statutes enabling them to as­
sume title to or take custody of property that appears to
have been abandoned by its owner, “a process commonly
* * * called escheat.” Delaware v. New York, 507 U.S.
490, 497 (1993). The Department has provided guidance
to the States about how those laws may apply to U.S.
savings bonds in light of the strict limitations on re­
demptions and transfer established by the federal
scheme. As discussed above, the regulations generally
provide that payment on a U.S. savings bond will be
made only to the registered owner, thus precluding
payment to a State invoking its unclaimed-property
statute. The regulations include an exception, however,
for cases in which a third party obtains ownership of the
bond through valid judicial proceedings. 31 C.F.R.
315.20(b) (“The Department of the Treasury will recog­
nize a claim against an owner of a savings bond * * * if
established by valid, judicial proceedings.”); see also 31
C.F.R. 315.23, 353.20(b), 353.23.

176a
4
Accordingly, the Department has long advised the
States that to receive payment on a U.S. savings bond a
State must complete an escheat proceeding that satisfies
due process and that awards title to the bond to the
State, substituting the State for the original bondholder
as the lawful owner. See Pet. App. 12a. But given the
regulatory prohibition on payment to anyone other than
the lawful owner, the Department has also made clear
that it will not make payment to a State on a bond if a
State does not obtain title to the bond but instead mere­
ly seeks “custody” of bond proceeds until the bondhold­
er redeems the bond. See ibid.
That guidance was first set forth in a 1952 letter to
the State of New York, was reiterated in a 1983 letter to
the State of Kentucky, and, since 2000, has appeared on
the Department’s official website. See Pet. App. 10a-13a
& n.8. Petitioners have referred to the online explana­
tion as the “Escheat Decision,” id. at 11a-12a, and both
parties have acknowledged that the Escheat Decision
represents the Department’s considered interpretation
of federal law, id. at 13a.
2. Petitioners are officials of five state governments.
They sued the Department in the United States District
Court for the District of New Jersey to compel the
United States to pay them funds out of the federal
Treasury equal to the amount of proceeds on certain
matured federal savings bonds that have not yet been
redeemed by their registered owners. They allege that
$1.6 billion of the proceeds of matured U.S. savings
bonds are owed to bondholders whose last known ad­
dresses were in the States of the original seven plaintiffs
in this case (two of whom have not joined the certiorari
petition). C.A. App. 87 ¶ 3. Petitioners seek “an order
directing the [federal] Government to pay the proceeds

